No. ________
IN THE

Supreme Court of the United States

d

PHILADELPHIA INDEMNITY INSURANCE COMPANY,
Petitioner,

—v.—
G ATEWAY H OSPITALITY G ROUP I NC ., W ESTERN H OSPITALITY
GROUP, LP, d/b/a HILTON GARDEN INN MISSOULA ; KALISPELL
HOTEL , LLC, d/b/a HILTON GARDEN INN KALISPELL ; BOZEMAN
LODGING INVESTORS , LLC, d/b/a HILTON GARDEN INN BOZEMAN ;
JWT H OSPITALITY G ROUP, LLC, d/b/a H ILTON G ARDEN I NN
BILLINGS ,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF MONTANA

PETITION FOR A WRIT OF CERTIORARI

THOMAS A. MARRA
MARRA , EVENSON & LEVINE P.C.
2 Railroad Square, Suite C
P.O. Box 1525
Great Falls, Montana 59403
(406) 268-1000
tmarra@marralawfirm.com

DAVID GRASSMICK
Counsel of Record
CARRIE E. COPE
DAVID CURKOVIC
COPE EHLERS , P.C.
120 West Madison Street,
Suite 1300
Chicago, Illinois 60602
(312) 549-9280
dgrassmick@copeehlers.com

Attorneys for Petitioner

i
QUESTION PRESENTED
Whether the nationwide territory of coverage clause
in the insurance policy Philadelphia sold to Gateway
in Ohio obligated Philadelphia to submit to personal
jurisdiction in a Montana court when Gateway sued
Philadelphia in Montana because, as the Montana
Supreme Court found, “Philadelphia had the power to
contractually exclude Montana from the Policy’s
coverage area ….” should Philadelphia have sought to
avoid litigating in Montana. Gateway Hosp. Grp. Inc.
v. Phila. Indem Ins. Co., 2020 MT 125 at *P33; see
also Farmers Ins. Exch. v. Portage La Prairie Mut.
Ins. Co., 907 F.2d 911, 914 (9th Cir. 1990). Or
whether the due process requirements of the
Fourteenth Amendment as expressed in this Court’s
personal jurisdiction jurisprudence coupled with
concepts of “fair play and substantial justice” defeat
personal jurisdiction in Montana because Gateway’s
Philadelphia Policy contained a forum selection
/arbitration clause that required all disputes about
coverage between Philadelphia and Gateway be
arbitrated in Ohio, thus leading Philadelphia to
expect at the time of contracting with Gateway in
Ohio that, by the parties contractual agreement, any
coverage dispute would be arbitrated in Ohio and
that Philadelphia would not be subject to personal
jurisdiction in a Montana court.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioner
Philadelphia
Indemnity
Insurance
Company was the Defendant-Appellant below.
Philadelphia Indemnity Insurance Company is a
wholly-owned subsidiary of Philadelphia Consolidated
Holding Corp., which itself is a privately-held and
wholly-owned subsidiary of Tokio Marine North
America, Inc. (“TMNA”), a privately-held Delaware
corporation. TMNA is a subsidiary of Tokio Marine
and Nichido Fire Insurance Company, Ltd. (“TNMF”),
a privately-held insurance company organized under
the Companies Act of Japan. TMNF is a subsidiary of
Tokio Marine Holdings, Inc., an insurance holding
company organized under the Companies Act of
Japan.

iii
TABLE OF CONTENTS

PAGE

QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT ..................

ii

TABLE OF AUTHORITIES ................................

v

PETITION FOR A WRIT OF CERTIORARI ......

1

OPINIONS BELOW. ...........................................

1

JURISDICTION ..................................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ..........................

1

STATEMENT OF THE CASE.............................

1

REASONS FOR GRANTING THE WRIT. .........

4

I.

There is a Split Among Circuits Reflected
in the Montana Supreme Court Ruling
Regarding Whether the Presence of a
Nationwide Territory of Coverage Clause
in an Insurance Policy Means the Insurer
Has Agreed to Submit to the Personal
Jurisdiction of Courts Wherever it Sells
Insurance—and This Court Should
Resolve the Split in Favor of Reading the
Entire Insurance Contract to Find the
Insurer’s Expectations Concerning Where
it (and the Insured) Expects to Litigate in
the Four Corners of the Insurance
Contract, Not in the Territory of Coverage
Clause Only ..................................................

5

iv
PAGE

II.

The Montana Supreme Court Ruling
Conflicts With This Court’s Rulings On
A Defendant’s Expectations Concerning
Personal Jurisdiction ...................................

10

III. This Case Points At A Conflict Among the
Federal Arbitration Act, the McCarranFerguson Act, and United States Supreme
Court Jurisprudence Concerning Personal
Jurisdiction—And This Court Should
Provide Guidance How the Insurance
Industry Should Navigate Those Issues .....

16

CONCLUSION ....................................................

21

APPENDIX:
Appendix A: Opinion of the Supreme Court of
Montana (DA 19-0502) (May 19, 2020) .......

1a

Appendix B: Opinion and Order of the
Montana Fourth Judicial District Court
(DV-18-1357) (August 19, 2019) .................

36a

Appendix C: Policy Arbitration Forum
Selection Clause ...........................................

73a

Appendix D: Philadelphia Indemnity
Insurance Company Policy
(PHSD965996) ..............................................

77a

v
TABLE OF AUTHORITIES

PAGE(S)

Federal Cases
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ......................................

17

BNSF Ry. v. Tyrrell,
137 S. Ct. 1549 (2017) ..................................

10

Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) ............................ 12, 14, 16, 18
Farmers Ins. Exch. v.
Portage La Prairie Mut. Ins. Co.,
907 F.2d 911 (9th Cir. 1990) ........................

5, 7

Lexington Ins. Co. v. Hotai Ins. Co.,
938 F.3d 874 (7th Cir. 2019) ........................

6, 8

Moses H. Cone Memorial Hospital v.
Mercury Construction Corp.,
460 U.S. 1 (1983) ..........................................

17

OMI Holdings v. Royal Ins. Co. of Can.,
149 F. 3d 1086 (10th Cir. 1998) ..................... 6, 7, 8
Rodriguez de Quijas v.
Shearson/American Express, Inc.,
490 U.S. 477 (1989) ...................................... 9, 19
Rossman v. State Farm Mut. Auto. Ins. Co.,
832 F.2d 282 (4th Cir. 1987) .......................... 5, 6, 7
Scherk v. Alberto-Culver Co.,
417 U.S. 506 (1974) ...................................... 9, 19
Walden v. Fiore,
571 U.S. 277 (2014) ........................................ 13, 15

vi
PAGE(S)

World-Wide Volkswagen Corp.,
444 U.S. 286 (1980) ........................................ 13, 15
State Cases
Gateway Hosp. Grp. Inc. v. Phila. Indem. Ins. Co.,
2020 MT 125, 400 Mont. 80,
464 P.3d 44 (2020) .................................. 1, 7, 10, 15
Katz v. Katz,
2018-Ohio-3210 *P36
(Ohio Ct. App. 2018) .....................................

13

Tyrrell v. BNSF Ry. Co.,
2016 MT 126, 383 Mont. 417,
373 P.3d 1 (2016) ..........................................

10

Young v. Security Union Title Insurance Company,
1998 MT 335, 292 Mont. 310,
971 P.2d 1233 (1998) .................................... 3, 17
Federal Statutes
9 U.S.C. § 1 et seq....................................... 1, 16, 17, 18
9 U.S.C. § 2 et seq.................................................

16

15 U.S.C. § 1011 et seq. ....................... 1, 16, 17, 18, 19
28 U.S.C. § 1257...................................................

1

State Statutes
ORC 3927.03(m) ................................................... 18, 19
RCW 48.18.200 ....................................................

19

vii
PAGE(S)

Other Authorities
Ford Motor Co. v. Montana,
Eighth Judicial Dist. Ct., No. 19-368,
Petition For Writ of Certiorari.....................

11

Akexua Ekehakde-Ruiz, “In a sweeping
lawsuit, 42 Chicago businesses seek
insurance coverage for COVID-related
business losses,” Chicago Tribune, August
3, 2020, https://www.chicagotribune.com/
coronavirus/ct-coronavirus-chicagolawsuit-business-interruption-insurancegibsons-20200803-gu6anbsmqzfxxh6h
6hgivwxbfq-story.html .................................

4

Leslie Scism, “Companies Hit by Covid-19
Want Insurance Payouts. Insurers Say
No.,” Wall Street Journal, June 30, 2020,
https://www.wsj.com/articles/companieshit-by-covid-19-want-insurance-payoutsinsurers-say-no-11593527047 ......................

4

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari to
review the judgment of the Montana Supreme Court.
OPINIONS BELOW
The judgment of the Montana Supreme Court was
entered on May 19, 2020. The opinion is reported at
Gateway Hosp. Grp. Inc. v. Phila. Indem. Ins. Co.,
2020 MT 125, 400 Mont. 80, 464 P.3d 44. Pet. App.
1a. The Order of the Montana District Court for the
Fourth Judicial District of Missoula County, Montana
is unreported. Pet. App. 36a.
Pursuant to the Order of this Court extending
deadlines because of the Covid virus pandemic, this
Petition is due to the Court on October 16, 2020.
JURISDICTION
Petitioner Philadelphia Indemnity Insurance
Company invokes this Court’s jurisdiction under 28
U.S.C. § 1257.
FEDERAL STATUTES
No Federal Statutes were considered below.
Section III in this Petition discusses implications
for the Federal Arbitration Act, 9 U.S.C. § 1 et seq.
and the McCarran-Ferguson Act, 15 U.S.C. § 1011 et
seq. that are raised by this Petition and may merit
consideration should this Court grant the Writ.
STATEMENT OF THE CASE
This case concerns litigation of a dispute about
insurance coverage under a policy of insurance sold

2
by Philadelphia Indemnity Insurance Company to
Gateway in Ohio.
Philadelphia is an insurance company with its
principal place of business in Bala Cynwyd,
Pennsylvania.
Gateway Hospitality Group, Inc. (“Gateway”) is a
corporation organized under the laws of Ohio with its
principal place of business in Twinsburg, Ohio. Pet.
App. 6a. Gateway is a nationwide seller of hotel and
restaurant management services. Pet. App. 6a. The
HGI Entities are private equity vehicle limited
investment partnerships that own hotel franchises.
Pet. App. 6a. The HGI Entities purchased hotel
management services from Gateway in Ohio. Pet.
App. 6a.
Gateway has a limited number of
employees, all of whom work in Ohio. Pet. App. 77a
“Policy, Renewal Application.”
Gateway purchased the hotel management
insurance policy at issue in this litigation from
Philadelphia in Ohio. Pet. App. 75a. That insurance
policy contains an endorsement that requires all
insurance coverage disputes be arbitrated in an Ohio
forum and that Ohio law concerning procedure and
evidence will be used in the arbitration. Pet. App.
73a-74a.
Gateway and the HGI Entities were sued by the
HGI Entities’ employees in Montana where those
employees alleged that the HGI Entities intentionally
withheld wages from some of their food service
employees. Pet. App. 47a. Gateway and the HGI
Entities sought insurance coverage to pay the unpaid
wages
from
Philadelphia.
Pet.
App.
47a.
Philadelphia denied coverage because the wage
claims in dispute arising from Gateway’s and the
HGI Entities’ intentional failure to pay their

3
employees’ wages were not covered under Gateway’s
Ohio-issued
Philadelphia
hotel
management
insurance policy and were an uninsurable claim. Pet.
App. 47a. Gateway and the HGI Entities settled the
unpaid wage action on their own. Pet. App. 47a.
On July 21, 2018, Gateway and the HGI Entities
filed this insurance coverage action in the United
States District Court for the State of Montana under
the Federal Court’s diversity jurisdiction. Gateway
and the HGI Entities subsequently informed
Philadelphia that because one of the members or
limited partners in one of the HGI Entities was a
Pennsylvania resident, Gateway and the HGI
Entities would voluntarily dismiss their Federal
action because complete diversity was not present.
Philadelphia did nothing to litigate the Federal
action in Montana. Gateway and the HGI Entities
refiled this insurance coverage action in the Montana
Fourth Judicial District Court in Missoula County,
Montana. On February 1, 2019, Gateway and the
HGI Entities filed their First Amended Complaint
which is the operative complaint below.
Philadelphia moved to dismiss Gateway’s and the
HGI Entities’ insurance coverage action contending a
Montana Court lacked personal jurisdiction over
Philadelphia. Philadelphia did not move to compel
arbitration in Montana pursuant to the arbitration
provision in the insurance Policy because a Montana
court will not enforce an arbitration clause in an
insurance policy.
Young v. Security Union Title Insurance Company,
1998 MT 334, ¶33, 292 Mont. 310, 971 P.2d 1233
(1998). The Montana District Court denied
Philadelphia’s Motion to dismiss for lack of personal
jurisdiction.
Pet. App. 71a-72a. Philadelphia

4
appealed to the Montana Supreme Court. Without
taking Oral Argument to fully consider the issue, the
Montana Supreme Court denied the Appeal and held
that a Montana court could exercise personal
jurisdiction over Philadelphia because the insurance
policy in dispute contained a nationwide territory of
coverage clause. Pet. App. 25a-30a. Philadelphia now
Petitions this Court for a Writ of Certiorari to review
the Montana Supreme Court’s decision.
REASONS FOR GRANTING THE WRIT
In the midst of the COVID virus the insurance
industry faces massive litigation over various types of
claims, and the industry is doing its best to honor its
policies and to cope with disputed and controversial
virus claims. See, e.g., Akexua Ekehakde-Ruiz, “In a
sweeping lawsuit, 42 Chicago businesses seek
insurance coverage for COVID-related business
losses,” Chicago Tribune, August 3, 2020,
https://www.chicagotribune.com/coronavirus/ct-corona
virus-chicago-lawsuit-business-interruption-insurancegibsons-20200803-gu6anbsmqzfxxh6h6hgivwxbfq-story.
html; Leslie Scism, “Companies Hit by Covid-19
Want Insurance Payouts. Insurers Say No.,” Wall
Street Journal, June 30, 2020, https://www.wsj.com/
articles/companies-hit-by-covid-19-want-insurance-pay
outs-insurers-say-no-11593527047. It is crucial to the
insurance industry that the industry know what
insurance contracts actually mean in the current
environment and how courts will construe them.
Philadelphia recently received an adverse ruling from
the Montana Supreme Court in which that court
simply ignored the fact that the insurance contract at
issue contained a forum selection clause requiring all
disputes about insurance coverage be arbitrated in
Ohio. Indeed, as mentioned below, the Montana court

5
simply ignored important opinions issued by this
Court on this issue. The Montana Court said the
dispute should be resolved in Montana. Insurance
companies cannot write COVID coverage, or any
other coverage, when they write an insurance policy
with a forum selection clause and they nevertheless
have no clue at the time of contracting in what state
their insureds may seek to litigate coverage disputes
and whether forum selection clauses in policies will
be found unenforceable. Philadelphia respectfully
petitions this court as follows:
I. There is a Split Among Circuits Reflected in
the Montana Supreme Court Ruling
Regarding Whether the Presence of a
Nationwide Territory of Coverage Clause in
an Insurance Policy Means the Insurer Has
Agreed
to
Submit
to
the
Personal
Jurisdiction of Courts Wherever it Sells
Insurance—and This Court Should Resolve
the Split in Favor of Reading the Entire
Insurance Contract to Find the Insurer’s
Expectations Concerning Where it (and the
Insured) Expects to Litigate in the Four
Corners of the Insurance Contract, Not in
the Territory of Coverage Clause Only.
The narrow reason why this Court should grant
“cert” is that there is a glaring circuit split on the
question of whether a nationwide territory of
coverage clause in an insurance company
automatically subjects an insurance company to
personal jurisdiction. The Court should grant
certiorari to resolve the conflict between Fourth and
Ninth Circuit decisions in Rossman v. State Farm
Mut. Auto. Ins. Co., 832 F.2d 282 (4th Cir. 1987),
Farmers Ins. Exchange v. Portage La Prairie Mut.

6
Ins., 907 F.2d 911 (9th Cir. 1990), and the Montana
Supreme Court decision below holding that
nationwide territory of coverage clauses constitute
purposeful availment sufficient to subject an
insurance company to personal jurisdiction and the
conflicting decisions in the Lexington Ins. Co. v. Hotai
Ins. Co. 938 F.3d 874 (7th Cir. 2019) (“Hotai”) and
OMI Holdings v. Royal Ins. Co. of Can., 149 F. 3d
1086 (10th Cir. 1998) finding that due process
requires a reading of the entire insurance contract,
not merely the nationwide territory of coverage
clause, to find whether the defendant insurance
company is subject to personal jurisdiction in an
unexpected jurisdiction.
The reasoning in the Fourth and Ninth Circuits, as
well as in the Montana Supreme Court, is that an
insurance company purposefully avails itself of the
laws of a particular state by providing insurance
coverage in that state through a nationwide territory
of coverage clause. Those courts have held that the
insurance company could avoid that problem of an
unwanted forum—and personal jurisdiction—by
writing a different contract that excluded coverage in
unwelcome jurisdictions.
In Rossman, the Fourth Circuit stated: “In this
case, there is no doubt that [the insurance company]
could forsee being haled into court in Virginia …. As
an automobile liability insurer, [the insurance
company] could anticipate the risk that its clients
would travel in their automobiles to different states
and become involved in accidents and litigation
there.” 832 F. 2d at 286. Rossman continued that the
insurance company could have avoided personal
jurisdiction, and avoided suit in Virginia, because “it
could have excluded that state from the ‘policy
territory’ defined in the policy.” Id. at 287.

7
In Farmers, the Ninth Circuit, citing Rossman,
held: “The record establishes that [the insurance
company] satisfied the purposeful availment
requirement.
Its policy coverage extends into
Montana and an insured event resulted in litigation
there.” 907 F.2d at 913.
In the case below, the Montana Supreme Court
followed the Farmers’ reasoning exactly.
The
Montana Supreme Court found that Philadelphia, by
insuring risks in Montana, knew it could face
litigation about coverage with an insured in
Montana, and the Montana Supreme Court held on
that point: “Philadelphia had the power to
contractually exclude Montana from the Policy’s
coverage area, but did not do so.” Gateway at *P33.
What is significant about the Fourth and Ninth
Circuits, and the Montana Supreme Court decision, is
that those courts concede that what this Court has
taught, that foreseeability is the crucial factor in
personal jurisdiction analysis, but those courts all
find that the only way for an insurance company to
avoid personal jurisdiction in any given state is to
write a policy that excludes the state from coverage.
Absent a specific exclusion of coverage for the state
which is the unwanted forum, litigation is per se
foreseeable in an unwanted forum state if that state
is part of the policy’s territory of coverage.
Philadelphia disagrees and so do the Tenth and
Seventh Circuits. In OMI Holdings, 149 F. 3d at
1095, the court found that the finding of minimum
contacts based solely on an insurance policy’s
territory of coverage clause does not “implicate a
strong connection between Defendants and the forum
state. On the contrary, we believe that sole reliance
on the territory of coverage clause creates contacts

8
which are qualitatively low on the due process scale.”
In OMI, the Tenth Circuit held that to show the
existence of personal jurisdiction, one must show the
defendant directed its activity at the forum state, and
that a territory of coverage clause was insufficient to
show such activity. Id.
The Seventh Circuit, in a well-reasoned opinion
that reflects how insurance policies actually are
written, found in Hotai, 938 F.3d at 880-82, that the
nationwide territory of coverage clause was not
dispositive on the question of personal jurisdiction
because that clause alone did not signal purposeful
availment of the laws in any particular jurisdiction.
In Hotai, the Seventh Circuit held that a court should
look to the entire insurance contract, not merely the
territory of coverage clause, to determine an
insurance
company’s
reasonable
expectations
concerning where it could expect to be subject to
personal jurisdiction under a policy. Id. Philadelphia
notes that the Montana Supreme Court failed to
address or in any way distinguish Hotai in its opinion
in this case. Thus, the Montana Supreme Court
simply refuses to engage the notion that an insurance
company can contract around personal jurisdiction
with a forum selection/dispute resolution clause.
Here, Philadelphia followed the guidance provided
by the Circuit Courts of Appeal and drafted a policy
that demonstrated Philadelphia never expected to
litigate insurance coverage disputes in Montana
under the Gateway Policy. The Policy Philadelphia
sold to Gateway included a forum selection clause
that required the insured, and any persons claiming
benefits under the Policy, to arbitrate all disputes
about coverage in Ohio. Thus, using the reasoning
taught by the Seventh or Tenth Circuits, the Policy in
dispute here, read in its entirety, would show

9
Philadelphia expected to resolve all coverage disputes
with an insured in an arbitral forum in Ohio.
This Court should take this case to resolve the split
in how the various Circuit Courts and Montana
resolve disputes concerning personal jurisdiction in
insurance coverage cases. Specifically, the question
is that if an insurance company seeks to avoid
personal jurisdiction in a state must the insurance
company write its policy to exclude coverage for that
state, or can an insurance company avoid personal
jurisdiction in a state by writing a policy provision
with a forum selection clause that requires insureds
resolve coverage disputes with the insurance
company in a single forum identified in the policy and
known to the insured when the policy is written—as
was the case of the Policy in dispute in this
litigation—or as was the case here a policy that
contained a forum selection clause requiring disputes
be resolved in the place the policy was delivered.
Crucially on that point, this Court has held that
arbitration clause are specialized forum selection
clauses, see, e.g., Rodriguez de Quijas v.
Shearson/American Express, Inc., 490 U.S. 477, 48283 (1989) (“arbitration agreements … are ‘in effect, a
specialized kind of forum-selection clause.’”); Scherk
v. Alberto-Culver Co., 417 U.S. 506, 519 (1974) (“An
agreement to arbitrate before a specified tribunal is,
in effect, a specialized kind of forum-selection clause
that posits not only the situs of suit but also the
procedure to be used in resolving the dispute.”). Thus
this Circuit split also can be framed as thus: does a
nationwide territory of coverage clause subject an
insurance company to personal jurisdiction in any
state in which there is insurance coverage under the
policy, and as a matter of law, make a nullity an
arbitration/forum selection clause in the insurance

10
policy which requires insurance coverage disputes be
arbitrated in in a forum named on the face of the
policy?
II. The Montana Supreme Court Ruling
Conflicts With This Court’s Rulings On A
Defendant’s
Expectations
Concerning
Personal Jurisdiction.
This Court recently reversed a decision by the
Montana Supreme Court on the question of general
personal jurisdiction. See BNSF Ry. v. Tyrrell, 137 S.
Ct. 1549 (2017). In BNSF, this Court reversed a
Montana Supreme Court decision where the Montana
Supreme Court had found that Montana could
exercise general personal jurisdiction over BNSF.
Tyrrell v. BNSF Ry. Co., 2016 MT 126, 383 Mont.
417, 373 P.3d 1 (2016). This Court explained that
BNSF was not incorporated in Montana, did not
maintain a principal place of business in Montana,
and despite having thousands of employees engaged
in work in Montana and running a huge railway
business in Montana, BNSF was not so heavily
engaged in activity in Montana as to render it
“essentially at home” in Montana. BNSF, 137 S. Ct.
at 1558. In the present case, the Montana Supreme
Court made the same type of error that it made in
BNSF. The Montana Supreme Court’s opinion in the
present Gateway case speaks of the fact that
Philadelphia targets Montana because it is licensed
to sell insurance in Montana even though the Policy
at issue in this litigation was sold in Ohio. See, e.g.,
Gateway at *P43. This Court has repeatedly taught
that the fact that a party may do some business in a
forum which is unrelated to the dispute in issue does
not provide grounds for the exercise of specific
personal jurisdiction but that specific personal
jurisdiction must be rooted in the facts or transaction

11
giving rise to the litigation in which personal
jurisdiction is sought.
This Court this term just heard argument in the
case of Ford Motor Co. v. Montana Eighth Judicial
Dist. Ct., No. 19-368. As framed by Ford’s Petition
for A Writ of Certiorari in that case, the question was
“Whether the ‘arise out of or relate to’ requirement is
met when none of the defendant’s forum contacts
caused the plaintiff’s claims, such that the plaintiff’s
claims would be the same even if the defendant had
no forum contacts.” Ford Motor Co. v. Montana
Eighth Judicial Dist. Ct., No. 19-368, Petition at (i).
While this case presents a similar question to that
presented in Ford Motor because Philadelphia
contends it had no forum specific contacts that give
rise to this dispute, this case also presents a very
different question rooted in the intangible nature of
Philadelphia’s insurance product. Ford’s product is a
tangible material thing manufactured in a specific
place at a specific time and sold to numerous
individuals at a variety of locations. Philadelphia’s
insurance product is an intangible sold at a specific
place and a specific time to a specific insured party.
Philadelphia’s insurance product is triggered by acts
that are beyond Philadelphia’s control done by the
insured that may arise in some place different from
where the insurance policy is sold. Philadelphia
knows when it sells insurance that its insureds may
commit wrongful acts anywhere in the world, but
Philadelphia does not anticipate “litigation” in any
specific place at the point in time it sells a policy. As
discussed below, Philadelphia contracts around that
problem. To compare, in Ford Motor, any alleged
product defect is Ford’s doing and under its control.
Here, the bad act giving rise to an insurance claim is
done by the insured and the bad act is beyond

12
Philadelphia’s control.
The only thing under
Philadelphia’s control is the language of the
insurance contract. The reason this Court should
take this case is because a ruling here will explain
how to deal with questions of causation when the
product that gives rise to a dispute is an intangible
product. As Philadelphia explains below, the key
“hook” for this analysis lies in the “choice of law”
discussion in Burger King Corp. v. Rudzewicz, 471
U.S. 462, 481-82 (1985). Philadelphia again notes
that the Montana Supreme Court opinion below fails
even to address Burger King in its analysis. Montana
has not even considered the possibility that a party
may reasonably contract around the risk of personal
jurisdiction when selling an intangible by placing a
choice-of-law/forum selection/arbitration clause in the
contract. Indeed, Montana is playing “ostrich” and
seeking to avoid Burger King, and this Court’s
teaching about party’s expressed intentions.
Philadelphia seeks a ruling from this Court that
when an insurance company sells a policy (which is
subject to state regulation), the insurance company
can limit where it is subject to personal jurisdiction
by including choice-of-law, forum selection, and
dispute
resolution/arbitration
language
that
expresses an intent (and agreement with the
insured), concerning where disputes about coverage
under the Policy must be resolved.
And that
expectation can be used to defeat efforts to subject
the insurance company to personal jurisdiction in any
jurisdiction not contemplated by the insurance
contract.
The insurance Policy at issue was sold by
Philadelphia to Gateway in Ohio. Pet. App. 73a -75a.
The circumstance that initially gave rise to the
insurance claim in dispute here was that the HGI

13
Entities, whose hotel business was managed by
Gateway, allegedly withheld wages from employees
in Montana. Philadelphia disputes whether the HGI
Entities are even insureds under the policy—which is
immaterial to the dispute as framed for this Petition
because the law in Ohio, where the policy was
delivered and where the Policy requires disputes be
arbitrated—holds that a party seeking the benefit of
a contract must take its burdens. See, e.g., Katz v.
Katz, 2018-Ohio-3210 *P36 (Ohio Ct. App. 2018)
(“Ohio courts recognize a number of theories
pursuant to which a non-signatory may be bound by
an arbitration agreement. Under the theory of
estoppel, for instance, ‘a party who knowingly accepts
the benefits of an agreement is estopped from
denying a corresponding obligation to arbitrate.’”).
That would mean that Philadelphia fully expected
that any claimant under the Policy would arbitrate
any dispute about the Policy in Ohio because the
forum selection and arbitration clause represents an
agreement to arbitrate in Ohio.
This Court has held that a defendant’s own actions
only, not the actions of another party, can give rise to
personal jurisdiction and that in the case of a
contract, the defendant must anticipate being haled
into court at the time of contracting. World-Wide
Volkswagen Corp., 444 U.S. 286, 296-298 (1980) (“But
the mere 'unilateral activity of those who claim some
relationship with a nonresident defendant cannot
satisfy the requirement of contact with the forum
State.” And a defendant “should reasonably
anticipate being haled into court.”); Walden v. Fiore,
571 U.S. 277, 284 (2014) (“the relationship [giving
rise to personal jurisdiction] must arise out of
contacts that the ‘defendant himself’ creates with the
forum State”). Here, Philadelphia sold an insurance

14
Policy in Ohio to Gateway that contained an Ohio
forum selection and arbitration clause in which the
language was quite explicit: “Unless both parties
agree otherwise, arbitration will take place in the
county in which the address shown in the
Declarations is located. Local rules of law as to
procedure and evidence will apply.” (Pet. App. 73a74a.) This Court has further held that the choice of
law and forum selection clauses in a contract signal a
party’s intent concerning in what jurisdiction it
reasonably anticipates litigating disputes. Burger
King, 471 U.S. at 481-82 (holding that a choice-of-law
clause providing that all disputes would be governed
by the law of the forum state “reinforced [the
defendant’s] deliberate affiliation with the forum
State and the reasonable foreseeability of possible
litigation there.”). It is undisputed that the insurance
contracts at issue here requires anyone seeking
benefits of the Policy to arbitrate disputes about
coverage in Ohio. Thus, even if one was to contend
that Philadelphia knew when it sold the insurance
policy to Gateway in Ohio that the policy could
implicate the HGI Entities in Montana, that would
not be sufficient to give rise to personal jurisdiction in
Montana because of the presence of the Ohio forum
selection and arbitration clause. See, e,g., Burger
King, that “minimum requirements inherent in the
concept of ‘fair play and substantial justice’ may
defeat the reasonableness of jurisdiction even if the
defendant has purposefully engaged in forum
activities.” Id. (citing World Wide-Volkswagen Corp.,
444 U.S. at 292.).
The Montana Supreme Court simply ignored the
impact of the forum selection clause on Philadelphia’s
expectations and erroneously found that Philadelphia
subjected itself to jurisdiction in Montana, in part,

15
because in other cases involving parties other than
Gateway, Philadelphia sold insurance in Montana
and could expect to litigate disputes such as the
Gateway dispute in Montana. See, e.g., Gateway at
*P43 (“As discussed above, Philadelphia sells
insurance in Montana and, by extension, litigates
insurance claims in Montana. Therefore, defending
this action in this forum would likely cause little
additional burden to Philadelphia, which it is well
positioned to undertake.”).
The Montana Supreme Court elides the personal
jurisdiction issue. Perhaps more importantly,
Philadelphia was not litigating arbitration in
Montana, Philadelphia was litigating its expectations
concerning personal jurisdiction as grounded in a
Policy with an Ohio forum selection clause. This
Court has held that the expectations that give rise to
personal jurisdiction are rooted in the defendant’s
expectation not in the conduct of others. World-Wide
Volkswagen Corp., 444 U.S. at 296-298; Walden, 571
U.S. at 284. Thus, for example, the failure by
Gateway to seek arbitration in Ohio (as required by
the contract) cannot subject Philadelphia to personal
jurisdiction in Montana and the HGI Entities’ alleged
failure to pay wages in Montana likewise cannot
subject Philadelphia to personal jurisdiction in
Montana. Id. This court should grant the writ and
take the case to reverse the Montana Supreme Court
and re-enforce the principle that personal jurisdiction
is rooted in the expectations of the defendant not in
the bad conduct of a plaintiff that gives rise to a
dispute. Specifically, this court should find that an
insured cannot drag an insurance coverage dispute
into any jurisdiction where the insured did bad acts—
when the insurance policy at issue has a forum
selection clause that requires all disputes about

16
coverage be resolved in a forum agreed at the time of
contracting. This issue is quite important when
dealing with intangible products and e-commerce
because insurance companies like Philadelphia need
guidance as to how they may structure transactions
so that they may anticipate where they will be forced
to litigate disputes. The idea of “fair play and
substantial justice” articulated by this Court in
Burger King should allow insurance companies to
draft contracts that both provide the scope of
coverage sought by an insured, but also allow the
insurance company to anticipate where it may have
to litigate disputes. The insurance industry should
not have to refuse coverage in one state (or limit the
scope of a nationwide territory of coverage clause) in
order anticipate where it will not be subject to
personal jurisdiction.
III. This Case Points At A Conflict Among the
Federal Arbitration Act, the McCarranFerguson Act, and United States Supreme
Court Jurisprudence Concerning Personal
Jurisdiction—And This Court Should
Provide Guidance How the Insurance
Industry Should Navigate Those Issues.
Philadelphia has not raised the Federal Arbitration
Act in the proceedings below nor have the parties
litigated the McCarran-Ferguson Act—though both
acts certainly sit in the background and guided the
parties’ reasoning.
The insurance policy in dispute contains an Ohio
forum selection and arbitration clause and
application of the Federal Arbitration Act would
require that this dispute be arbitrated in Ohio.
9 U.S.C. § 2 (an arbitration clause in a contract
involved in interstate commerce is “valid, irrevocable,

17
and enforceable, save upon such grounds as exist at
law or in equity for the revocation of any contract
…”); see also AT&T Mobility LLC v. Concepcion, 563
U.S. 333, 339, 341 (2011) (quoting Moses H. Cone
Memorial Hospital v. Mercury Construction Corp.,
460 U.S. 1, 24 (1983) (The language in the FAA
reflects a “liberal federal policy favoring arbitration”
and pre-empts state laws “prohibit[ing] outright the
arbitration of a particular type of claim.”)). The
McCarran-Ferguson Act, however, exempts insurance
from Federal regulation and permits states to bar
arbitration of insurance disputes notwithstanding the
requirements of the Federal Arbitration Act. See, e.g.,
15 U.S.C. §1012(b)(“ [n]o Act of Congress shall be
construed to invalidate, impair, or supersede any law
enacted by any State for the purpose of regulating the
business of insurance . . . unless such Act specifically
relates to the business of insurance.”) Ohio enforces
arbitration clauses in insurance policies. Montana
does not enforce arbitration clauses in insurance
policies. See, e.g., Young v. Security Union Title
Insurance Company, 1998 MT 335, ¶33, 292 Mont.
310, 971 P.2d 1233 (1998) (holding “arbitration
provision in … insurance policy was contrary
to Montana’s statutory law and, therefore,
unenforceable …”).
Montana and Gateway have made much of the fact
that Philadelphia did not move to compel arbitration
of this dispute in Montana—which of course
Philadelphia would not have done in Montana
because Montana would not enforce the arbitration
clause.
There is a gap between the Federal
Arbitration Act and the McCarran-Ferguson Act that
makes agreement to arbitrate insurance coverage
disputes enforceable in only some jurisdictions. A
prudent insurance company can contract around that

18
gap between the Federal Arbitration Act and the
McCarran-Ferguson Act by placing a forum selection
clause in its insurance contract—which Philadelphia
did here—requiring coverage disputes be arbitrated
in a forum that permits arbitration of insurance
disputes. The issue thus raised, did Montana violate
due process when it found the Philadelphia consented
to personal jurisdiction in Montana by including a
nationwide territory of coverage clause in its Policy—
while Montana at the same time simply gave no
weight to the intent of the parties concerning their
agreed forum and personal jurisdiction as expressed
in an forum selection/arbitration clause in the Policy.
This Court’s Federal Arbitration Act jurisprudence
and its personal jurisdiction jurisprudence suggest
that an arbitration clause which, by virtue of the
McCarran-Ferguson Act, may not be enforceable in a
state, may still signal that the insurance company
had no intention of subjecting itself to the personal
jurisdiction of the forum state because the arbitration
clause, which this Court has found to be a forum
selection clause, may still signal a defendant’s
expectations concerning personal jurisdiction. See,
e.g., Burger King, 471 U.S. at 481-82 (holding that a
choice-of-law clause providing that all disputes would
be governed by the law of the forum state “reinforced
[the defendant's] deliberate affiliation with the forum
State and the reasonable foreseeability of possible
litigation there.”); see also, e.g. ORC 3927.03(m)(“ Any
foreign insurance company transacting business in
this state by an agent consents that suit may be
brought against it in the county where the property
insured was situated, or was insured, or the
application for insurance taken.”).
Instead, the
arbitration/forum selection clause signals the place
where the Insurance company expected disputes

19
would be resolved and in fact may be the product of
insurance regulation in the state in which the policy
is delivered. Id. See also Rodriguez de Quijas v.
Shearson/American Express, Inc., 490 U.S. at 482-83;
Scherk v. Alberto-Culver Co., 417 U.S. at 519.
Indeed, the state insurance regulations rooted in
the McCarren-Ferguson Act, create for insurance
companies an expectation the disputes with an
insured about a policy will be resolved where the
policy is sold. State insurance codes and regulations,
presumably drafted in context with the McCarrenFerguson Act, routinely reflect an expectation that all
disputes arising under a policy will be litigated in the
state in which the policy is delivered. PIIC cites
abovie to the Ohio insurance code that requires PIIC
to write an Ohio-delivered policy with an Ohio forum
selection clause. Another example would be the
Washington Insurance Code, in the Ninth Circuit,
which requires all policies be drafted such that no
policy delivered in Washington may “depriv[e] the
courts of this state of the jurisdiction of action against
the insurer.” RCW 48.18.200. Because those states
allow nationwide territory of coverage clauses in
insurance policies, those regulations seem to reflect
an understanding that, notwithstanding the territory
of coverage language, an insurance company should
not expect to be subject to personal jurisdiction in
coverage disputes with insureds anywhere other than
the forum in which the policy is delivered.
Philadelphia, moved to defeat personal jurisdiction
in this case in Montana because Philadelphia argued
that the presence of an Ohio forum selection/
arbitration clause, which would be enforceable and
required in Ohio, signaled that Philadelphia wrote an
insurance policy under which it fully expected all
disputes would be arbitrated in Ohio. Philadelphia

20
also contended that the insured was aware of that
arbitration clause at the time it purchased the Policy
and the insured was also aware that the policy
required an insured satisfy all of the Policy’s
requirements (which would include the dispute
resolution clause) to obtain the Policy’s benefits. It is
important that this Court grant certiorari in this case
so that the insurance industry may know that it can
write insurance policies with arbitration clauses that
require arbitration of coverage disputes in
jurisdictions that will enforce such clauses and the
industry can operate with the understanding that
efforts by insureds to force litigation in states that
will not enforce arbitration clauses can be defeated on
personal jurisdiction grounds when the insurance
policy contains an express forum selection clause.
Insurance companies need the assurance that they
can write insurance contracts that express a mutual
understanding and agreement between insurance
company and insured concerning in what forum
insurance companies can expect to resolve coverage
disputes with insureds.

21
CONCLUSION
This Court should grant certiorari.
Respectfully submitted,
DAVID GRASSMICK
Counsel of Record
CARRIE E. COPE
DAVID CURKOVIC
COPE EHLERS, P.C.
120 West Madison Street
Suite 1300
Chicago, IL 60602
(312) 549-9280
dgrassmick@copeehlers.com
THOMAS A. MARRA
MARRA, EVENSON & LEVINE P.C.
2 Railroad Square, Suite C
P.O. Box 1525
Great Falls, Montana 59403-1525
(406) 268-1000
tmarra@marralawfirm.com

APPENDIX

1a
Appendix A
SUPREME COURT OF MONTANA

__________
DA 19-0502

__________
Submitted on Briefs: March 4, 2020
Decided: May 19, 2020

__________
GATEWAY HOSPITALITY GROUP INC ., WESTERN
HOSPITALITY GROUP , LP, d/b/a HILTON GARDEN
INN MISSOULA ; KALISPELL HOTEL , LLC, d/b/a
HILTON GARDEN INN KALISPELL ; BOZEMAN
LODGING INVESTORS , LLC, d/b/a HILTON GARDEN
INN BOZEMAN ; JWT HOSPITALITY GROUP , LLC,
d/b/a HILTON GARDEN INN BILLINGS , and JOHN
DOES 1-5,
Plaintiffs and Appellees,
—v.—
PHILADELPHIA INDEMNITY INSURANCE COMPANY ,
Defendant and Appellant.

__________

83673 • COPE • APPENDIX A

AL 10/2/20

2a
APPEAL FROM: District Court of the Fourth
Judicial District,
In and For the County of Missoula,
Cause No. DV 18-1357
Honorable Shane A. Vannatta,
Presiding Judge
COUNSEL OF RECORD:
For Appellant:
Thomas A. Marra,
Marra, Evenson & Levine, P.C.,
Great Falls, Montana
For Appellees:
Dale R. Cockrell, Jay T. Johnson,
Moore, Cockrell, Goicoechea &
Johnson, P.C.,
Kalispell, Montana
Jory C. Ruggiero, Domenic Cossi,
Western Justice Associates, PLLC,
Bozeman, Montana
Justice Jim Rice delivered the Opinion and Order
of the Court.
OPINION
Philadelphia Indemnity Insurance Company
(Philadelphia) appeals from the denial of its
motion to dismiss for lack of personal jurisdiction,
pursuant to M. R. Civ. P. 12(b)(2), by the Fourth
Judicial District Court, Missoula County.
As argued by Gateway Hospitality Group (Gateway), and the other named Plaintiffs (Entities)
(collectively, Plaintiffs or Appellees), a district
court’s denial of a motion to dismiss for lack of
personal jurisdiction is not an appealable order. See

83673 • COPE • APPENDIX A

AL 10/2/20

3a
M. R. App. P. 6(3)(a)-(k), 6(5)(b). Therefore, we must
first determine whether this matter is presently
reviewable by this Court. Although the parties
contest the appealability of the ruling, both sides
ultimately take the position that, alternatively, this
Court could undertake consideration of the District
Court’s denial of Philadelphia’s motion to dismiss
by deeming this matter to be a request for a writ of
supervisory control under M. R. App. P. 14, a
procedural issue we initially take up.
This Court may exercise supervisory control over
cases pursuant to the authority granted by Article
VII, Section 2(2) of the Montana Constitution and
Rule 14(3) of the Montana Rules of Appellate
Procedure. See Inter-Fluve v. Mont. Eighteenth
Judicial Dist. Ct., 2005 MT 103, ¶ 17, 327 Mont.
14, 112 P.3d 258 (citing Evans v. Mont. Eleventh
Judicial Dist. Ct., 2000 MT 38, ¶ 16, 298 Mont.
279, 995 P. 2d 455); Ford Motor Co. v. Mont.
Eighth Judicial Dist. Ct., 2019 MT 115, ¶ 5, 395
Mont. 478, 443 P.3d 407. The Rule provides:
The supreme court has supervisory control
over all other courts and may, on a caseby-case basis, supervise another court by
way of a writ of supervisory control.
Supervisory control is an extraordinary
remedy and is sometimes justified when
urgency or emergency factors exist making
the normal appeal process inadequate,
when the case involves purely legal
questions, and when one or more of the
following circumstances exist:
(a) The other court is proceeding under
a mistake of law and is causing a gross
injustice;

83673 • COPE • APPENDIX A

AL 10/2/20

4a
(b) Constitutional issues of state-wide
importance are involved;
(c) The other court has granted or
denied a motion for substitution of a judge
in a criminal case.
The Court may invoke its power of supervisory
control over a matter brought before the Court by
direct appeal. See, e.g., State v. Spady, 2015 MT
218, ¶ 11, 380 Mont. 179, 354 P.3d 590. “In
determining the propriety of supervisory control
for a particular case, we are mindful that it is an
extraordinary remedy. Consequently, we have
followed the practice of proceeding on a case-bycase basis[.]” Inter-Fluve, ¶ 17 (citing Preston v.
Mont. Eighteenth Judicial Dist. Ct., 282 Mont.
200, 204, 936 P.2d 814, 816 (1997)).
In Ford Motor Co., ¶ 7, we reasoned that urgency
can render the appeal process inadequate for some
cases involving personal jurisdiction, “because the
District Court must have power over the parties in
a proceeding to afford adequate relief.” Several
entities operating hotels across the State are
parties in this litigation with an out-of-state
insurer. An error in the determination of personal
jurisdiction could result in the later nullification of
extensive litigation efforts affecting many
individuals statewide. Our review concludes that
the issues in this matter are purely legal. Further,
as stated by the Rule, a constitutional issue is
at the center of this dispute, that being
Philadelphia’s due process rights under the
Fourteenth Amendment to the United States
Constitution. Finally, resolution will serve to
further clarify when Montana insureds “may

83673 • COPE • APPENDIX A

AL 10/2/20

5a
appropriately file suit in Montana courts” against
their insurers. Ford Motor Co., ¶ 7.
For reasons similar to those expressed in Ford
Motor Co., we conclude this case has distinctives
involving a constitutional issue of state-wide
importance and impact that qualifies and merits
review pursuant to the Court’s constitutional
power of supervisory control. Therefore, we accept
supervisory control over this matter, and affirm
the District Court’s ruling. We restate the issues
as follows:
1. Did the District Court deny due process to
Philadelphia by failing to hold an evidentiary
hearing?
2. Did the District Court err by holding Montana
had specific personal jurisdiction over
Philadelphia under Montana’s long arm
statute and the Due Process Clause of the
Fourteenth Amendment to the United States
Constitution?1
1

Appellees noted in their answer brief that
Philadelphia did not brief the issue of subject matter
jurisdiction in its opening brief, prompting Philadelphia to
summarily discuss that issue in its reply brief. Appellees
then sought leave to file a sur-reply brief, arguing that
Philadelphia had submitted documents with its reply brief
that were not included in the record. Appellees also filed a
short brief with their motion. Philadelphia objected to
Appellees’ motion, and Appellees’ filed an amended motion,
to which Philadelphia also objected. This Court took the
motion under advisement. Order, issued February 11, 2020.
Even though subject matter jurisdiction generally may be
raised at any time, we conclude we do not have properly
developed briefing from the parties in this regard and thus
decline to undertake review of that issue in this proceeding.

83673 • COPE • APPENDIX A

AL 10/2/20

6a
FACTUAL AND PROCEDURAL
BACKGROUND
Gateway is an Ohio corporation, with its
principal place of business in Twinsburg, Ohio.
Gateway’s business is managing hotels, and it
provided hotel management services, including
food and beverage management, for the hotel
Entities named in this action at the time the
subject policy was procured, including: Western
Hospitality Group, LP d/b/a Hilton Garden Inn
Missoula; Kalispell Hotel, LLC d/b/a/ Hilton
Garden Inn Kalispell; Bozeman Lodging Investors,
LLC d/b/a Hilton Garden Inn Bozeman; and JWT
Hospitality Group, LLC d/b/a Hilton Garden Inn
Billings. Each of the Entities is organized under
the laws of the State of Montana, and their
principal places of business are in Montana.
Gateway had the exclusive authority and duty to
direct, supervise, manage, and operate the
Entities’ hotels on a day-to-day basis. Gateway’s
responsibilities included hiring, paying, and
supervising all personnel for the hotels, including
food and beverage banquet server-employees.
Philadelphia is a Pennsylvania corporation, with
its principal place of business in Philadelphia,
Pennsylvania.
Pursuant to its contractual obligation to manage
the Entities, Gateway applied in June of 2014 for
an insurance policy from Philadelphia (the Policy),
to insure both itself and the Entities. On the
application, Gateway named itself as the applicant
with its principal location in Twinsburg, Ohio, and
its nature of business as “hotel and restaurant
management and development co.” In response to

83673 • COPE • APPENDIX A

AL 10/2/20

7a
a question asking, “[i]s the Applicant Firm
controlled, owned, affiliated or associated with any
other firm, corporation or company[,]” Gateway
checked the box next to “[y]es.” The next question
on the application asked Gateway to “list the
address(es)
of
all
branch
offices
and/or
subsidiaries. Include a brief description of their
operations and indicate if coverage is desired for
these offices.” In response, Gateway answered “see
attached sheets” in all capital letters. On an
attached sheet labeled “Equity in Companies,”
Gateway listed: Western Hospitality group, noting
it operated the Hilton Garden Inn in Missoula,
Montana; Kalispell Hotel, LLC, noting it operated
the Hilton Garden Inn in Kalispell; and JWT
Hospitality Group Billings, LLC, noting it
operated the Hilton Garden Inn in Billings,
Montana. Likewise, Gateway listed under “other
entities with no equity:” Bozeman Lodging
Investors, LLC, operating the Hilton Garden Inn
in Bozeman; Oak Street Partnership, operating
the Comfort Inn in Bozeman; and Catron Partners
LLC, operating Comfort Suites in Bozeman. On
the next attached sheet, Gateway listed its
operating hotels and restaurants, and included:
Hilton Garden Inn in Missoula, Montana; Hilton
Garden Inn in Kalispell, Montana; and Hilton
Garden Inn in Billings, Montana. It also listed
JWT Hospitality Group Billings LLC, Kalispell
Hotel LLC, and Western Hospitality Group LP in a
column titled “subsidiaries.” The Policy states:
In consideration of the payment of the
premium and in reliance upon all
statements and information furnished to
us including all the statements made in

83673 • COPE • APPENDIX A

AL 10/2/20

8a
the application form, its attachments and
the material incorporated therein, which
are incorporated herein and deemed to be
part of this policy, we agree as follows:
. . . . [(Emphasis added.)]
The Policy territory extends “to any wrongful act
committed anywhere in the world.” Under the
Policy’s definitions, “named entity” means “the
proprietor, firm, or organization specified in Item
1 of the Declarations.” Gateway is the named
entity on the Declarations page. Additionally,
under the Policy, “insured” means “the named
entity; any subsidiary; and any independent
contractor acting on your behalf; any individual
insured.” Finally, “Subsidiary” is defined as:
A corporation or other entity of which the
named entity owns on or before the
inception of the policy period more than
50% of the issued outstanding voting stock
either directly, or indirectly through one
or more of its subsidiaries or the right to
elect, appoint or designate more than 50%
of such entity’s board of directors,
trustees, or managers and which is set
forth in the application or, if the entity is a
limited partnership, the named entity or
one of its subsidiaries must serve as the
general partner[.]
The Policy contains an arbitration endorsement,
which states, “[i]f we and the insured do not agree
whether coverage is provided under this Coverage
Part for a claim made against the insured, then
either party may make a written demand for
arbitration.” It also provides, “[u]nless both parties

83673 • COPE • APPENDIX A

AL 10/2/20

9a
agree otherwise, arbitration will take place in the
county in which the address shown in the
Declarations is located. Local rules of law as to
procedure and evidence will apply.” Twinsburg,
Ohio is the address shown in the Declarations.
In 2015, employees of the Entities sued the
Appellees in Missoula County, Montana,2 alleging
Appellees failed to distribute to the employees 1820% service charges paid by banquet customers
(the Walter Class Action). Appellees submitted a
claim to Philadelphia under the Policy, requesting
defense and indemnity. Philadelphia denied the
claim, asserting the action arose out of intentional
employment practices, which were precluded from
coverage, and, further, that Policy exclusions
applied. In a denial letter, Sedgwick LLP, a law
firm representing Philadelphia, identified the
Entities as insureds under the Policy. The
Appellees subsequently settled the Walter Class
Action, and paid the judgment entered against
them.
In October of 2018, Appellees as Plaintiffs
brought this suit against Philadelphia, seeking
declarations that: (1) they were insureds under the
Philadelphia Policy; (2) Philadelphia had a duty to
defend them in the Walter Class Action; (3)
Philadelphia breached its duty to defend them in
that action, and (4) Philadelphia had a
consequential duty to pay all damages they
suffered as a result of the Walter Class Action.
Plaintiffs also claimed breach of contract.
2

Pam Walter, et al. v. Gateway Hospitality Group, Inc.,
et. al., Montana Fourth Judicial District Court, Missoula
County, DV 15-196.

83673 • COPE • APPENDIX A

AL 10/2/20

10a
Philadelphia filed a motion to dismiss based on M.
R. Civ. P. 12(b)(1), (2), (3), and (6), asserting lack
of personal jurisdiction, lack of standing, lack of
subject matter jurisdiction, forum non conveniens,
and failure to state a claim upon which relief could
be granted. In its brief in support of the motion,
Philadelphia requested that Plaintiffs’ complaint
“be dismissed without an evidentiary hearing.”
The District Court did not hold an evidentiary
hearing on the issues, and in August of 2019,
denied Philadelphia’s motion on all grounds.
Philadelphia filed a notice of appeal stating it
“hereby appeals to the Supreme Court of the State
of Montana the final Order Denying Philadelphia’s
Motion to Dismiss for lack of the subject matter
jurisdiction,” but as noted above, briefed the issue
of personal jurisdiction, to which Appellees
responded. Upon consideration of the parties’
briefing, we undertake supervisory review only of
the District Court’s denial of Philadelphia’s motion
to dismiss based on lack of personal jurisdiction
under M. R. Civ. P. 12(b)(2).
STANDARD OF REVIEW
This Court reviews a district court’s decision on
a motion to dismiss for lack of personal
jurisdiction de novo, construing the complaint “in
the light most favorable to the plaintiff.” Milky
Whey, Inc. v. Dairy Partners, LLC, 2015 MT 18, ¶ 7,
378 Mont. 75, 342 P.3d 13 (quoting Grizzly Sec.
Armored Express, Inc. v. Armored Grp., LLC, 2011
MT 128, ¶ 12, 360 Mont. 517, 255 P.3d 143)
(internal quotations omitted). Additionally, motions
to dismiss “should not be granted unless, taking

83673 • COPE • APPENDIX A

AL 10/2/20

11a
all well-pled allegations of fact as true, it appears
beyond a doubt that the plaintiffs can prove no set
of facts in support of their claim which would
entitle them to relief.” Buckles v. Cont’l Res., Inc.
(Buckles I), 2017 MT 235, ¶ 9, 388 Mont. 517, 402
P.3d 1213 (citing Threlkeld v. Colorado, 2000 MT
369, ¶ 7, 303 Mont. 432, 16 P.3d 359). Finally, we
review a district court’s findings of facts regarding
personal jurisdiction to determine whether the
findings are clearly erroneous and the conclusions
are correct. Buckles I, ¶ 9 (citations omitted).
DISCUSSION
1. Did the District Court deny due process to
Philadelphia by failing to hold an evidentiary
hearing?
Philadelphia argues the District Court erred by
making factual findings on issues “at the core of
the litigation’s coverage dispute” without first
conducting an evidentiary hearing on those matters.
Philadelphia argues “[i]t was error not to hold an
evidentiary hearing if the lower court intended to
find facts that were disputed.” Specifically,
Philadelphia contends that, despite knowing when
issuing the policy that Gateway could provide
hotel management services anywhere in the world,
it was not aware that Gateway intended the
Entities to be insured, notwithstanding the
District Court’s determination that Gateway
intended to purchase coverage for the Entities,
and, therefore, the District Court should have
conducted a hearing on the issue. Appellees
respond that this issue was waived because
Philadelphia did not ask for an evidentiary

83673 • COPE • APPENDIX A

AL 10/2/20

12a
hearing, and, in fact, requested the District Court
to rule on the motion without holding an
evidentiary hearing.
Generally, this Court will only consider issues
that are properly preserved for review. State v.
Johns, 2019 MT 292, ¶ 12, 398 Mont. 152, 454 P.3d
692 (quoting State v. Akers, 2017 MT 311, ¶ 12, 389
Mont. 531, 408 P.3d 142). “The basis for the
general rule is that it is fundamentally unfair to
fault the trial court for failing to rule correctly on
an issue it was never given the opportunity to
consider.” Akers, ¶ 12 (quoting Unified Indus., Inc.
v. Easley, 1998 MT 145, ¶ 15, 289 Mont. 255, 961
P.2d 100) (internal quotations omitted). “In order
to preserve a claim or objection for appeal, an
appellant must first raise that specific claim or
objection in the district court.” In re T.E., 2002 MT
195, ¶ 20, 311 Mont. 148, 54 P.3d 38. In accordance
with this rule, in Johns, ¶ 20, we held the
defendant “failed to preserve a due process
challenge to the lack of an evidentiary hearing”
when he did not request an evidentiary hearing on
the motion at issue.
Philadelphia does not dispute that it did not
request the District Court hold an evidentiary
hearing, and indeed, further than the appellant in
Johns, Philadelphia requested that the District
Court rule on its motion without a hearing.
Moreover, factual issues Philadelphia now seeks to
resolve, such as whether the Entities were
properly insured under the Policy, go to the merits
of the controversy—coverage and the duty to
defend—that need not be reached to resolve the
jurisdictional question, as discussed below. While
this case is not before us on appeal, we nonetheless

83673 • COPE • APPENDIX A

AL 10/2/20

13a
decline to undertake supervisory review of the
issue in light of the position Philadelphia took
before the District Court.
2. Did the District Court err by holding Montana
had specific personal jurisdiction over
Philadelphia under Montana’s long arm
statute and the Due Process Clause of the
Fourteenth Amendment to the United States
Constitution?
Philadelphia argues the District Court erred by
“improperly evaluat[ing] Philadelphia’s contacts
with Montana” and thereby failed to hold that
“Philadelphia does not have sufficient minimum
contacts with Montana” to establish personal
jurisdiction. Additionally, Philadelphia argues the
District Court “failed to properly evaluate the due
process, justice and fair play requirements” for
exercise of personal jurisdiction over Philadelphia.
Philadelphia also contends the District Court
erred by ignoring the Policy’s arbitration
provision, which it argues, for purposes of our
review here, should also be considered a forum
selection clause requiring this matter to be
resolved by arbitration in the State of Ohio.
Appellees answer the District Court correctly
determined that the exercise of personal jurisdiction over Philadelphia complies with both
Montana’s long arm statute and due process.
Neither party asserts, nor did the District Court
conclude, that a Montana court could exercise
general personal jurisdiction over Philadelphia,
and thus, our analysis is confined to specific
personal jurisdiction. See Simmons Oil Corp. v.
Holly Corp., 244 Mont. 75, 83-84, 796 P.2d 189,

83673 • COPE • APPENDIX A

AL 10/2/20

14a
194 (1990) (explaining that M. R. Civ. P. 4(b)(1)
“incorporates the principles of both general and
specific jurisdiction[,]” and that general jurisdiction contemplates “whether the party can be
‘found within’ the state” meaning that “he or she is
physically present in the state or if his or her
contacts with the state are so pervasive that he or
she may be deemed to be physically present
there[,]” whereas specific jurisdiction “may be
established even though a defendant maintains
minimum contacts with the forum as long as the
plaintiff’s cause of action arises from any of the
activities enumerated in [Montana’s long arm
statute] and the exercise of jurisdiction does not
offend due process.”); see also Buckles I, ¶ 13
(citing BNSF Ry. v. Tyrrell, ___ U.S. ___, 137 S. Ct.
1549 (2017)).
To determine whether specific personal
jurisdiction may be exercised over a nonresident
defendant, this Court applies a two-part analysis:
“[f]irst, we determine whether personal jurisdiction exists pursuant to M. R. Civ. P. 4(b)(1).
Second, if personal jurisdiction exists pursuant to
M. R. Civ. P. 4(b)(1), we then determine whether
exercising personal jurisdiction comports with
traditional notions of fair play and substantial
justice embodied in the Due Process Clause of the
Fourteenth Amendment.” Buckles I, ¶ 11 (internal
citation omitted); Ford Motor Co., ¶ 10; Buckles v.
Cont’l Res., Inc. (Buckles II), 2020 MT 107, ¶ 12,
400 Mont. 18, ___ P.3d ___. A finding of specific
jurisdiction “focuses on the relationship among the
defendant, the forum, and the litigation, and
depends on whether the defendant’s suit-related
conduct created a substantial connection with the

83673 • COPE • APPENDIX A

AL 10/2/20

15a
forum state.” Tackett v. Duncan, 2014 MT 253, ¶
19, 376 Mont. 348, 334 P.3d 920 (internal
quotations and citations omitted); Ford Motor Co.,
¶ 9; Buckles II, ¶ 14.
a. Montana’s long-arm statute
Montana’s long-arm statute, M. R. Civ. P. 4(b)(1),
provides,
any person is subject to the jurisdiction of
Montana courts as to any claim for relief
arising from the doing personally, or
through an employee or agent, any one of
the following acts:
(A) the transaction of any business within
Montana;
(B) the commission of any act resulting in
accrual within Montana of a tort action;
(C) the ownership, use, or possession of
any property, or of any interest therein,
situated within Montana;
(D) contracting to insure any person,
property, or risk located within Montana
at the time of contracting;
(E) entering into a contract for services to
be rendered or for materials to be
furnished in Montana by such person;
(F) acting as director, manager, trustee,
or other officer of a corporation organized
under the laws of, or having its principal
place of business within, Montana; or
(G) acting as personal representative of
any estate within Montana.

83673 • COPE • APPENDIX A

AL 10/2/20

16a
The parties dispute the applicability of subparts
(A) and (D). We address subpart (D).
In Seal v. Hart, 2002 MT 149, 310 Mont. 307, 50
P.3d 522, Seal contracted to sell saddles and tack
to Hart for $53,315.86, and to deliver the goods to
Hart in Billings, Montana. Hart paid $13,315.86
as a down payment and agreed to remit the
remainder upon Hart’s transport and sale of the
goods in California. Hart was required to obtain
insurance to protect against theft or casualty loss
of the property before Seal would release the
goods. Seal, ¶ 5. Hart, a North Dakota resident,
contacted his North Dakota insurance agent,
Stevens, who arranged for issuance of a policy
from Canal Insurance Company (Canal). Seal, ¶ 6.
At Hart’s request, and after a conversation with
Seal, Stevens faxed a certificate of insurance to
Seals’ Billings, Montana, office. Seal, ¶ 35. Hart
took delivery of the goods in Billings. Seal, ¶ 5.
The goods were subsequently stolen from the
transport truck, and a claim was submitted to
Canal, which Canal denied because the policy
covered only common carriers, which Hart was not.
Seal, ¶ 9. Seal brought suit against Hart and
Stevens in Montana court, alleging breach of
contract and breach of a duty to procure insurance.
Stevens moved to dismiss the suit for lack of
personal jurisdiction, which the District Court
denied. Seal, ¶ 11. Although on alternate grounds,
this Court affirmed the District Court, noting that
Stevens knew the cargo to be insured by the policy
was located in Billings, Montana, when she
arranged for issuance of the policy, and, thus,
“Seal’s claim for relief arose out of Stevens’ contracting to insure property in Montana at the time

83673 • COPE • APPENDIX A

AL 10/2/20

17a
of contracting,” satisfying M. R. Civ. P. 4(b)(1)(D).
Seal, ¶ 24. Addressing the contention that Stevens
had not contracted directly with Seal to insure the
property, and thus, owed no duty of care to Seal,
we explained that Rule 4(b)(1)(D) “does not require
that a plaintiff establish the substantive elements
of a contract or a duty of care before a court may
exercise personal jurisdiction over a particular
party.” Seal, ¶ 23. Rather, the Rule “simply
requires that the claim for relief arise out of the
contracting to insure any person, property, or risk
located within Montana at the time of contracting.” Seal, ¶ 23. We explained that “arising from”
in this context is “a direct affiliation, nexus, or
substantial connection between the basis for the
cause of action and the act which falls within the
long-arm statute,” which was satisfied. Seal, ¶ 23
(citations omitted).
As in Seal, the subject Policy and the process of
procuring the Policy occurred in another state,
requiring a “direct affiliation, nexus, or substantial connection between the basis for the cause
of action and the act which falls within the longarm statute” to establish specific personal jurisdiction in Montana over the insurer for litigation
concerning the Policy. Seal, ¶ 23. Plaintiffs alleged
in their complaint that Philadelphia contracted to
insure a risk in Montana and breached its duty to
defend them by failing to appear in the underlying
suit, as required by the Policy. In support of their
allegations, Plaintiffs have offered the policy
application, including the attached disclosures
with the individual Montana Entities for which
Gateway sought coverage, which was made a part
of the Policy.

83673 • COPE • APPENDIX A

AL 10/2/20

18a
Although the parties disagree about whether the
Entities were subsidiaries and insureds under the
Policy, that is a coverage dispute we need not
reach to resolve the jurisdictional issue here. See
Carter v. Miss. Farm Bureau Cas. Ins. Co., 2005
MT 74, ¶ 20, 326 Mont. 350, 109 P.3d 735 (“[I]t is
important to emphasize that this appeal is not
about whether Carter and Schmidt are covered by
Carter’s MFBCIC policy; rather, the question is
whether or not they can litigate the coverage
dispute in Montana.” (emphasis in original)).
Further, under Montana law, the duty to defend
under a policy is broader than the duty to
indemnify, potentially obligating an insurer to
appear in litigation before coverage issues are
resolved. See State Farm Mut. Auto. Ins. Co. v.
Freyer, 2013 MT 301, ¶ 37, 372 Mont. 191, 312 P.3d
403 (“The broader duty to defend requires an
insurer to act immediately to defend the insured
from a claim. The insurer must do so on the basis
of mere allegations that could implicate coverage,
if proven.”) (citation omitted). And, under Montana
law, ambiguities in a policy are construed in favor
of the insured. See Kilby Butte Colony, Inc. v. State
Farm Mut. Auto. Ins. Co., 2017 MT 246, ¶ 10, 389
Mont. 48, 403 P.3d 664 (“Any ambiguity in an
insurance policy must be construed in favor of the
insured and in favor of extending coverage.”)
(citation omitted).3
3

As more fully explained in Kilby Butte Colony:
We use the following approach to interpret insurance
contracts:
General rules of contract law apply to insurance
policies and we construe them strictly against
the insurer and in favor of the insured. Courts

83673 • COPE • APPENDIX A

AL 10/2/20

19a
Philadelphia failed to appear and defend
Plaintiffs in the Walter Class Action, an alleged
breach of contract and of the common law, which
occurred in Montana. Philadelphia acknowledges
that, at the time of contracting, it was aware
Gateway could provide hotel management services
give the terms and words used in an insurance
contract their usual meaning and construe them
using common sense. Any ambiguity in an insurance
policy must be construed in favor of the insured and
in favor of extending coverage. An ambiguity exists
where the contract, when taken as a whole,
reasonably is subject to two different interpretations.
Courts should not, however, seize upon certain and
definite covenants expressed in plain English with
violent hands, and distort them so as to include a risk
clearly excluded by the insurance contract.
Mecca v. Farmers Ins., Exch., 2005 MT 260, ¶ 9, 329
Mont. 73, 122 P.3d 1190 (quoting Travelers Cas. and
Sur. Co. v. Ribi Immunochem Research, Inc., 2005
MT 50, ¶ 17, 326 Mont. 174, 108 P.3d 469). We read
insurance policies as a whole and reconcile the
policy’s various parts to give each part meaning and
effect. Section 33-15-316, MCA; Newbury v. State
Farm Fire & Cas. Co. of Bloomington, Ill., 2008 MT
156, ¶ 19, 343 Mont. 279, 184 P.3d 1021. We
recognize the reasonable expectations doctrine and
have consistently held that the objectively reasonable
expectations of insurance purchasers regarding their
policy terms should be honored, even if a painstaking
study of the policy negates expectations. When
applying the doctrine, an insurance contract is to be
interpreted from the viewpoint of a consumer with
average intelligence, with no training in the law or
insurance. Flathead Janitorial, ¶ 22 (citing Leibrand
v. Nat’l Farmers Union Prop. & Cas. Co., 272 Mont. 1,
7, 898 P.2d 1220, 1224 (1995)).
Kilby Butte Colony, ¶ 10.

83673 • COPE • APPENDIX A

AL 10/2/20

20a
“anywhere in the world,” which it contracted to
insure. And, more specifically, because the
Montana Entities were disclosed and individually
listed in the application expressly made part of the
Policy, Philadelphia was clearly aware that
Gateway’s business included the active management of hotel entities in Montana at the time it
issued the Policy. The denial letter sent by
Philadelphia’s counsel in response to the claim
identified the Entities as insureds under the
Policy.4 The circumstances resemble those in Seal,
where Defendant Stevens, a North Dakota
resident, understood that the property she was
contracting to insure was located in Montana at
the time the policy was issued. Seal, ¶ 24.
Philadelphia issued the Policy to Gateway upon its
understanding that Gateway conducted business
in Montana. As in Seal, we conclude there is a
“direct affiliation, nexus, or substantial connection”
between the basis for the cause of action—a breach
of the duty to defend and indemnify Plaintiffs
4

Philadelphia states that its counsel erred by
identifying the Entities as insureds under the Policy. We
recognize that counsel’s action occurred after the time of
contracting, and we take no position on the ultimate
resolution of coverage issues. We merely cite the evidence in
the record supporting the District Court’s conclusion that,
concerning issues of coverage, Plaintiffs made out a prima
facie case that Philadelphia contracted to insure a risk in
Montana, with which counsel’s action was consistent. See
First Nat’l Bank v. Estate of Carlson, 2020 U.S. Dist. LEXIS
51089, *3 (citing Schwarzenegger v. Fred Martin Motor Co.,
374 F.3d 797, 800 (9th Cir. 2003) (explaining that when the
motion to dismiss for lack of personal jurisdiction “is based
on written materials rather than an evidentiary hearing, the
plaintiff need only make a prima facie showing of
jurisdictional facts.”).

83673 • COPE • APPENDIX A

AL 10/2/20

21a
against claims made in the Montana Walter Class
Action—and the act falling under the long-arm
statute—“contracting to insure any person,
property, or risk located within Montana at the
time of contracting” by issuance of this particular
Policy. M. R. Civ. P. 4(b)(1)(D).
Philadelphia relies on the Policy’s arbitration
provision, which it posits is also a forum selection
clause, to argue that it managed the risk of the
Policy’s broad geographic coverage by “requir[ing]
any coverage dispute to be litigated in a Summit
County, Ohio, arbitral forum, regardless of where
events leading to Gateway’s insurance claim
arose.” Thus, while acknowledging third-party
claims against Gateway could arise anywhere in
the world that would require it to defend locally,
Philadelphia asserts that it contracted to resolve
first-party coverage disputes with Gateway only in
Ohio. However, the Policy’s arbitration provision
simply does not accomplish what Philadelphia
contends. The provision states, “[i]f we and the
insured do not agree whether coverage is provided
under this Coverage Part for a claim made against
the insured, then either party may make a written
demand for arbitration” (emphasis added), and
provides that any arbitration “will take place in
the county in which the address shown in the
Declarations is located.” We note, first, that the
provision is voluntary, requiring arbitration only if
one of the parties requests it, and does not
mandate that arbitration be undertaken in any
case. Here, arbitration was never triggered at the
time the “claim made against the insured” arose in
2015, because neither party requested it.
Philadelphia bypassed it, unilaterally denying

83673 • COPE • APPENDIX A

AL 10/2/20

22a
Gateway’s claim without seeking an arbitration
determination of coverage; and Plaintiffs litigated
the Walter Class Action on their own. Second, the
provision’s plain text designates only one
particular issue for arbitration: when the parties
“do not agree whether coverage is provided for a
claim made against the insured.” Not encompassed
within this optional arbitration provision is other
litigation about other issues, such as here: state
court civil litigation regarding an insured’s claim
against the insurer for breach of the duty to
defend. As noted above, the duty to defend is
broader than the question of coverage. Lastly, the
cases Philadelphia cites for its contention that
arbitration clauses should be treated as forum
selection clauses are distinguishable. See Scherk v.
Alberto-Culver Co., 417 U.S. 506, 94 S. Ct. 2449
(1974) (dealing with a mandatory, rather than
voluntary, arbitration provision in a securities
dispute); Rodriguez de Quijas v. Shearson/
American Express, Inc., 490 U.S. 477, 109 S. Ct.
1917 (1989) (also involving a mandatory arbitration provision and expressing the importance of
treating such provisions as forum selection clauses
in cases governed by the Securities Act).
Consequently, the Policy neither mandated
arbitration nor selected another forum for this
dispute, and Philadelphia’s reliance upon the
arbitration provision does not undermine the
“substantial connection” between the basis for the
cause of action and the act encompassed in the
long-arm statute, here, “contracting to insure” a
risk located in Montana at the time of contracting.
M. R. Civ. P. 4(b)(1)(D).

83673 • COPE • APPENDIX A

AL 10/2/20

23a
We conclude the District Court did not err in
holding that Montana courts may exercise
personal jurisdiction over Philadelphia under M.
R. Civ. P. 4(b)(1)(D).5
b. Due process under the Fourteenth
Amendment to the United States
Constitution
Turning to the second inquiry in the analysis, we
apply, when analyzing whether the exercise of
personal jurisdiction comports with traditional
notions of fair play and substantial justice, the
three-part test we adopted from the Ninth Circuit
Court of Appeals in Simmons Oil Corp.:
(1) The nonresident defendant must do
some act or consummate some transaction
with the forum or perform some act by
which he purposefully avails himself of the
privileges of conducting activities in the
forum, thereby invoking the laws;
5

Having so concluded, we need not reach the parties’
arguments regarding the exercise of jurisdiction under Rule
4(b)(1)(A), requiring the claim for relief to arise from the
transaction of business in Montana, which the District Court
also held was applicable. The District Court noted
Philadelphia’s authorization from the Commissioner of
Insurance to sell insurance products and to conduct related
business transactions in Montana since 1992, its sale of
policies of insurance for risks and persons within the State,
its authorization of the Commissioner as its agent for service
of legal process in Montana, and its issuance of the Policy
here upon an application naming the Montana Entities,
concluding that “Plaintiffs have made a prima facie showing
of jurisdictional facts that, when construing the allegations
in a light most favorable to them, the claim for relief arises
from Philadelphia’s transaction of business in Montana.”

83673 • COPE • APPENDIX A

AL 10/2/20

24a
(2) The claim must be one which arises
out of or results from the defendant’s
forum-related activities; and
(3) The exercise of jurisdiction must be
reasonable.
Nasca v. Hull, 2004 MT 306, ¶ 26, 323 Mont. 484,
100 P.3d 997 (citing Simmons Oil Corp., 244 Mont.
at 83, 796 P.2d at 194); Buckles I, ¶ 16; Ford Motor
Co., ¶ 12. If a plaintiff establishes the first element
of the test, a presumption of reasonableness arises,
which a defendant can overcome only by presenting a compelling case that jurisdiction would
be unreasonable. B.T. Metal Works v. United Die &
Mfg. Co., 2004 MT 286, ¶ 34, 323 Mont. 308, 100
P.3d 127 (citing Simmons Oil Corp., 244 Mont. at
85, 796 P.2d at 195).
Purposeful Availment
“A nonresident defendant purposefully avails
itself of the benefits and protections of the laws of
the forum state when it takes voluntary action
designed to have an effect in the forum.
Conversely, a defendant does not purposefully
avail itself of the forum’s laws when its only
contacts with the forum are random, fortuitous,
attenuated, or due to the unilateral activity of a
third party.” B.T. Metal Works, ¶ 35 (citing
Simmons Oil Corp., 244 Mont. at 86, 796 P.2d at
195). This is primarily because a defendant that
invokes the forum state’s laws by purposeful
availment “should reasonably anticipate being
haled into court in the forum state” and, therefore,
exercising jurisdiction over that defendant is
“fundamentally fair.” B.T. Metal Works, ¶ 35

83673 • COPE • APPENDIX A

AL 10/2/20

25a
(citing Simmons Oil Corp., 244 Mont. at 86, 796
P.2d at 195).
Philadelphia argues “[i]t does not matter to the
jurisdictional analysis that Philadelphia knew
that Gateway’s business involved providing hotel
management services to a few Montana entities.
The fact that Philadelphia could foresee a
potential claim arising from the sale of those
services to Montana companies is not the standard
for establishing specific personal jurisdiction,”
citing World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286, 295, 100 S. Ct. 556, 566 (1980)
(“‘[f]oreseeability’ alone has never been a sufficient
benchmark for personal jurisdiction under the Due
Process Clause.”).
In Farmers Ins. Exch. v. Portage La Prairie Mut.
Ins. Co., 907 F.2d 911 (9th Cir. 1990), Portage, a
foreign insurer, insured a vehicle that was
involved in an accident in Montana. Farmers Ins.
Exch., 907 F.2d at 912. Its policy provided that
Portage would “defend in the name and on behalf
of any person insured by the Policy and at the cost
of the Insurer . . . .” Farmers Ins. Exch., 907 F.2d
at 914, n.3. The driver of the vehicle was
separately insured by Farmers. When the driver
was sued, demand was made upon Portage, as the
insurer of the vehicle, to appear and defend the
driver. Portage, a Canadian insurer that issued no
policies and had no agents in Montana, refused to
defend and, thus, Farmers defended and settled
the case. Farmers then sued Portage, who in turn
raised the absence of personal jurisdiction as a
defense. Farmers Ins. Exch., 907 F.2d at 912. The
district court ruled in favor of Portage, but the
Ninth Circuit reversed, concluding personal

83673 • COPE • APPENDIX A

AL 10/2/20

26a
jurisdiction could be exercised over Portage in
Montana because Portage failed to rebut the prima
facie showing that it had voluntarily injected itself
into the Montana forum. Farmers Ins. Exch., 907
F.2d at 915. Distinguishing the U.S. Supreme
Court’s determination that the New York
automobile sellers in World-Wide Volkswagen had
not purposely availed themselves to the jurisdiction of Oklahoma merely because legal action in
all states was foreseeable, the Ninth Circuit
reasoned regarding Portage’s role as an insurer:
[L]itigation requiring the presence of the
insurer is not only foreseeable, but it was
purposefully contracted for by the insurer.
Moreover, unlike a product seller or
distributor, an insurer has the contractual
ability to control the territory into which
its “product” – the indemnification and
defense of claims – will travel.
Farmers Ins. Exch., 907 P.2d at 914. Regarding
foreseeability, the U.S. Supreme Court had further
explained in World-Wide Volkswagen, “[t]his is not
to say, of course, that foreseeability is wholly
irrelevant. But the foreseeability that is critical to
due process analysis is not the mere likelihood
that a product will find its way into the forum
State. Rather, it is that the defendant’s conduct
and connection with the forum State are such that
he should reasonably anticipate being haled into
court there.” World-Wide Volkswagen, 444 U.S. at
297, 100 S. Ct. at 567; see also Ford Motor Co., ¶ 14.
We conclude that Philadelphia purposely availed
itself to the benefits and protections of the laws of
Montana and established a connection such that it

83673 • COPE • APPENDIX A

AL 10/2/20

27a
reasonably should have anticipated “being haled
into court” here. Even if Farmers Ins. Exch. were
to be reevaluated under subsequent jurisprudence
of the U.S. Supreme Court, there is a stronger
basis in this case for the exercise of jurisdiction
than the Ninth Circuit Court found to be sufficient
in Farmers Ins. Exch. First, there was more than a
mere foreseeability that a claim could arise here.
Philadelphia had the power to contractually
exclude Montana from the Policy’s coverage area,
but did not do so. Consistent therewith is
Philadelphia’s authorization by the Commissioner
of Insurance to sell insurance products and to
conduct related business transactions in Montana
since 1992, its sale of policies of insurance for risks
and persons within the State, and its authorization of the Commissioner as its agent for service of
legal process in Montana. This is the mechanism
for being haled into court in Montana. Then, as
discussed above, Philadelphia processed an
application from Gateway that listed, on several
attachments, the company’s active business
locations in Montana. Upon that knowledge,
Philadelphia issued the Policy that incorporated
those materials and insured Gateway and,
consistent therewith, Philadelphia’s counsel later
identified the Entities as insureds under the Policy
when Gateway presented a claim. As also
discussed above, nothing in the Policy, including
the arbitration provision, prohibited Montana
courts as serving as a forum for this particular
dispute between the parties. These actions go
further than those upon which the Ninth Circuit
Court determined that Portage, a company that
sold no policies in Montana, had “purposely

83673 • COPE • APPENDIX A

AL 10/2/20

28a
availed itself of the Montana forum” and
“purposely contracted” for the risk of litigation in
Montana. Farmers Ins. Exch., 907 P.2d at 914-15.
We consider here not merely the “unilateral acts”
by Gateway, as Philadelphia contends, but the
entirety of the actions taken by Philadelphia.
Given the context of insurance practices,
Philadelphia acted purposely, and its contacts
with Montana were not merely “random,
fortuitous, attenuated, or due to the unilateral
activity of a third party.” B.T. Metal Works, ¶ 35.
Illustratively, the circumstances here stand in
contrast to those in Carter v. Miss. Farm Bureau
Cas. Ins. Co., where we held that Montana courts
had no personal jurisdiction over the foreign
insurer at issue. In Carter, Plaintiffs Carter and
Schmidt were residents of Mississippi when they
purchased automobile insurance from Mississippi
Farm Bureau Casualty Insurance Company
(MFBCIC), “a remote and strictly regional
insurance carrier which does not do business in
Montana.” Carter, ¶ 16. The policy was purchased
to insure the Plaintiffs’ four vehicles garaged in
Mississippi, and Plaintiffs did not advise the
insurer that they were moving to Montana. Carter,
¶ 5. MFBCIC had no offices or agents, did not
advertise, and was not authorized to conduct
business in Montana as a foreign insurer. Carter, ¶
11. Several weeks after Plaintiffs moved to
Montana, to live here at least part-time, one of
Plaintiffs’ cars was involved in an accident in
Montana, in which Plaintiffs were injured.
Plaintiffs settled with the responsible party for
payment of the party’s liability policy limits, then

83673 • COPE • APPENDIX A

AL 10/2/20

29a
filed a Montana action against MFBCIC for
payment under the underinsured motorist
coverage of their MFBCIC policy. Carter, ¶ 3.
Plaintiffs’ MFBCIC policy renewal notices
subsequent to the accident were mailed to a
Mississippi address, which Plaintiffs were using
while in Montana. Carter, ¶ 14.
We recognized that, “[w]hile a promise to
provide coverage throughout the United States
may establish that an insurer has agreed to
submit to jurisdiction in any forum that has jurisdiction to adjudicate claims against its insured,
this agreement to defend and indemnify its
insured in any state does not imply an agreement
to allow its insured to bring suit against it in any
state.” Carter, ¶ 23. Acknowledging that “it is the
defendant’s forum-related conduct that is at
issue,” we contrasted the “remote and strictly
regional” nature of MFBCIC with “national
carrier[s] doing business in Montana,” noted the
lack of notice to MFBCIC that Plaintiffs were
moving to Montana, and the complete absence of
any commercial business or any other contacts by
the insurer with Montana: “there simply is none on
the part of MFBCIC.” Carter, ¶¶ 17-25. MFBCIC
had taken no action to purposely avail itself to the
benefits and protections of the law of Montana by
establishing any connection such that it
reasonably could have anticipated “being haled
into court” here.6 In contrast, Philadelphia has
done so here.
6

We further concluded that Plaintiffs had failed to
carry their burden to establish a basis under M. R. Civ. P.
4(B)(1)(D), for conferring long-arm jurisdiction over
MFBCIC. Carter, ¶ 29.

83673 • COPE • APPENDIX A

AL 10/2/20

30a
We conclude the District Court did not err in
finding Philadelphia purposefully availed itself of
the laws of Montana as required to confer specific
personal jurisdiction under our three-part test.
Additionally, because we reach this conclusion, a
presumption of reasonableness arises, which
Philadelphia can overcome only by presenting a
compelling case that jurisdiction would be
unreasonable. B.T. Metal Works, ¶ 34.
The claim arises out of or results from the
defendant’s forum-related activities
We have explained that “[t]he Supreme Court
recently clarified the mandatory nature of this
prong[,]” and that “[d]ue process requires a
connection between the defendant’s in-state
actions and the plaintiff’s claim: ‘the suit must
arise out of or relate to the defendant’s contacts
with the forum.’” Ford Motor Co., ¶ 18 (citing
Bristol-Meyers Squibb Co. v. Superior Ct., ___ U.S.
___, 137 S. Ct. 1773, 1780 (2017)) (emphasis in
original). As the Supreme Court further explained,
and as we cited in Buckles I:
In order for a state court to exercise
specific jurisdiction, the suit must arise
out of or relate to the defendant’s contacts
with the forum. In other words, there must
be an affiliation between the forum and
the underlying controversy, principally, an
activity or an occurrence that takes place
in the forum State and is therefore subject
to the State’s regulation.
Buckles I, ¶ 17 (citing Bristol-Myers Squibb Co.,
U.S. at ___, 137 S. Ct. at 1780.

83673 • COPE • APPENDIX A

AL 10/2/20

31a
The relevant portions of the Plaintiffs’
complaint, which we have discussed above, allege
as follows:
24. Philadelphia is in the business of
providing
insurance
insuring
risks,
persons, and property located in Montana.
When it issued the policy to the Gateway
Group, Philadelphia expected to insure
risks and persons located in Montana.
When it issued the Policy to Gateway
Group, Philadelphia did insure risks and
persons located in Montana. As the Policy
insured risks and persons located in
Montana at the time the Policy was
issued, the Policy contemplated disputes
arising in Montana.
45. On or about March 3, 2015, Plaintiffs
submitted a claim directly to Philadelphia
under the Policy requesting defense and
indemnity in the Walter Class Action.
46. On May 29, 2015, Philadelphia
representative Sedgwick LLP wrote to Ron
Hutcheson of Gateway. . . . In that letter,
Philadelphia, through its authorized
representative, denied Plaintiffs’ request
to Philadelphia, for defense and indemnity
to plaintiffs for the Walter Class Action.
47. In that May 29, 2015 . . . letter,
Philadelphia did not resolve any factual
disputes in the Walter Class Action
complaint in Plaintiffs’ favor. Philadelphia
could not make an unequivocal demonstration that the Walter Class Action did
not fall within the Policy’s coverage. As a

83673 • COPE • APPENDIX A

AL 10/2/20

32a
result, Philadelphia had a duty to defend
Plaintiffs for the Walter Class Action in
Montana. Philadelphia breached that
duty. Philadelphia did not defend
Plaintiffs for the Walter Class Action and
thus, Philadelphia failed to perform its
obligations in Montana.
Established for purposes of this inquiry:
Philadelphia issued an indemnity insurance policy
to Gateway under which Philadelphia ostensibly
provided coverage for Gateway’s businesses
operations, including those located in Montana;
Gateway’s businesses were sued in Montana; after
Gateway submitted a claim, Philadelphia denied a
defense to the Montana Entities in that Montana
case; and those Montana businesses therefore
sustained the loss of the policy’s benefit and acted
on their own behalf to defend themselves in the
Montana case.
Considering these circumstances and the context
of a liability insurer, this question is not a
particularly difficult one. The suit here against
Philadelphia arises out of or relates to its contacts
with Montana, including its issuance of the Policy
to Gateway pursuant to its authorization to do
business here. All actions giving rise to Plaintiffs’
claims occurred here: the initiation of the Walter
Class Action against the Plaintiffs in Montana
court, the denial of a defense to Plaintiffs in
Montana court by Philadelphia under the Policy,
and the Plaintiffs’ action to defend themselves. We
conclude the District Court did not err in finding
Plaintiffs’ claim “ar[ose] out of or result[ed] from
the defendant’s forum-related activities,” as
required to impose specific personal jurisdiction

83673 • COPE • APPENDIX A

AL 10/2/20

33a
over Philadelphia under the Fourteenth Amendment to the United States Constitution.
Reasonableness
This court considers seven factors when
examining the reasonableness of jurisdiction:
(1) The extent of the defendant’s purposeful interjection into Montana;
(2) The burden on the defendant of defending in Montana;
(3) The extent of conflict with the
sovereignty of the defendant’s state;
(4) Montana’s interest in adjudicating the
dispute;
(5) The most efficient resolution of the
controversy;
(6) The importance of Montana to the
plaintiff’s interest in convenient and
effective relief; and
(7) The existence of an alternative forum.
Nasca, ¶ 32 (citing Simmons Oil Corp., 244 Mont.
at 87-88, 796 P.2d at 197). Each factor does not
need to be proven for the court to assume jurisdiction, “[r]ather, the factors simply illustrate the
concepts of fundamental fairness, which must be
considered in each jurisdictional analysis.” Simmons
Oil Corp., 244 Mont. at 88, 796 P.2d at 197.
As explained above, if a court concludes the
defendant purposefully availed itself of the forum
state’s laws under the first part of the three-part
test, reasonableness is presumed, and must be
overcome by compelling case that jurisdiction
would be unreasonable. B.T. Metal Works, ¶ 34.
However, Philadelphia does not include in its

83673 • COPE • APPENDIX A

AL 10/2/20

34a
briefing a developed argument demonstrating why
Montana’s exercise of personal jurisdiction would
be unreasonable. Indeed, Philadelphia essentially
ignores this third part of the test altogether.
Therefore, it clearly has not presented a “compelling case” to overcome the presumption of
reasonableness.
Even so, there are several reasons why
Montana’s jurisdiction in this case would be
reasonable under the factors. As discussed above,
Philadelphia sells insurance in Montana and, by
extension, litigates insurance claims in Montana.
Therefore, defending this action in this forum
would likely cause little additional burden to
Philadelphia, which it is well positioned to
undertake. Philadelphia, a Pennsylvania company,
has presented no argument explaining why
defending in Montana would impose any greater
burden than defending in another foreign
jurisdiction, the State of Ohio, where it has
suggested the matter should be litigated. The case
presents no conflict with the sovereignty with
Philadelphia’s home state of Pennsylvania.
Montana courts provide a forum for the most
efficient and convenient resolution of the
controversy, as the Plaintiffs and their agents are
sited here. Perhaps most importantly, Montana
has a significant interest in adjudicating this
dispute. As the District Court reasoned, “as a
matter of public policy, Montana has an interest in
adjudicating a complaint for declaratory judgment
when the underlying suit is brought in Montana
and an insurer concludes that coverage is not
available and does not defend an insured in that
Montana action.”

83673 • COPE • APPENDIX A

AL 10/2/20

35a
Philadelphia has not presented a compelling
case that jurisdiction would be unreasonable to
overcome the presumption of reasonableness.
Likewise, examining the factors relevant to our
consideration of reasonableness, we conclude the
District Court did not err in finding that it was
reasonable for Montana to exercise personal
jurisdiction over Philadelphia in this case.
CONCLUSION
We accept Philadelphia’s deemed petition for
supervisory control for the reasons stated herein.
We agree with the District Court’s determination
that a Montana court may exercise specific
personal jurisdiction over Philadelphia regarding
Plaintiffs’ claims herein.
IT IS THEREFORE ORDERED Philadelphia’s
deemed Petition for a Writ of Supervisory Control
is GRANTED and the District Court’s order
denying Philadelphia’s motion to dismiss for lack
of personal jurisdiction is AFFIRMED.
The Clerk is directed to forward a copy of this
Opinion and Order to all counsel of record in the
Fourth Judicial District Court Cause No. DV-181357, and to the Honorable Shane A. Vannatta,
presiding District Judge.
/S/ JIM RICE
We concur:
/S/ MIKE McGRATH
/S/ JAMES JEREMIAH SHEA
/S/ INGRID GUSTAFSON
/S/ DIRK M. SANDEFUR

83673 • COPE • APPENDIX A

AL 10/2/20

36a
Appendix B
Shane A. Vannatta
District Court Judge, Dept. 5
Missoula County Courthouse
200 W Broadway St
Missoula, MT 59802-4292
(406) 258-4765
[STAMP]
FILED
08/19/2019
Shirley Faust
CLERK
Missoula County District Court
STATE OF MONTANA
By: Susan Wall
DV-32-2018-0001357-DK
Vannatta, Shane
34.00

__________
MONTANA FOURTH JUDICIAL
DISTRICT COURT, MISSOULA COUNTY

__________
Dept. 5
Cause No.: DV-18-1357

__________

83673 • COPE • APPENDIX B

AL 10/5/20

37a
GATEWAY HOSPITALITY GROUP INC .; WESTERN
HOSPITALITY GROUP , LP d/b/a HILTON GARDEN
INN MISSOULA ; KALISPELL HOTEL , LLC d/b/a
HILTON GARDEN INN KALISPELL ; BOZEMAN
LODGING INVESTORS , LLC d/b/a HILTON GARDEN
INN BOZEMAN ; JWT HOSPITALITY GROUP , LLC
d/b/a HILTON GARDEN INN BILLINGS ; and JOHN
DOES 1-5,
Plaintiffs,
—v.—
PHILADELPHIA INDEMNITY INSURANCE COMPANY ;
and JOHN DOES I-X,
Defendants.

__________
OPINION AND ORDER
(MOTION TO DISMISS)
This matter comes before the Court upon
Defendant Philadelphia Indemnity Insurance
Company’s (“Philadelphia”), Motion to Dismiss
Plaintiff’s First Amended Complaint or in the
Alternative to Transfer Based Upon Forum Non
Conveniens (“Motion”) (Doc. 19) filed February 20,
2019. Plaintiffs Gateway Hospitality Group Inc.
(“Gateway”) and the Montana Hilton Garden Inns
identified individually above (“HGI Entities”) filed an
opposition brief on March 6, 2019. On March 27,
2019, Philadelphia filed a reply brief. On June 6,
2019, Plaintiffs filed a Notice of Supplemental
Authority and on June 13, 2019 Philadelphia filed a
response thereto. The above Motion has been fullybriefed. Gateway requested oral argument and the

83673 • COPE • APPENDIX B

AL 10/5/20

38a
Court heard oral argument on August 16, 2019. The
Court has considered the record before it, the oral
arguments, and deems the matter submitted for
ruling.
ORDER
1. The Court DENIES Philadelphia’s Motion (Doc.
19) under Rule 12(b)(1) for lack of subject matter
jurisdiction.
2. The Court DENIES Philadelphia’s Motion (Doc.
19) under Rule 12(b)(2) for lack of personal
jurisdiction.
3. The Court DENIES Philadelphia’s Motion (Doc.
19) as it relates to HGI Entities’ lack of standing
to bring the claims in the Amended Complaint.
4. The Court DENIES Philadelphia’s Motion (Doc.
19) under Rule 12(b)(3) for improper venue and
forum non conveniens.
5. The Court DENIES Philadelphia’s Motion (Doc.
19) for failure to state a claim under Rule
12(b)(6).
6. Philadelphia shall file an answer to Plaintiffs’
claims as required under Mont. R. Civ. P. Rule
8, within 21 days of this Opinion and Order
(unless the parties otherwise stipulate or upon a
showing of good cause).
OPINION
I.

Procedural Background

On October 10, 2018, Plaintiffs filed their
Complaint and Demand for Jury Trial (“Complaint”).
On December 10, 2018, Philadelphia filed a motion to

83673 • COPE • APPENDIX B

AL 10/5/20

39a
dismiss and brief in support with exhibits. On
January 15, 2019, Plaintiffs filed a response brief
with exhibits to Philadelphia’s motion to dismiss.
On January 15, 2019, Plaintiffs filed a motion for
leave of court to file an amended complaint and brief
in support with a draft amended complaint and
insurance policy number PHSD965996 (“Policy”)
attached as exhibits to the brief (Doc. 13, amended
complaint and Policy). On February 1, 2019, Plaintiffs
filed a First Amended Complaint (“Amended
Complaint”) against Defendants. (Doc. 18). In Count
I, Plaintiffs request declaratory relief from the Court
that: Plaintiffs are insureds under the Policy issued
by Philadelphia; Philadelphia had a duty to defend
Plaintiffs against the Pam Walter, et al. v. Gateway
Hospitality Group, Inc., et. al., Fourth Judicial
District Court, Missoula County, DV-15-196 matter
(“Walter Class Action”); Philadelphia breached its
duty to defend Plaintiffs against the Walter Class
Action; and Philadelphia had a duty to pay all
damages suffered by Plaintiffs as a result of the
settlement in the Walter Class Action. In Count II,
Plaintiffs request relief from Philadelphia’s breach of
contract. Plaintiffs reference the Policy as Exhibit 1
and the May 29, 2015 letter (“Denial Letter”) (Doc. 8)
from Philadelphia representative Sedgwick LLP
(“Sedgwick”) to Ron Hutcheson of Gateway as
Exhibit 2 to the Amended Complaint. (Doc. 18).
On February 20, 2019, Philadelphia filed the
Motion and brief in support with exhibit.
Philadelphia seeks dismissal based on Rule 12(b)(1),
(2), (3), (6), asserting: lack of personal jurisdiction;
HGI Entities do not have standing to bring the
claims asserted in the Amended Complaint; forum
non conveniens; and failure to state a claim upon

83673 • COPE • APPENDIX B

AL 10/5/20

40a
which relief can be granted. On March 6, 209,
Plaintiffs filed their response brief. On March 27,
2019, Philadelphia filed their reply brief.
On June 4, 2019, Plaintiffs filed a notice of supplemental authority with a May 21, 2019 Montana
Supreme Court decision attached. On June 13, 2019,
Philadelphia filed a response concerning the
supplemental authority. Plaintiffs then file a notice
of issue and request for oral argument.
This Opinion addresses Philadelphia’s Motion
under 12(b)(1), (2), (3), (6) and as asserted in the
Motion and brief in support.
II. Legal Standard
“Generally, a court should determine jurisdiction
only on the necessary jurisdictional facts and not on
the merits of the case. See 21 C.J.S. Courts § 87
(1990).” Seal v. Hart, 2002 MT 149, ¶ 23, 310 Mont.
307, 314, 50 P.3d 522, 527. Where a district court
decides the jurisdictional issue based on the record,
“the plaintiff is only required to make a prima facie
showing of jurisdictional facts in order to defeat a
motion to dismiss.” Farmers Ins. Exch. v. Portage La
Prairie Mut. Ins. Co., 907 F.2d 911, 912 (9th Cir.
1990). The motion is to be “construed in a light most
favorable to the nonmoving party and should not be
granted unless, taking all well-pled allegations of fact
as true, it appears beyond doubt that the plaintiffs
can prove no set of facts in support of their claim
which would entitle them to relief.” Threlkeld v.
Colorado, 2000 MT 369, 303 Mont. 432, 434, 16 P.3d
359, 361.
A motion to dismiss under Montana Rules of Civil
Procedure 12(b)(6) is the appropriate method to

83673 • COPE • APPENDIX B

AL 10/5/20

41a
challenge the legal sufficiency of the allegations set
forth in the Amended Complaint. “A claim is subject
to dismissal only if it either fails to state a cognizable
legal theory for relief or states an otherwise valid
legal claim but fails to state sufficient facts that, if
true, would entitle the claimant to relief under that
claim.” Puryer v. HSBC Bank USA, Nat’l Ass’n, 2018
MT 124, ¶ 12, 391 Mont. 361, 366, 419 P.3d 105, 109
(citation omitted).
Although all the factual allegations in the
complaint which are well-pleaded must be taken as
true, the court is under no obligation “to accept
allegations of law and legal conclusions in a
complaint as true.” Threlkeld, ¶ 33 (citation omitted).
The Court additionally is under no obligation to
accept or consider allegations which lack factual
basis. Harris, ¶ 14 (citations omitted). The “complaint
must state something more than facts which, at
most, would breed only a suspicion” that the claimant
may be entitled to relief. Anderson v. ReconTrust Co.,
N.A., 2017 MT 313, ¶ 8, 390 Mont. 12, 16, 407 P.3d
692, 696.
“A motion to dismiss under Rule 12(b)(6) allows the
district court to examine only whether ‘a claim has
been adequately stated in the complaint.’” Meagher v.
Butte-Silver Bow City-County, 2007 MT 129, ¶ 15,
337 Mont. 339, 343, 160 P.3d 552, 556. “As a result,
the court is limited to an examination of the contents
of the complaint in making its determination of
adequacy.” Id. However, a district court may properly
review and consider
the complaint and any documents it incorporates by reference without converting the
motion to a summary judgment motion. The

83673 • COPE • APPENDIX B

AL 10/5/20

42a
mere fact that documents are attached to a
complaint does not automatically require
that the motion to dismiss be converted into
a Rule 56 motion for summary judgment.
(Citation omitted.) [The Montana Supreme
Court has] previously upheld a Rule 12(b)(6)
motion to dismiss when the trial court based
its decision upon a complaint and information contained in attached documents.
Cowan v. Cowan, 2004 MT 97, ¶ 11, 321 Mont. 13, 17,
89 P.3d 6, 8-9 (emphasis added).
III. Factual Background
For the purposes of Philadelphia’s Motion (and
only those alleged in the Amended Complaint for
purposes of analyzing the merits of the Motion based
on Rule 12(b)(6)), the following facts alleged by
Plaintiffs are accepted as true:
Gateway is a corporation organized under the laws
of Ohio, with its principal place of business located in
Twinsburg, Ohio. Gateway is a hotel management
company including “food and beverage management”
which provided hotel management services for
businesses including each of the HGI Entities at the
time the Policy was issued.
Each HGI Entity is organized under the laws of the
state of Montana with their principal place of
business in Montana at the time the Policy was
issued. On or about August 1, 2018 and August 14,
2018, each of the HGI Entities filed a Fed.R.Civ.P.
7.1 corporate disclosure in U.S. Dist. Ct. of Montana,
Missoula Division CV-18-00136-DLC stating that it
does not have a parent corporation and no publicly
held corporation owns 10% or more of each HGI

83673 • COPE • APPENDIX B

AL 10/5/20

43a
Entity. (Doc. 21). Each of the HGI Entities hired
Gateway to operate and manage their hotels.
Philadelphia is a foreign corporation organized
under the laws of Pennsylvania with its principal
place of business located in Philadelphia, Penn sylvania. At the time the Policy was issued,
Philadelphia was authorized by the Montana
Commissioner of Securities and Insurance
(“Commissioner”) to transact business in the State of
Montana, including without limitation, advertising,
offering and selling insurance in the State of
Montana. Philadelphia authorized the Commissioner
as its agent for service of legal process in Montana.
At the time the Policy was issued Philadelphia did
and currently does business in Montana by selling
policies of insurance for risks and persons located in
Montana.
Gateway procured the Policy on behalf of Gateway
and each of the HGI Entities as a part of its
responsibilities enumerated in its contract with the
HGI Entities to manage their hotels. HGI Missoula,
HGI Kalispell, and HGI Billings were listed in the
insurance application as subsidiaries of Gateway.
Gateway had the exclusive authority and duty to
direct, supervise, manage, and operate the HGI
Entities’ hotels on a day-to-day basis. Gateway’s
responsibilities included hiring, paying and
supervising all personnel for the hotels, including
food and beverage banquet server-employees.
Gateway was also responsible for generating banquet
service agreements.
In the “Common Policy Declarations” of the Policy
the named insured is Gateway and the business
description is “hotel manager” showing a premium of

83673 • COPE • APPENDIX B

AL 10/5/20

44a
$22,424 was charged for “miscellaneous professional”
coverage. (Doc.13, p.28). The forms and endorse ments made a part of the policy for miscellaneous
professional liability are listed on the “Forms
Schedule.” (Doc.13, p. 32). In the “Cover-Pro
Declarations” Gateway is the named entity with their
profession stated as hotel manager. (Doc.13, p. 30,
31).
The “Cover-Pro Professional Liability Insurance
Policy” states,
In consideration of the payment of the
premium and in reliance upon all
statements and information furnished to us
including all statements made in the
application form, its attachments and the
material incorporated therein, which are
incorporated herein and deemed to be a part
of this policy, we agree as follows: . . .
(Doc.13, p. 44). The application is a part of the Policy.
The “Cover-Pro Professional Liability Insurance
Policy” provides a definition section. Named entity
means the proprietor, firm or organization specified
in Item 1. of the Declarations. (Doc. 13, p. 46).
Gateway is the named entity on the Declarations
page. Insured means: the named entity; any
subsidiary; any independent contractor while acting
on your behalf; any individual insured. (Doc. 13, p.
47). Subsidiary means:
1. A corporation or other entity of which the
named entity owns on or before the inception
of the policy period more than 50% of the
issued and outstanding voting stock either
directly, or indirectly through one or more of

83673 • COPE • APPENDIX B

AL 10/5/20

45a
its subsidiaries or the right to elect, appoint
or designate more than 50% of such entity’s
board of directors, trustees, or managers and
which is set forth in the application or, if the
entity is a limited partnership, the named
entity or one of its subsidiaries must serve
as the general partner . . .
(Doc. 13, p. 46). The exclusion section states that,
This policy does not apply to any claim or
claim expenses: A. arising out of, resulting
from, based upon or in consequence of, any
dishonest, fraudulent, criminal or malicious
act, error or omission, or any intentional or
knowing violation of the law, or gaining of
any profit or advantage wo which you are
not legally entitled; however, we will defend
suits alleging the foregoing until there is a
judgment, final adjudication, adverse
admission, plea nolo contendere or no contest
or finding of fact against you as to such
conduct.
(Doc. 13, p. 47). The Policy territory extends “to any
wrongful act committed anywhere in the world.”
(Doc. 13, p. 49).
The Policy includes a Binding Arbitration
endorsement which states, “This endorsement
modifies coverage provided under the Coverage Part
to which it is attached.” (Doc 13, p.58). It is not clear
to what “Coverage Part” this endorsement attaches.
In the Binding Arbitration endorsement “other
insured(s)” means all other persons or entities
afforded coverage under this policy. Id. This
endorsement also provides, “If we and the insured do
not agree whether coverage is provided under this

83673 • COPE • APPENDIX B

AL 10/5/20

46a
Coverage Part for a claim made against the insured,
then either party may make a written demand for
arbitration.” Neither Plaintiffs nor Philadelphia
made a written demand for arbitration. “Unless both
parties agree otherwise, arbitration will take place in
the county in which the address shown in the
Declarations is located. Local rules of law as to
procedure and evidence will apply.” Id. In the
“Common Policy Declarations” and the “Cover-Pro
Declarations” Twinsburg, Ohio is the address
provided. (Doc. 13, p. 28, 30).
The “Hotel Manager Pro Pak Advantage”
endorsement includes an additional definition
(“hotel/motel manager”) and additional exclusions
with exceptions thereto. (Doc. 13, p. 59-61).
The Cover-Pro Renewal Application (“Application”)
was signed on June 18, 2014. (Doc. 13, p. 68).
Therein, Gateway is the applicant firm with the
principal location in Twinsburg, Ohio. The box is
marked yes regarding whether the applicant firm is
controlled, owned, affiliated or associated with any
other firm, corporation, or company. (Doc. 13, p. 64).
“See attached sheets” is written in response to list
branch office and list subsidiaries. Id. In one
attachment to their application, Gateway lists the
Plaintiffs under “Operating Hotels & Restaurants” or
under “Subsidiaries”. (Doc. 13, p. 72).
The “Cover-Pro Application Hotel/Motel Manager
Supplement” was also signed on June 18, 2014. (Doc.
13, p. 70). The Applicant (Gateway) manages 22
locations. Id. The box is marked yes regarding
whether the Applicant has ownership interest in any
of the locations managed with “See attached sheets”
also written. Id. One attached sheet is “Equity in

83673 • COPE • APPENDIX B

AL 10/5/20

47a
Companies” where legal entities and ownership
percentage are listed. (Doc. 13, p. 71).
In 2015, employees of the HGI Entities filed suit
against Plaintiffs (the Walter Class Action) in
Missoula County alleging that the banquet service
agreements included an 18%-20% additional charge
which was allegedly not distributed to the serveremployees. On or about March 3, 2015, Plaintiffs
submitted a claim directly to Philadelphia under the
Policy requesting defense and indemnity in the
Walter Class Action.
In the May 29, 2015 Denial Letter Philadelphia
denied Plaintiffs’ request. In the Denial Letter
Sedgwick stated that Gateway and the HGI Entities
were insureds under the Policy. Therein Philadelphia
also denied defense and indemnity to Plaintiffs
claiming the Walter Class Action arises out of the
insureds’ employment practices which are precluded
from coverage under the Policy and that additional
policy exclusions and conditions operate to limit or
otherwise preclude coverage. (Doc. 8, p. 8, 9).
Philadelphia did not defend Plaintiffs for the
Walter Class Action. On February 23, 2016, the
Walter Class Action settled. On August 3, 2016, the
settlement was approved and judgment entered
against the Plaintiffs by the Montana Fourth
Judicial District Court.
IV. Legal Analysis
A. Subject Matter Jurisdiction.
Subject-matter jurisdiction is the power of a court
to hear and adjudicate a particular type of
controversy. Harrington, ¶ 13. “The Montana
Constitution provides that a Montana district court

83673 • COPE • APPENDIX B

AL 10/5/20

48a
has, without limitation, subject-matter jurisdiction in
“all civil matters.” Id.
Neither standing nor the application of Montana
law is a prerequisite to subject matter jurisdiction.
“That Montana law does not govern does not mean
that a Montana district court lacks subject-matter
jurisdiction over the claim.” Harrington, ¶ 24. “If a
plaintiff lacks standing, a court can grant no relief
because a justiciable controversy does not exist. A
party’s lack of standing, however, does not deprive a
district court of its subject matter jurisdiction.”
Ballas v. Missoula City Bd. of Adjustment, 2007 MT
299, ¶ 14, 340 Mont. 56, 59-60, 172 P.3d 1232, 1235
(internal citation omitted).
Plaintiffs seek a declaratory judgment from this
Court to declare their rights under the Policy in
relation to claims in the settled Walter Class Action.
While Philadelphia states that the Amended
Complaint should be dismissed based upon Rule
12(b)(1), Philadelphia has not specifically argued how
this Court lacks subject matter jurisdiction.
Philadelphia has asserted, in part, that HGI Entities
do not have standing to bring a claim and has
asserted that the Policy includes a choice of law
provision applying Ohio law. Regardless of the
Court’s determination on each of these assertions,
this Court has subject matter jurisdiction over this
matter.
B.

Personal Jurisdiction.

“A court’s power over the parties in a proceeding—
may be general (all-purpose) or specific (caselinked).” Ford Motor Co. v. Mont. Eighth Judicial
Dist. Court, 2019 MT 115, ¶ 8, 395 Mont. 478, 484.
Mont. R. Civ. P. Rule 4(b)(1), incorporates the

83673 • COPE • APPENDIX B

AL 10/5/20

49a
principles of both general and specific jurisdiction.
Simmons Oil Corp. v. Holly Corp., 244 Mont. 75, 83,
796 P.2d 189, 194 (1990).
1.

General Jurisdiction.

“All persons found within the state of Montana are
subject to the jurisdiction of Montana courts.”
M.R.Civ.P. 4(b)(1). It is [this] first sentence of Rule
4(b)(1), M.R.Civ.P. that deals with the question of
general jurisdiction, that is, whether the party can be
“found within” the state. Simmons, 244 Mont. at 83,
796 P.2d at 194. “A party is “found within” the state
if he or she is physically present in the state or if his
or her contacts with the state are so pervasive that
he or she may be deemed to be physically present
there.” Id. (emphasis added).
In Tyrrell (a U. S. Supreme Court decision overturning the Montana Supreme Court’s ruling on
general jurisdiction), the court noted that “the
‘paradigm’ forums in which a corporate defendant is
‘at home,’ are the corporation’s place of incorporation
and its principal place of business.” BNSF Ry. v.
Tyrrell, 137 S. Ct. 1549, 1558 (2017) (internal
citations omitted). Philadelphia is organized under
the laws of Pennsylvania, with its principal place of
business located in Philadelphia. Philadelphia is not
alleged to have any offices in Montana. Philadelphia
is not physically present in Montana. There is no
general personal jurisdiction over Philadelphia
pursuant to the physical presence consideration.
However, Philadelphia may be subject to the
general jurisdiction of Montana if its contacts with
Montana are so pervasive that it may be deemed to
be physically present here. “The standard for general
jurisdiction is high . . . . [A] defendant must not only

83673 • COPE • APPENDIX B

AL 10/5/20

50a
step through the door, it must also ‘[sit] down and
[make] itself at home.’” King v. Am. Family Mut. Ins.
Co., 632 F.3d 570, 579 (9th Cir. 2011) (additional
citations omitted). The standard is met only by
“continuous corporate operations within a state [that
are] thought so substantial and of such a nature as to
justify suit against [the defendant] on causes of
action arising from dealings entirely distinct from
those activities.” Id (additional citations omitted).
In Ford, the court held that “Ford is undisputedly
not subject to general personal jurisdiction in
Montana.” Ford, ¶ 8 (citing the reasoning in Tyrrell
that the in-state business conducted does not suffice
to permit the assertion of general jurisdiction over
claims that are unrelated to any activity occurring in
Montana). The court in Ford provided no analysis
with that holding but did describe Ford’s connections
with Montana in its discussion of specific personal
jurisdiction as follows. The court noted that Ford
advertised in Montana, was registered to do business
in Montana, operated subsidiary companies in
Montana, had thirty-six dealerships in Montana, had
employees in Montana, sold automobiles and parts in
Montana, and provided automotive services in
Montana. With this list of Ford’s connections with
Montana, the Court found no general personal
jurisdiction; Ford was not at home in Montana.
Philadelphia is authorized by the Commissioner to
transact business in Montana including advertising,
offering and selling insurance in Montana. Philadelphia sells policies of insurance for risks and
persons located in the State of Montana. However,
Philadelphia is not alleged to advertise in Montana
(although it is authorized to do so), is not alleged to
operate subsidiary companies in Montana, is not

83673 • COPE • APPENDIX B

AL 10/5/20

51a
alleged to have offices or employees in Montana. In
short, the extent of the alleged connections that
Philadelphia has with Montana does not equate to
those identified above in Ford where the court
declined to hold that Montana had general
jurisdiction over Ford.
Philadelphia is not “found within” the state for the
purposes of determining general personal
jurisdiction. Philadelphia is not physically present in
the state and Philadelphia’s contacts with the state
are not so pervasive that it may be deemed to be
physically present here. Montana does not have
general personal jurisdiction over Philadelphia.
2.

Specific Jurisdiction.

The rest of Rule 4(b)(1) addresses the concept of
specific jurisdiction.
Under this theory, jurisdiction may be established even though a defendant maintains
minimum contacts with the forum as long as
the plaintiff’s cause of action arises from any
of the activities enumerated in Rule 4(b)(1),
M.R.Civ.P. and the exercise of jurisdiction
does not offend due process.
Simmons, 244 Mont. at 83-84, 796 P.2d at 194.
“Specific jurisdiction focuses on the ‘relationship
among the defendant, the forum, and the litigation,’
and depends on whether the defendant’s ‘suit-related
conduct’ created a substantial connection with the
forum state.” Tackett v. Duncan, 2014 MT 253, ¶
19, 376 Mont. 348, 353, 334 P.3d 920, 925 (internal
citations omitted).

83673 • COPE • APPENDIX B

AL 10/5/20

52a
a. Specific jurisdiction pursuant to Rule
4(b)(1).
The first part of the test to determine specific
jurisdiction is to apply Montana’s long-arm statute.
Any person is subject to the jurisdiction of
Montana courts as to any claim for relief
arising from the doing personally, or
through an employee or agent, of any of the
following acts:
(A) the transaction of any business within
Montana;
...
(D) contracting to insure any person,
property, or risk located within Montana at
the time of contracting;
...
Mont. R. Civ. P. 4(b)(1).
In this case, Gateway has alleged specific jurisdiction exists over Philadelphia under subsection (A)
and (D) of the rule.
i. Transaction of business within
Montana.
“The ‘transacting business’ provision of the longarm statute requires far fewer contacts with the
forum state than are necessary to support general
jurisdiction on the theory that the defendant is ‘doing
business’ in the forum state.” Milky Whey, Inc. v.
Dairy Partners, Ltd. Liab. Co., 2015 MT 18, ¶ 25, 378
Mont. 75, 83, 342 P.3d 13, 18.
The Commissioner has authorized Philadelphia to
transact business in Montana, including without

83673 • COPE • APPENDIX B

AL 10/5/20

53a
limitation, advertising, offering and selling insurance
in Montana. Philadelphia has been authorized in
Montana to transact the business of surety, marine,
property, casualty insurance since December 14,
1992 and is currently authorized to transact business
in Montana. (Doc. 10, p. 6). Philadelphia sells policies
of insurance for risks and persons located in the
State of Montana. Philadelphia authorized the
Commissioner as its agent for service of legal process
in Montana.
While Philadelphia meets the minimum threshold
of transacting business in Montana, application of
Rule 4(b)(1)(A) requires that the claim for relief arise
from the transaction of business in Montana. The
transaction here is the procurement of the Policy.
Plaintiffs’ claim for relief is based upon the
assertions that Gateway and HGI Entities are
insureds under the Policy and that Philadelphia
failed to defend and indemnify them in the Walter
Class Action which was filed and settled in Missoula
County. Philadelphia disputes that HGI Entities are
insureds under the Policy. Gateway procured the
Policy on behalf of Plaintiffs as a part of its
responsibilities enumerated in its contract with
Plaintiffs to manage Plaintiffs’ hotels. The HGI
Entities and their Montana locations were identified
in the Application. Gateway applied for and
Philadelphia issued the Policy.
Plaintiffs have made a prima facie showing of
jurisdictional facts that, when construing the
allegations in a light most favorable to them, the
claim for relief arises from Philadelphia’s transaction
of business in Montana.

83673 • COPE • APPENDIX B

AL 10/5/20

54a
ii. Contracting to insure any person,
property, or risk located within
Montana at the time of contracting.
This sub-section of the long-arm statute does not
require that the contract be entered into in Montana.
Nor does the sub-section require that Philadelphia
owed Plaintiffs a duty.
Rule 4(b)(1)(D), M.R.Civ.P., does not require
that a plaintiff establish the substantive
elements of a contract or a duty of care
before a court may exercise personal jurisdiction over a particular party. To assert
personal jurisdiction over a prospective
party, Rule 4(b)(1)(D), M.R.Civ.P., simply
requires that the claim for relief arise out of
the contracting to insure any person,
property, or risk located within Montana at
the time of contracting.
Seal, ¶ 23.
The court in Seal went on to define “arising from”
in the context of sub- section (D) of the long-arm
statute. “‘Arising from’ has been defined as a direct
affiliation, nexus, or substantial connection between
the basis for the cause of action and the act which
falls within the long-arm statute.” Id.
The act which falls within sub-section (D) of the
long-arm statute, relevant to this case, is contracting
to insure a risk located within Montana at the time
the Policy was issued. Gateway procured the
Policy on behalf of Plaintiffs as a part of its
responsibilities enumerated in its contract
with Plaintiffs to manage Plaintiffs’ hotels
located in Montana. At the time of contracting, on
the Application, Gateway was identified as providing

83673 • COPE • APPENDIX B

AL 10/5/20

55a
hotel management services to businesses including
and specifically identifying HGI Entities and their
Montana locations. The Application is part of the
Policy. The parties do not dispute that Gateway was
an insured and Philadelphia the insurer under the
Policy. While the parties dispute whether HGI
Entities were Gateway’s subsidiaries and whether
HGI Entities were insureds, the Court need not
determine those issues to determine if Philadelphia
insured a risk in Montana. By insuring Gateway’s
hotel management services it provided to businesses
(including those located in Montana), Philadelphia
insured a risk in Montana.
Plaintiffs’ claim for relief, the basis for the cause of
action, is that Philadelphia failed to defend and
indemnify them in the Walter Class Action in
Missoula County, Montana brought by employees of
HGI Entities. It is for that suit that Plaintiffs allege
that Philadelphia failed to defend and indemnify
them. Plaintiffs’ claim for relief here arises from, it
has a direct affiliation, nexus, or substantial
connection to, Philadelphia insuring the risk located
within Montana at the time the Policy was issued.
Plaintiffs have made a prima facie showing of
jurisdictional facts that under the Policy Phila delphia is an insurer of risk associated with
Gateway’s hotel management services including
those for HGI Entities located in Montana. At the
time the Policy was issued Philadelphia contracted to
insure risk located in Montana.
Under Montana’s long-arm statute, Philadelphia is
subject to specific jurisdiction in Montana for
Plaintiffs’ claim for relief that arises from (A) the
transaction of any business within Montana; and (D)

83673 • COPE • APPENDIX B

AL 10/5/20

56a
contracting to insure risk located within Montana at
the time of contracting. However, the Court must
also determine whether specific jurisdiction over
Philadelphia offends due process.
b. Specific jurisdiction pursuant to due
process.
Because the Court has determined that Plaintiffs’
cause of action arises from activities in Montana’s
long-arm statute, jurisdiction may be established
even though Philadelphia may maintain minimum
contacts with Montana as long as the exercise of
jurisdiction does not offend due process. See
Simmons, supra. “A defendant must have ‘certain
minimum contacts [with Montana] such that the
maintenance of the suit does not offend ‘traditional
notions of fair play and substantial justice.’” Ford, ¶
12 (internal citations omitted).
The Montana Supreme Court has applied the
Ninth Circuit Court of Appeal’s three-part test for
determining whether the exercise of jurisdiction
comports with due process:
(1) The nonresident defendant must do some
act or consummate some transaction with
the forum or perform some act by which
he purposefully avails himself of the
privileges of conducting activities in the
forum, thereby invoking the laws;
(2) The claim must be one which arises out
of or results from the defendant’s forumrelated activities; and
(3) The exercise of jurisdiction must be
reasonable.

83673 • COPE • APPENDIX B

AL 10/5/20

57a
Nasca v. Hull, 2004 MT 306, ¶ 26, 323 Mont. 484,
493, 100 P.3d 997, 1004
i. Purposefully avail.
“A nonresident defendant purposefully avails itself
of the benefits and protections of the laws of the
forum state when it takes voluntary action designed
to have an effect in the forum.” Simmons, 244 Mont.
at 86, 796 P.2d at 195. The court in Simmons further
held that,
Conversely, a defendant does not purposefully avail itself of the forum’s laws when its
only contacts with the forum are random,
fortuitous, or attenuated or due to the
unilateral activity of a third party. The
defendant that invokes the laws of the forum
state by purposefully availing itself of the
privilege of conducting activities within the
forum should reasonably anticipate being
haled into court in the forum state.
Therefore, the exercise of jurisdiction over
such a defendant is fundamentally fair.
Simmons Oil Corp. v. Holly Corp., 244 Mont. 75, 86,
796 P.2d 189, 195 (1990) (internal citation omitted).
It is under this first prong that product liability
cases discuss the stream of commerce theory and
foreseeability. The court in Ford, applied the more
stringent “stream of commerce plus” theory in the
case holding that “a defendant must do more than
place a product into the stream of commerce in order
to purposefully avail itself of the privilege of
conducting activities in Montana.” Ford, ¶ 16 (citing
Bunch v. Lancair Int’l, Inc., 2009 MT 29, ¶¶ 24, 28,
30, 55, 349 Mont. 144, 202 P.3d 784 (quoting) Asahi
Metal Indus. Co. v. Superior Court of Cal., Solano

83673 • COPE • APPENDIX B

AL 10/5/20

58a
Cty., 480 U.S. 102, 112, 107 S. Ct. 1026, 1032 (1987)).
“‘Foreseeability’ alone has never been a sufficient
benchmark for personal jurisdiction under the Due
Process Clause.” Farmers, 907 F.2d at 914 (citing
World-Wide Volkswagen Corp. v. Woodson, 444 U.S.
286, 295 (1980)).
The Farmers court addressed foreseeability in the
context of a non-product liability case noting that,
Unlike the automobile sellers in World-Wide
Volkswagen, automobile liability insurers
contract to indemnify and defend the
insured for claims that will foreseeably
result in litigation in foreign states. Thus
litigation requiring the presence of the
insurer is not only foreseeable, but it was
purposefully contracted for by the insurer.
Moreover, unlike a product seller or
distributor, an insurer has the contractual
ability to control the territory into which its
“product” – the indemnification and defense
of claims – will travel.
Id (internal citation omitted). In Farmers, the court
held that Portage failed to rebut the prima facie
showing that it had voluntarily injected itself into the
Montana forum.
In Carter v. Miss. Farm Bureau Cas. Ins. Co., 2005
MT 74, 326 Mont. 350, 109 P.3d 735, the court
addressed the first prong analysis in a defense and
indemnity case. In Carter, the driver/insured sought
a declaratory judgment against the Mississippi
insurer (MFBCIC) and sought interpretation of the
insurance contract. The court held that,
While MFBCIC could reasonably anticipate
that its insured could suffer an injury within

83673 • COPE • APPENDIX B

AL 10/5/20

59a
its fifty-state coverage area, thus triggering
its duty to defend and indemnify, the
foreseeability of that injury—without
more—is not sufficient to subject the
insurer, MFBCIC, to specific personal
jurisdiction within Montana’s courts.
Carter, ¶ 23. While the court in Carter declined to
apply the Farmers holding, they declined to do so
because,
In [Farmers], Portage arguably had an
obligation to appear and defend the driver
who had been sued in Montana as a result of
an accident, while here, MFBCIC had no
similar obligation to appear and defend
because neither its insured or an omnibus
insured was sued in this state. It is the
defendant’s forum- related conduct that is at
issue, and here, there simply is none on the
part of MFBCIC.
Carter, ¶ 25. The court in Carter further dis tin guished Farmers, by noting that in Farmers,
[t]he insurer is obligated by the terms of its
policy to appear for and defend its insured,
wherever an accident and resulting lawsuit
occurs. Farmers, 907 F.2d at 913. Personal
jurisdiction in such cases never becomes a
question, as the insured’s involvement in an
accident in the foreign state is sufficient to
confer jurisdiction upon him, and his
contract of insurance follows him. Farmers,
907 F.2d at 914 (citing Eli Lilly and Co. v.
Home Ins. Co. (D.C.Cir. 1986), 254 U.S. App.
D.C. 1, 794 F.2d 710, 721, cert. denied, 479

83673 • COPE • APPENDIX B

AL 10/5/20

60a
U.S. 1060, 107 S. Ct. 940, 93 L. Ed. 2d 991
(1987)).
Carter, ¶ 27.
Plaintiffs assert that Philadelphia purposefully
availed itself of the laws of Montana by issuing the
Policy which has a coverage territory that extends “to
any wrongful act committed anywhere in the world,”
and therefore it was foreseeable that Philadelphia
would be haled to Court Montana. Pursuant to the
general rule set forth in Ford, Asahi, and Carter, this
provision of the Policy in and of itself is not enough to
establish that Philadelphia purposefully availed
itself of the laws of Montana. However, the Policy
includes more than a broad coverage territory. The
parties do not dispute that the Policy insures
Gateway’s hotel management services. The
businesses and their locations that Gateway provides
services for are specifically identified in the Policy
and include the HGI Entities in Montana.
Philadelphia should reasonably anticipate being
haled into court in Montana and in any of the states
where Gateway provides services to businesses
identified in the Policy.
Furthermore, Philadelphia’s contacts with
Montana are not the result of a unilateral act on the
part of Gateway or HGI Entities. Philadelphia
voluntarily entered into the Policy in which
Gateway’s hotel management services were identified
and HGI Entities and their locations were identified
as subsidiaries and/or where Gateway would conduct
those services.
Construing Plaintiffs’ allegations in a light most
favorable to them, they have made a prima facie
showing of jurisdictional facts to establish that

83673 • COPE • APPENDIX B

AL 10/5/20

61a
Philadelphia purposefully availed itself of the
privileges of conducting activities in Montana,
thereby invoking the laws of Montana.
ii. Arising from.
Due process requires a connection between a
defendant’s in-state actions and a plaintiff’s claim:
“the suit must arise out of or relate to the defendant’s
contacts with the forum.” Ford, ¶ 18 (citing BristolMyers, 582 U.S. at ___, 137 S. Ct. at 1780 (internal
quotations and alterations omitted)). “To ascertain
whether a cause of action arises out of a defendant’s
forum-related activity, we … review the entire chain
of events leading up to the final act resulting in the
claim.” Nasca, ¶ 31. The court in Farmers held that,
An action arises out of contacts with the
forum if, “but for” those contacts, the cause
would not have arisen. Shute v. Carnival
Cruise Lines, 897 F.2d 377, 385 (9th Cir.
1990). But for Portage’s alleged breach of
promise to defend its insured for injuries
caused in Montana, this suit would not have
arisen. The second prong is satisfied.
Farmers, 907 F.2d at 914-15.
Like in Farmers, but for Philadelphia’s alleged
breach of promise to defend Plaintiffs in the Walter
Class Action (brought in Montana, by Montana
employees), this Amended Complaint would not have
arisen. Construing the Plaintiffs’ allegations in a
light most favorable to them, Plaintiffs have pled
sufficient facts to establish that the claim for relief
arises out of or results from Philadelphia’s contacts
with Montana.

83673 • COPE • APPENDIX B

AL 10/5/20

62a
iii. Reasonable.
“Once the plaintiff shows that the defendant has
purposefully availed itself of the privilege of
conducting activities in the forum, a presumption of
reasonableness arises, which the defendant can
overcome only by ‘presenting a compelling case that
jurisdiction would be unreasonable.’” Simmons, 244
Mont. at 85, 796 P.2d at 195.
The factors to be considered when examining the
reasonableness of jurisdiction are:
1. The extent of defendant’s purposeful
interjection into Montana;
2. The burden on defendant of defending in
Montana;
3. The extent of the conflict with the
sovereignty of defendant’s state;
4. Montana’s interest in adjudicating the
dispute;
5. The most efficient resolution of the
controversy;
5. The importance of Montana to plaintiff’s
interest in convenient and effective relief;
and
7. The existence of an alternative forum.
Simmons, 244 Mont. at 87-88, 796 P.2d at 196-97.
“The above factors are not mandatory tests, each of
which the plaintiff must pass in order for the court to
assume jurisdiction. Rather, the factors simply
illustrate the concept of fundamental fairness, which
must be considered in each jurisdictional analysis.”
Id.
Philadelphia entered into a Policy where insuring
risk in Montana was identified on the Application.

83673 • COPE • APPENDIX B

AL 10/5/20

63a
The defense and settlement of a claim in Montana
was foreseeable. Philadelphia has not asserted a
conflict with the sovereignty of the state of
Pennsylvania. While there may be a burden on
Philadelphia of defending in Montana, Philadelphia
has not presented a compelling case that such burden
would be greater than defending in Ohio.
Philadelphia and Ohio present alternate forums, but
HGI Entities would have to avail themselves of
personal jurisdiction in either forum. The parties in
this matter are comprised of: HGI Entities – 4
separate Montana businesses, Gateway an Ohio
company and Philadelphia, a Pennsylvania company.
Philadelphia has not presented a compelling case
that Montana would be a less efficient forum.
In fact, given Philadelphia’s particular reasons for
denial of coverage set forth in the Denial Letter to
Gateway (Doc. 14, p. 8-16), Montana may provide the
most efficient forum for resolution of the Amended
Complaint. The Denial Letter lists Gateway and the
HGI Entities as insureds. (Doc. 14, p. 8). Whether or
not the HGI Entities are ultimately determined to be
insureds under the Policy, the Denial Letter and
reasoning therein applies to Gateway and HGI
Entities as the insureds. Philadelphia concludes that
coverage is not available for the Walter Class Action
under the Policy (Doc 14, p. 16) in part because of the
actions of the Insureds. Therefore, many of the
witnesses to refute/attest to the underlying reasons
for the denial of coverage, as described in Denial
Letter, are in Montana.
The matter was settled in Montana and the order
granting final approval of the settlement agreement
was entered in the Fourth Judicial District Court,
Montana. Montana has an interest in adjudicating

83673 • COPE • APPENDIX B

AL 10/5/20

64a
the dispute because Plaintiffs HGI Entities are
Montana companies. Furthermore, as a matter of
public policy, Montana has an interest in adju di cating a complaint for declaratory judgment when
the underlying suit is brought in Montana and an
insurer concludes that coverage is not available and
does not defend the insured in that underlying
Montana action.
Philadelphia has not presented a compelling case
that jurisdiction would be unreasonable.
Philadelphia purposefully availed itself of the
benefits and protections of Montana laws by
transacting business in the state and therefore
availed itself to Montana jurisdiction. Plaintiffs’
claims arose from Philadelphia’s forum-related
activity, and the exercise of jurisdiction over
Philadelphia is reasonable and comports with due
process. Philadelphia’s motion to dismiss for lack of
personal jurisdiction is denied.
C. HGI Entities’ Standing/Application of the
Uniform Declaratory Judgement Act, Title
27, Chapter 8, et. seq.
“Standing refers to the threshold justiciability
requirement that a plaintiff have a personal stake in
a particular case. If a plaintiff lacks standing, a court
can grant no relief because a justiciable controversy
does not exist.” Ballas, ¶ 14 (internal citations
omitted). Philadelphia asserts that the HGI Entities
do not have standing to seek relief under the
Amended Complaint because they are not
subsidiaries of Gateway and therefore are not
insureds under the Policy.
Because Plaintiffs have filed an Amended
Complaint seeking a declaratory judgment from the

83673 • COPE • APPENDIX B

AL 10/5/20

65a
Court pursuant to Title 27, Chapter 8, et. seq.,
seeking a declaration of their rights under the Policy,
the Court must consider the requirements of the
Uniform Declaratory Judgment Act in conjunction
with Philadelphia’s claims that HGI Entities lack
standing. The statute regarding necessary parties for
declaratory relief states in part that,
When declaratory relief is sought, all
persons shall be made parties who have or
claim any interest which would be affected
by the declaration, and no declaration shall
prejudice the rights of persons not parties to
the proceeding.
Mont. Code Ann. § 27-8-301.
The HGI Entities have an interest in the relief
requested in the Amended Complaint. They were
parties to the Walter Class Action, the settlement,
and subsequent order adopting settlement. The
Court declines to determine whether the HGI
Entities are subsidiaries and/or insureds under the
Policy in order to determine their standing as
Plaintiffs to the Amended Complaint. The Court
considers Mont. Code Ann. § 27-8-301 and concludes
that the HGI Entities are necessary parties to the
Amended Complaint for declaratory relief under the
statute.
D. Change of Venue/Forum Non Conveniens.
Philadelphia has asserted that the language in the
Binding Arbitration endorsement serves as the forum
selection clause for the Policy, that Ohio is the proper
forum. That endorsement states, “Unless both parties
agree otherwise, arbitration will take place in the
county in which the address shown in the
Declarations is located. Local rules of law as to

83673 • COPE • APPENDIX B

AL 10/5/20

66a
procedure and evidence will apply.” This language
specifically references arbitration. Given that neither
party made a demand for arbitration, this particular
provision was not triggered. The Court does not find
Philadelphia’s assertion that this provision is the
forum selection clause for the Policy persuasive.
Philadelphia has asserted that in the alternative,
Plaintiffs’ Amended Complaint should be dismissed
based on forum non conveniens. Montana has a
change of venue statute that addresses this theory.
“Section 25-2-201(3), MCA, which governs motions to
change venue within Montana on the ground of
convenience of witnesses and the ends of justice,
reflects the principles of forum non conveniens.”
Harrington v. Energy W., Inc., 2017 MT 141, ¶ 11,
387 Mont. 497, 500-01, 396 P.3d 114, 117
(Harrington II). “The court or judge must, on motion,
change the place of trial . . . when the convenience of
witnesses and the ends of justice would be promoted
by the change.” Mont. Code Ann. § 25-2- 201(3). A
district court is granted “wide discretion” in
determining whether the convenience of witnesses
and the ends of justice would be promoted by a
change in venue. Harrington II, ¶ 27.
The Montana Supreme Court has interpreted the
Montana Constitution “as expressing an ‘open court
policy’ in its instruction that ‘[c]ourts of justice shall
be open to every person, and speedy remedy afforded
for every injury to person, property, or character.’”
Harrington, ¶ 27. The court in Harrington further
noted that,
This policy comports with the Restatement
(Second) Conflict of Laws instruction that
the two most important factors in a forum

83673 • COPE • APPENDIX B

AL 10/5/20

67a
non conveniens analysis are (1) that since it
is for the plaintiff to choose the place of suit,
his choice of a forum should not be disturbed
except for weighty reasons, and (2) that the
action will not be dismissed unless a suitable
alternative forum is available to the
plaintiff. Restatement (Second) Conflict of
Laws § 84 cmt. c.
Id.
By filing the Amended Complaint, Plaintiffs have
availed themselves of the Court and chosen the place
of suit. Plaintiffs defended the underlying action, the
Walter Class Action, in Missoula County. The alleged
obligation for Philadelphia to defend Plaintiffs in the
Walter Class Action would have taken place in
Missoula County. The Walter Class Action
settlement was approved and judgment entered
against Plaintiffs in Missoula County. The HGI
Entities Plaintiffs are Montana businesses and HGI
Missoula is located in Missoula County. For the
reasons set forth above in the discussion regarding
the reasonableness factor of due process considerations for personal jurisdiction, a suitable alternative
forum has not been shown to be available to the
Plaintiffs. Plaintiffs have alleged sufficient juris dictional facts, that if true, show that venue in
Missoula County is proper.
E. Motion based on Rule 12(b)(6).
In the Amended Complaint, Plaintiffs seek a
declaratory judgment that the Policy: is ambiguous,
lacks notice of provisions potentially defeating
coverage and violates the reasonable expectations of
the Plaintiffs. Plaintiffs also assert breach of
contract, that Philadelphia had a duty to defend and

83673 • COPE • APPENDIX B

AL 10/5/20

68a
indemnify Plaintiffs in the Walter Class Action and
that they did not do so.
Most of Philadelphia’s legal arguments in the
Motion and reply brief present analysis of the Motion
based on Mont. R. Civ. P. Rule 12(b)(1), (2), and (3).
Philadelphia generally asserts that the Amended
Complaint should be dismissed based on Rule
12(b)(6) in that Plaintiffs have failed to state a claim
for which relief can be granted, but do not provide
specific legal arguments in support. Philadelphia
does specifically assert that HGI Entities are not
insureds under the Policy and therefore the Amended
Complaint should be dismissed as to the HGI
Plaintiffs.
“Insurance agreements are contracts that are
subject to the general rules of contract law.” State
Farm Mut. Auto. Ins. Co. v. Freyer, 2013 MT 301, ¶
27, 372 Mont. 191, 199, 312 P.3d 403, 411.
Under contract law, “a breach of contract is
a failure, without legal excuse, to perform
any promise that forms the whole or part of
a contract.” Richard A. Lord, Williston on
Contracts vol. 23, § 63:1 at 434 (4th ed.,
West Group 2002). Hence, the contractual
duty to indemnify is breached when an
“insurer has wrongfully refused to provide
coverage to an insured.”
Id (additional citations omitted). “The narrower duty
to indemnify typically involves complicated
interpretational questions that often require legal
opinions and separate declaratory actions to
determine.” State Farm, ¶ 37.
“The broader duty to defend requires an insurer to
act immediately to defend the insured from a claim.

83673 • COPE • APPENDIX B

AL 10/5/20

69a
The insurer must do so on the basis of mere
allegations that could implicate coverage, if proven.”
Id. “[A] duty to defend is triggered where one portion
of the complaint alleges facts which, if proven, would
result in coverage, even if the remaining counts of
the complaint would not be covered.” Newman v.
Scottsdale Ins. Co., 2013 MT 125, ¶ 40, 370 Mont.
133, 144- 45, 301 P.3d 348, 356
“Courts give the terms and words used in an
insurance contract their usual meaning and construe
them using common sense.” Travelers Cas. & Sur.
Co. v. Ribi Immunochem Research, 2005 MT 50, ¶ 17,
326 Mont. 174, 180, 108 P.3d 469, 474. “Any
ambiguity in an insurance policy must be construed
in favor of the insured and in favor of extending
coverage.” Id. “Exclusions must be narrowly and
strictly construed because they ‘are contrary to the
fundamental protective purpose of an insurance
policy.’ Moreover, because exclusions are contrary to
the fundamental purpose of the policy, such
exclusions are frequently subject to challenge for
ambiguity or inconsistency.” Newman, ¶ 35 (internal
citation omitted).
Whether or not HGI Entities were insureds under
the Policy at the time of contracting is in dispute.
Plaintiffs asserted that HGI Entities were insureds
at the time of contracting. The businesses for which
Gateway provided hotel management services are
included on the Application as are the locations and
percent ownership and the HGI Entities Plaintiffs
were among those businesses. The Denial Letter
states that Gateway and the HGI Entities were
insureds under the Policy. Although Philadelphia
argues that the declaration in the Denial Letter that
the Plaintiffs are insureds conflicts with the

83673 • COPE • APPENDIX B

AL 10/5/20

70a
definition of “insured” and “subsidiary” in the Policy,
that letter declaration is demonstrative of the
parties’ impressions of who the insureds were at the
time of contracting and/or at the time Plaintiffs
submitted the claim and further indicative of the
factual dispute on this issue. Neither the Plaintiffs
nor Philadelphia have provided information that the
premiums paid were commensurate with coverage for
each of the HGI Entities Plaintiffs as insureds.
The Denial Letter describes Philadelphia’s reasons
for denying coverage because, in part, the complaint
in the Walter Class Action does not allege a wrongful
act as defined in the Policy, does not arise out of the
insureds’ profession as defined in the Hotel Manager
Pro Pak Advantage Endorsement, and/or falls under
one of the exclusions of the Policy.
The Denial Letter states that the claim falls under
the employment practices exclusion. The Denial
Letter states that the Walter Class Action complaint
alleges Gateway implemented a new policy in which
the server employees were not compensated their
rightful portion of the gratuity charge. Philadelphia
concluded that,
Because the Walter Class Action arises
solely out of the insureds’ employment
policies and compensation of their
employees, Philadelphia is constrained to
conclude that the Walter Class Action arises
out of the insured’s employment practices
such as to be precluded from coverage by
operation of Exclusion K.
(Doc. 8, p.12). Employment policy and employment
practice are not defined in the Policy.

83673 • COPE • APPENDIX B

AL 10/5/20

71a
Among the other potentially applicable limitations
and exclusions explained in the Denial Letter was
the fraud/unfair advantage exclusion.
Section III.A. of the Policy provides that the
Policy does not apply to any Claim or Claim
Expenses: A. Arising out of . . . any
dishonest, fraudulent, criminal or malicious
act, error or omission . . . or gaining of any
profit or advantage to which you are not
legally entitled; however, we will defend
suits alleging the foregoing until there is a
judgment . . .
(Doc. 8, p. 13). This particular exclusion specifically
states that Philadelphia will defend suits alleging
those acts until there is a judgment.
Construing the Amended Complaint in a light most
favorable to the Plaintiffs, the Plaintiffs have stated
sufficient facts that, if true, would entitle them to
relief under the claims therein. Philadelphia’s Motion
based on Rule 12(b)(6) is denied.
V. Conclusion.
In considering the jurisdictional facts presented in
the record, Plaintiffs have made a prima facie
showing of jurisdictional facts and for the reasons set
forth in this opinion Philadelphia’s motion to dismiss
based on Mont. R. Civ. P. Rule 12(b)(1), (2), and (3) is
denied. HGI Entities are necessary parties under
Mont. Code Ann. § 27-8-301 to the Amended
Complaint requesting declaratory relief and the
Court therefore denies Philadelphia’s motion to
dismiss the HGI Entities Plaintiffs for lack of
standing. In considering the Rule 12(b)(6) Motion in a
light most favorable to the Plaintiffs, Plaintiffs’

83673 • COPE • APPENDIX B

AL 10/5/20

72a
claims have been adequately stated in the Amended
Complaint and Philadelphia’s Rule 12(b)(6) Motion is
denied.
DATED: August 19, 2019.
ELECTRONICALLY SIGNED BELOW
Shane A. Vannatta, District Court Judge
cc:

Dale R. Cockrell, Esq., Jay T. Johnson, Esq.
Jory C. Ruggiero, Esq., Domenic A. Cossi, Esq.
Thomas A. Marra, Esq.

Electronically Signed By:
Hon. Judge Shane A. Vannatta
Mon, Aug 19 2019 01:36:04 PM

83673 • COPE • APPENDIX B

AL 10/5/20

73a
Appendix C

__________
MONTANA FOURTH JUDICIAL
DISTRICT COURT, MISSOULA COUNTY

__________
Exhibit 6

__________
Policy Arbitration Forum Selection Clause
PI-ARB-1 (4/03)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
BINDING ARBITRATION
Wherever, used in this endorsement: 1) “we”, “us”,
“our”, and “insurer” mean the insurance company
which issued this policy; and 2) “you”, “your”,
“named insured”, “first named insured”, and
“insured” mean lhe Named Corporation, the Named
Organization, Named Sponsor, Named Insured, or
Insured stated in lhe declarations page; and 3)
“other insured(s)” means all other persons or
entities afforded coverage under this policy.
This endorsement modifies coverage provided
under the Coverage Part to which it is attached

83673 • COPE • APPENDIX C

AL 10/7/20

74a
If we and the insured do not agree whether
coverage is provided under this Coverage Part for
a claim made against the insured, then either
party may make a written demand for arbitration.
When this demand is made, each party will select
an arbitrator. The two arbitrators will select a
third. If they cannot agree within 30 days, either
may request that selection be made by a judge of a
court having jurisdiction. Each party will:
1. Pay the expenses it incurs; and
2. Bear the expenses of the third arbitrator
equally.
Unless both parties agree otherwise, arbitration
will take place in the county in which the address
shown in the Declarations is located. Local rules of
law as to procedure and evidence will apply. A
decision agreed to by two of the arbitrators will be
binding.

All other terms of the policy remain unchanged.

Includes copyright material of the Insurance
Services Office, Inc used with its permission
Page 1 of 1
Philadelphia’s Motion to Dismiss or to Transfer –
Ex. A – Page 40

83673 • COPE • APPENDIX C

AL 10/7/20

75a
[LOGO]
PHILADELPHIA INSURANCE COMPANIES
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100
Bala Cynwyd, Pennsylvania 19004
610.617.7900 Fax 610.617.7940
PHLY.com
Philadelphia Indemnity Insurance Company
COMMON POLICY DECLARATIONS
Policy Number: PHSD965996
Named Insured and Mailing Address:
Gateway Hospitality Group, Inc.
8921 Canyon Falls Blvd Ste 140
Twinsburg, OH 44087-3900
Producer: 17833
United Agencies Inc.
1422 Euclid Avenue
Suite 900
Cleveland, OH 44115
Policy Period From: 08/16/2014 To: 08/16/2015 at
12.01 AM Standard Time to your mailing address
shown above
Business Description: Hotel Manager
IN RETURN FOR THE PAYMENT OF THE
PREMIUM, AND SUBJECT TO ALL THE TERMS
OF THIS POLICY, WE AGREE WITH YOU TO
PROVIDE THE INSURANCE AS STATED IN
THIS POLICY.

83673 • COPE • APPENDIX C

AL 10/7/20

76a
THIS POLICY CONSISTS OF THE FOLLOWING
COVERAGE PARTS FOR WHICH A PREMIUM IS
INDICATED. THIS PREMIUM MAY BE SUBJECT
TO ADJUSTMENT.
PREMIUM
Commercial Property Coverage Part
Commercial General Liability
Coverage Part
Commercial Crime Coverage Part
Commercial Inland Marine
Coverage Part
Commercial Auto Coverage Part
Businessowners
Workers Compensation
Miscellaneous Professional
Total

22,424.00
$22,424.00

FORM(S) AND ENDORSEMENT(S) MADE A
PART OF THIS POLICY AT THE TIME OF ISSUE
Refer To Forms Schedule
*Omits applicable Forms and Endorsements if
shown in specific Coverage Part/Coverage Form
Declarations
CPD-PIIC (01/07)

[Signature]

Countersignature Date Authorized Representative
Philadelphia’s Motion to Dismiss or to Transfer –
Ex. A – Page 10

83673 • COPE • APPENDIX C

AL 10/7/20

77a
Appendix D

__________
MONTANA FOURTH JUDICIAL
DISTRICT COURT, MISSOULA COUNTY

__________
Philadelphia Indemnity
Insurance Company Policy

__________
[LETTERHEAD LOGO]
Philadelphia Insurance Companies
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100,
Bala Cynwyd, Pennsylvania 19004
610.617.7900 • Fax 610.617.7940 • PHLY.com
08/07/2014
Gateway Hospitality Group, Inc.
8921 Canyon Falls Blvd Ste 140
Twinsburg, OH 44087-3900
Re: PHSD965996
Dear Valued Customer:
Thank you very much for choosing Philadelphia
Indemnity Insurance Company for your insurance

83673 • COPE • APPENDIX D

AL 10/8/20

78a
needs. Our first class customer service, national
presence and A++ (Superior) A.M. Best financial
strength rating have made us the selection by over
150,000 policyholders nationwide. I realize you
have a choice in insurance companies and truly
appreciate your business.
I wish you much success this year and look
forward to building a mutually beneficial business
partnership which will prosper for years to come.
Welcome to PHLY and please visit PHLY.com to
learn more about our Company!
Sincerely,
/s/ Robert D. O’Leary Jr.
Robert D. O’Leary Jr.
President & CEO
Philadelphia Insurance Companies
RDO/sm

83673 • COPE • APPENDIX D

AL 10/8/20

79a
Enroll Today!
·
·
·
·
·
·
·

Receive Invoices Electronically
Pay Your Bills Online
Set Up Recurring Payments
Available 24/7
Safe and Secure
NO FEE!
Environmentally Friendly

Pay Your Bill Online
To pay your bills online you will need a User ID
and Password to access our website. If you don’t
have a User ID please create one by visiting
https://www.PHLY.com/myphly/newuser.aspx.
If you have a User ID, please login and click on
“Online Bill Pay” and enter the necessary
information to pay your bills.
Philadelphia
Insurance
Companies
accepts
electronic checks (a debit from your checking or
savings account) as a method of payment. Please
allow 2 to 3 business days for your payment to post
to your account. This service is offered free of
charge. Please note that credit card payments
cannot be made online.
Recurring Payment
Customers that receive their bill directly (and not
from their agent) can sign up for recurring
payment via automatic withdrawals from a
checking, savings, or money market account for
direct bill policies.
If you do not already have an account on
PHLY.com you will need to create one by visiting
https://www.PHLY.com/myphly/newuser.aspx.
Once logged in please refer to “Links for You” and

83673 • COPE • APPENDIX D

AL 10/8/20

80a
click the “Recurring Payment Instructions” to learn
how to enroll. You can also click the “Online Bill
Pay” tab on the left hand side to enroll in
Recurring Payment.
How to Create an Account on PHLY.com
1.

Go to https://www.PHLY.com/myphly/new
user.aspx

2.

Select the applicable BUTTON (insured or
producer).

3.

Complete the information on the page:
· You will CREATE your own USER NAME
and PASSWORD.
· The password must be at least 7 characters
and contain one number, one lower case
letter, and one capital letter.

4.

Click CONTINUE when done.

5.

On the next page, complete the PASSWORD
RESET QUESTION. If you ever forget your
password, we will ask you this security
question and you will enter the answer you
have selected.

6.

Once you have received the page that states:
“CONTINUE TO MY PHLY,” then you have
successfully created the account.
[IMAGE]
[LOGO]

Focus on the Things that Matter, We'll Handle the
Risk!©

83673 • COPE • APPENDIX D

AL 10/8/20

81a
[LOGO]
Making Things Easier for You!
PHLY CUSTOMER SERVICE
Did you know...
· PHLY has a dedicated National Processing
Center to efficiently and effectively process
endorsements
· The Loss Assistance Hotline provides
Management & Professional Liability
policyholders with 2 FREE HOURS of legal
consultation with knowledgeable attorneys
on ony matter that could potentially result
in a claim under a PHLY policy
· You can review billing and payment history
online
For example: Payment verifications go
to MyPHLY on PHLY.com
· You can pull up and print your invoices and
policy documents online
· You can update your profile online
For example: Billing address changes
and contact information
· We offer live help within seconds: No complicated phone systems
· 97.3% of our policyholders would refer us to
prospective customers*
· 48 hour turnaround time on small business
quotes and policy issuance in less than 10
days

*
All statistics contained herein were generated via
an internal company survey of active policy holders

83673 • COPE • APPENDIX D

AL 10/8/20

82a
· We provide interest free installments for
accounts that generate at least $2,000 in
premium
Frequently Asked Questions
How can I get information about my insurance?
There are 5 different ways to contact Customer
Service
· Customer Service 877.438.7459
· Customer Service Fax 866.847.4046
· Customer Service Email:
custserv@phlyins.com
· Customer Service Online chat
· PHLY.com – “Contact Us”
When can I contact Customer Service?
Customer Service is available Monday – Friday from
8:30 a.m. – 8:00 p.m. EST
What forms of payment does PHLY accept?
PHLY accepts 3 forms of payment:
· Checks sent to the lock box
· Check by phone payments through our IVR
(877.438.7459–Option 1), web site, or
contact center representatives
· Credit card payments through our live
contact
center
representatives
(Visa,
MasterCard and American Express)
Claims
· Average policyholder first party automobile
losses settled in 10 days or less
· Same or next business day acknowledgements of newly reported and opened claims
· Claims representation nationally, with
Commercial Liability Claims Examiner
Niche expertise

83673 • COPE • APPENDIX D

AL 10/8/20

83a
· 24/7 Claims Service. Staff efficiencies with
paperless and industry leading systems
· Staff of Subrogation and Recovery Examiners
exclusively dedicated to recovery efforts for
policyholder paid losses
· Experienced, consistent staff and department structure
Risk Management Services
· Product specific web-based Risk Management Services solutions through PHLY.com
· Free online interactive Defensive Driver
Training course and examination
· Regular e-flyer communications on current
Risk Management Services issues and Large
Loss Lessons Learned
· Strategic partnership with best in class
vendor for discounted background & motor
vehicle record (MVR) checks
Automatically included on most accounts
PHLY Bell endorsement – Includes $50,000 limits
each for Business Travel Accident Benefit,
Donation Assurance, Emergency Real Estate
Consulting Fee, Identity Theft Expense, Image
Restoration and Counseling, Key Individual
Replacement Expenses, Kidnap Expense, Terrorism
Travel Reimbursement, Workplace Violence
Counseling. $25,000 limits for each Conference
Cancellation,
Fundraising
Event
Blackout,
Political Unrest ($5,000 per employee), Temporary
Meeting Space Reimbursement and $1,500 Travel
Delay Reimbursement.
Honors, Awards and Ratings
· Nationally recognized as a member
Ward’s Top 50 Benchmark group

83673 • COPE • APPENDIX D

of
of

AL 10/8/20

84a

·
·
·
·

Property/Casualty Insurance companies for
outstanding achievement in the areas of
financial strength, claims performance and
consistently favorable underwriting results
Forbes Magazine has recognized Philadelphia Insurance Companies as one of the
400 Best Big Companies in America
A++ (Superior) rated by A.M. Best Company
A+ rated by Standard & Poor’s for counterparty credit and financial strength
Business Insurance’s Best Places to Work in
Insurance program identifies and recognizes
Philadelphia Insurance Companies as a
high-quality workplaces in the commercial
insurance industry

A Passion for Service!
Philadelphia Insurance Companies is the marketing name
for the insurance company subsidiaries of the Philadelphia
Consolidated Holding Corp., a Member of the Tokio Marine
Group. Coverage(s) described may not be available in all
states and are subject to Underwriting and certain
coverage(s) may be provided by a surplus lines insurer.
Surplus lines Insurers do not generally participate in state
guaranty funds and insureds are therefore not protected by
such funds. © 2013 Philadelphia Consolidated Holding Corp.,
All Rights Reserved

[LOGOS]

83673 • COPE • APPENDIX D

AL 10/8/20

85a
[LOGO]
Bell Endorsement & Crisis Management
PHLY HAS INCREASED LIMITS...
PHLY has increased limits on Bell Endorse ment and created a Crisis Management
Endorsement that will be attached to our
policies.
Bell Endorsement
$50,000 Identity Theft Expense – coverage
which reimburses the expenses of any director or
officer who becomes a victim of an incident of
identity theft.
$50,000 Terrorism Travel Reimbursement –
which covers any director or officer for emergency
travel expenses that he or she incurs in the event
of a “certified act of terrorism”.
$50,000 Emergency Real Estate Consulting
Fee – coverage for realtor’s fee or real estate
consultant’s fee necessitated by the Insured’s need
to relocate due to the “Unforeseeable destruction”
of the Insured’s principal location.
$25,000
Temporary
Meeting
Space
Reimbursement – coverage for rental of meeting
space which is necessitated by the temporary
unavailability of the Insured’s primary office space
due to the failure of a climate control system, or
leakage of a hot water heater.
$50,000 Workplace Violence Counseling – in
the event that a violent incident occurs on any of
the Insured’s premises.

83673 • COPE • APPENDIX D

AL 10/8/20

86a
$50,000 Kidnap Expense – coverage for
reasonable fees incurred as a result of the
kidnapping of a Director or Officer or their spouse,
“domestic partner”, parent or child.
$50,000 Key Individual Replacement Expenses
– coverage for the Chief Executive Officer or
Executive Director who suffers an “injury” which
results in the loss of life. No deductible applies to
this coverage.
$50,000 Image Restoration and Counseling –
coverage for image restoration and counseling
arising out of “Improper Acts.”
$50,000 Donation Assurance – coverage for
“Failed Donation Claim(s).”
$50,000 Business Travel – coverage for Business
Travel Accidental Death Benefit to the Named
Insured if a Director or Officer suffers an “injury”
while traveling on a common carrier for business.
$25,000 Conference Cancellation – coverage for
any business-related conference expenses, paid by
the insured and not otherwise reimbursed, for a
canceled conference that an employee was
scheduled to attend. The cancellation must be due
directly to a “natural catastrophe” or a
“communicable disease” outbreak that forces the
cancellation of the conference.
$25,000 Fundraising Event Blackout –
coverage for expenses that are incurred due to the
cancellation of a fundraising event caused by the
lack of electric supply resulting in a power outage,
provided the fundraising event is not re-scheduled.
The fundraising event must have been planned at
least thirty (30) days prior to the power outage.

83673 • COPE • APPENDIX D

AL 10/8/20

87a
$5,000 per employee: $25,000 policy limit
Political Unrest – coverage to reimburse any
present director, officer, employee or volunteer of
the named insured while traveling outside the
United States of America for “emergency evacuation expenses” that are incurred as a result of an
incident of “political unrest.”
$1,500 Travel Delay Reimbursement –
coverage to reimburse any present director or
officer of the named insured for any “nonreimbursable expenses” they incur as a result of
the cancellation of any regularly scheduled
business travel on a common carrier.
Crisis Management
$25,000 Crisis Management – coverage for
“crisis management emergency response expenses”
incurred because of an “incident” giving rise to a
“crisis.”
Philadelphia Insurance Companies is the marketing name
for the insurance company subsidiaries of the Philadelphia
Consolidated Holding Corp., a Member of the Tokio Marine
Group. Your insurance policy, and not the information
contained in this document, forms the contract between you
and your insurance company. If there is a discrepancy or
conflict between the information contained herein and your
policy, your policy takes precedence. All coverages are not
available in all states due to state insurance regulations.
Certain coverage(s) may be provided by a surplus lines
insurer. Surplus lines insurers do not generally participate
in state guaranty funds and insureds are therefore not
protected by such funds. | © 2011-2012 Philadelphia
Insurance Companies. All Rights Reserved.

[LOGOS]

83673 • COPE • APPENDIX D

AL 10/8/20

88a
[LOGO]
Risk Management Services
PHLY RISK MANAGEMENT SERVICES
Welcome to PHLY Risk Management Services
Services, PHLY is familiar with the unique Risk
Management Services programming needs of you
organization and has achieved superior results in
this area. We are committed to delivering quality
and timely loss prevention services and risk control
products to your organization. Customer satisfaction
through the delivery of these professional products
to achieve measurable risk improvement results is
our goal. We know the fulfillment of our Risk
Management Services commitment is not complete
until we deliver upon our promises.
OUR MISSION: We welcome the opportunity to
demonstrate how we can tailor a risk management
program suitable to our customer’s needs. We are
committed to providing our customers with
improved communications, quicker implementation of loss control servicing initiatives, and
specific benchmarking goals that help us quantify
the true value of our services.
OUR MOTTO: “Innovative Services Producing
Optimum Results:” This mantra reflects our commitment to utilize innovative products and solutions
to help our customers achieve measurable results.
Customer satisfaction through the delivery of
these quality professional products is our goal. We
know the fulfillment of our Risk Management
Services commitment is not complete until we
deliver upon our promises.

83673 • COPE • APPENDIX D

AL 10/8/20

89a
In order to gain full access to these resources and
others, please take a moment to register on our
website. If you already have an id to PHLY.com,
please login to access Risk Management Services
resources.
Risk Management Resources
· IntelliCorp Records, Inc.
· Accountants Resources
· WEMED Loss Assistance Hotline
· in2vate: Web-enabled EPLI (employment practices liability insurance) Risk Management
Services
Proprietary Risk Management Services
· PHLY Risk Management Services E-flyers
· Responding to Risk Management Services
Recommendations
Contact
· For more information please contact: Customer
Service
800.873.4552
IMPORTANT NOTICE The information and suggestions
presented by Philadelphia Indemnity Insurance Company in
this e-brochure is for your consideration in your loss
prevention efforts. They are not intended to be complete or
definitive in identifying all hazards associated with your
business, preventing workplace accidents, or complying with
any safety related, or other, laws or regulations. You are
encouraged to alter them to fit the specific hazards of your
business and to have your legal counsel review all of your
plans and company policies.
Philadelphia Insurance Companies is the marketing name
for the insurance company subsidiaries of the Philadelphia
Consolidated Holding Corp., a Member of the Tokio Marine
Group. Your insurance policy, and not the information

83673 • COPE • APPENDIX D

AL 10/8/20

90a
contained in this document, forms the contract between you
and your insurance company. If there is a discrepancy or
conflict between the information contained herein and your
policy, your policy takes precedence. All coverages are not
available in all states due to state insurance regulations.
Certain coverage(s) may be provided by a surplus lines
insurer. Surplus lines insurers do not generally participate
in state guaranty funds and insureds are therefore not
protected by such funds. | © 2013 Philadelphia Consolidated
Holding Corp., All Rights Reserved.

[LOGOS]

83673 • COPE • APPENDIX D

AL 10/8/20

91a
[LETTERHEAD LOGO]
Philadelphia Insurance Companies
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100
Bala Cynwyd, Pennsylvania 19004
610.617.7900 Fax 610.617.7940
PHLY.com
Philadelphia Indemnity Insurance Company
Commercial Lines Policy
THIS POLICY CONSISTS OF:
– DECLARATIONS
– COMMON POLICY CONDITIONS
– ONE OR MORE COVERAGE PARTS.
A COVERAGE PART CONSISTS OF:
· ONE OR MORE COVERAGE FORMS
· APPLICABLE FORMS AND ENDORSEMENTS
IN WITNESS WHEREOF, we have caused this
policy to be executed and attested, and, if required
by state law, this policy shall not be valid unless
signed by our authorized representative.
[Signature]

[Signature]

President & CEO

Secretary

83673 • COPE • APPENDIX D

AL 10/8/20

92a
[LOGO]
Risk Management Services
POLICYHOLDER NOTICE
(LOSS ASSISTANCE HOTLINE}
As a free service benefit to its policyholders, PHLY
has partnered with nationally recognized law firm
Wilson, Elser, Moskowitz, Edelman & Dicker LLP
(WEMED), to offer a toll-free Loss Assistance
Hotline. The telephone number is 877.742.2201 or
you can contact a WEMED attorney online at:
apps.wilsonelser.com/pic/. This hotline provides
you with 2 free hours of legal consultation with a
knowledgeable attorney on any matter that you
feel could result in a Claim under your
professional or management liability policy. The
Loss Assistance Hotline is NOT a Claim reporting
service. To report a Claim, follow the Claim
reporting instructions in your policy and also
notify your insurance agent. If you have any
questions concerning the Loss Assistance Hotline,
please contact us at 800.759.4961 x2967.
[WILSON ELSER LOGO]
800.873.4552
Philadelphia Insurance Companies is the marketing name
for the insurance company subsidiaries of the Philadelphia
Consolidated Holding Corp., a Member of the Tokio Marine
Group. Your insurance policy, and not the information
contained in this document, forms the contract between you
and your insurance company. If there is a discrepancy or
conflict between the information contained herein and your
policy, your policy takes precedence. All coverages are not
available in all states due to state insurance regulations.
Certain coverage(s) may be provided by a surplus lines
insurer. Surplus lines insurers do not generally participate

83673 • COPE • APPENDIX D

AL 10/8/20

93a
in state guaranty funds and insureds are therefore not
protected by such funds. | © 2013 Philadelphia Consolidated
Holding Corp., All Rights Reserved.

[LOGOS]
PP 07 13 (07/13)
PRIVACY POLICY NOTICE
Philadelphia Indemnity Insurance Company
The Philadelphia Indemnity Insurance Company
(or “We”) value(s) your privacy and we are
committed to protecting personal information that
we collect during the course of our business
relationship with you.
The collection, use and disclosure of certain
nonpublic personal Information are regulated by
law.
This notice is for your information only and
requires no action on your part. It will inform you
about the types of information that we collect and
how it may be disclosed. This does not reflect a
change in the way we do business or handle your
information.
Information We Collect:
We collect personal information about you from
the following sources:
· Applications or other forms such as claims
forms or underwriting questionnaires completed
by you;
· Information about your transactions with us,
our affiliates or others; and

83673 • COPE • APPENDIX D

AL 10/8/20

94a
·

Depending on the type of transaction you are
conducting with us, information may be
collected from consumer reporting agencies,
health care providers, employers and other
third parties.

Information We Disclose:
We will only disclose the information described
above to our affiliates and non-affiliated third
parties, as permitted by law, and when necessary
to conduct our normal business activities.
For example, we may make disclosures to the
following types of third parties:
· Your agent or broker (producer);
· Parties who perform a business, professional or
insurance functions for our company, including
our reinsurance companies;
· Independent claims adjusters, investigators,
attorneys, other insurers or medical care
providers who need information to investigate,
defend or settle a claim involving you;
· Regulatory agencies in connection with the
regulation of our business; and
· Lienholders, mortgagees, lessors or other
persons shown on our records as having a legal
or beneficial interest in your policy.
We do not sell your information to others for
marketing purposes. We do not disclose the
personal information of persons who have ceased
to be our customers.
Protection of Information:
Philadelphia Indemnity Insurance Company
maintains physical, electronic and procedural
safeguards that comply with state and federal

83673 • COPE • APPENDIX D

AL 10/8/20

95a
regulations to protect the confidentiality of your
personal information. We also limit employee
access to personally identifiable information to
those with a business reason for knowing such
information.
Use of Cookies:
We may place electronic “cookies” in the browser
files of your computer when you access this
website. Cookies are text files placed on your
computer to enable our systems to recognize your
browser and to tailor the information on our
website to your interests. We or our third party
service providers or business partners may place
cookies on your computer’s hard drive to enable us
to match personal information that we maintain
about you so that we are able to pre-populate online forms with your information. We also use
cookies to help us analyze use of our website to
understand which areas of our site are most useful
to you. You may refuse the use of cookies by
selecting the appropriate settings on your browser.
Please note that if you do this, you may not be able
to use the full functionality of the website.
How to Contact Us: Philadelphia Indemnity
Insurance Company, One Bala Plaza, Suite 100,
Bala Cynwyd, PA 19004 Attention: Chief Privacy
Officer
07192013

83673 • COPE • APPENDIX D

AL 10/8/20

96a
[LOGO]
PHILADELPHIA INSURANCE COMPANIES
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100
Bala Cynwyd, Pennsylvania 19004
610.617.7900 Fax 610.617.7940
PHLY.com
Philadelphia Indemnity Insurance Company
COMMON POLICY DECLARATIONS
Policy Number: PHSD965996
Named Insured and Mailing Address:
Gateway Hospitality Group, Inc.
8921 Canyon Falls Blvd Ste 140
Twinsburg, OH 44087-3900
Producer: 17833
United Agencies Inc.
1422 Euclid Avenue
Suite 900
Cleveland, OH 44115
Policy Period From: 08/16/2014 To: 08/16/2015
at 12.01 AM Standard Time to your mailing
address shown above.
Business Description: Hotel Manager
IN RETURN FOR THE PAYMENT OF THE
PREMIUM, AND SUBJECT TO ALL THE TERMS
OF THIS POLICY, WE AGREE WITH YOU TO
PROVIDE THE INSURANCE AS STATED IN
THIS POLICY.

83673 • COPE • APPENDIX D

AL 10/8/20

97a
THIS POLICY CONSISTS OF THE FOLLOWING
COVERAGE PARTS FOR WHICH A PREMIUM IS
INDICATED. THIS PREMIUM MAY BE SUBJECT
TO ADJUSTMENT.
PREMIUM
Commercial Property Coverage Part
Commercial General Liability
Coverage Part
Commercial Crime Coverage Part
Commercial Inland Marine
Coverage Part
Commercial Auto Coverage Part
Businessowners
Workers Compensation
Miscellaneous Professional
Total

22,424.00
$22,424.00

FORM(S) AND ENDORSEMENT(S) MADE A
PART OF THIS POLICY AT THE TIME OF ISSUE
Refer To Forms Schedule
*Omits applicable Forms and Endorsements if
shown in specific Coverage Part/Coverage Form
Declarations
CPD-PIIC (01/07)

[Signature]

Countersignature Date Authorized Representative

83673 • COPE • APPENDIX D

AL 10/8/20

98a
Philadelphia Indemnity Insurance Company
Form Schedule – Policy
Policy Number: PHSD965996
Forms and Endorsements applying to this
Coverage Part and made a part of this policy at
time of issue:
Form

Edition Description

Recurring
Payment Flyer

1212

Recurring
Payment Flyer

CSNotice-1

0813

Making Things Easier

BJP-190-1

1298

Commercial Lines
Policy Jacket

LAH-Notice

0813

Policyholder Notice
(Loss Assistance
Hotline)

PP0713

0713

Privacy Policy Notice

CPD-PIIC

0107

Common Policy
Declarations

IL0985

0108

Disclosure Pursuant to
Terrorism Risk Ins Act
of 2002

83673 • COPE • APPENDIX D

AL 10/8/20

99a
PI-PLSP-001 (08/07)
[LOGO]
PHILADELPHIA INSURANCE COMPANIES
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100
Bala Cynwyd, Pennsylvania 19004
610.617.7900 Fax 610.617.7940
PHLY.com
Cover-Prosm
Philadelphia Indemnity Insurance Company
DECLARATIONS
Policy Number: PHSD965996
NOTICE: THIS IS A CLAIMS MADE POLICY.
PLEASE READ THIS POLICY CAREFULLY.
THE LIMIT OF LIABILITY AVAILABLE TO
PAY JUDGMENTS OR SETTLEMENTS SHALL
BE REDUCED BY AMOUNTS INCURRED
FOR INVESTIGATION AND LEGAL COSTS.
FURTHER NOTE THAT AMOUNTS INCURRED
FOR SUCH COST SHALL BE APPLIED
AGAINST THE DEDUCTIBLE AMOUNT
Item 1.
Named Entity and Address:
Gateway Hospitality Group, Inc.
8921 Canyon Falls Blvd Ste 140
Twinsburg, OH 44087-3900
Item 2.
Policy Period:

83673 • COPE • APPENDIX D

From: 08/16/2014 To: 08/16/2015
(12:01 A.M. Standard Time)

AL 10/8/20

100a
Item 3.
Premium:

$ 22,424.00

Item 4.
Limits of Liability: (A) $ l,000,000 Each Claim,
including Claim Expense
(B) $ l,000,000 Annual
Aggregate, including Claim
Expense
Item 5.
Deductible:

$ 5,000 Deductible per Claim

Item 6.
Retroactive Date: 08/16/2001
Item 7.
Continuity Date:

08/16/2007

Item 8.
Additional Premium for Supplemental Extended
Reporting Period: Refer to PI-PLSP-176
Item 9.
Named Entity’s Profession: Hotel Manager
Endorsements:

See Schedule

By accepting this Policy, the Insured agrees that
the statements in the application are personal
representations, that they shall be deemed
material, and that this Policy is issued in reliance
upon the truth of such representations.
_________________________ _________________
Authorized Representative Countersignature
______________________
Countersignature Date

83673 • COPE • APPENDIX D

AL 10/8/20

101a
Philadelphia Indemnity Insurance Company
Form Schedule – Miscellaneous Professional
Liability
Policy Number: PHSD965996
Forms and Endorsements applying to this
Coverage Part and made a part of this policy at
time of issue:
Form

Edition Description

PI-PLSP-001

0807

Cover Pro Policy
Declarations Page

PI-BELL-1

1109

Bell Endorsement

PI-CME-1

1009

Crisis Management
Enhancement
Endorsement

PI-PLSP-002

0807

Cover Pro

PI-PLSP-010

0807

Nuclear Energy
Liability Exclusion

PI-PLSP-102

0807

Bankruptcy/Insolvency
Exclusion

PI-PLSP-117

0807

Mold Exclusion

PI-PLSP-176

0807

Additional Premium For
Supplemental ERP

PI-ARB-1

0403

Binding Arbitration

PI-MANU-1

0100

HOTEL MANAGER
PRO PAK ADVANTAGE

PI-PLSP-OH-1

1207

Ohio Amendatory
Endorsement

83673 • COPE • APPENDIX D

AL 10/8/20

102a
POLICY NUMBER: PHSD965996
IL 09 86 01 08
THIS ENDORSEMENT IS ATTACHED TO AND
MADE PART OF YOUR POLICY IN RESPONSE
TO THE DISCLOSURE REQUIREMENTS OF
THE TERRORISM RISK INSURANCE ACT.
THIS ENDORSEMENT DOES NOT GRANT
ANY COVERAGE OR CHANGE THE TERMS
AND CONDITIONS OF ANY COVERAGE
UNDER THE POLICY.
DISCLOSURE PURSUANT TO
TERRORISM RISK INSURANCE ACT
SCHEDULE
Terrorism Premium (Certified Acts) $ 0
This premium is the total Certified Acts
premium attributable to the following
Coverage Part(s), Coverage Form(s) and/or
Policy(s):

Additional information, If any, concerning
the terrorism premium:

Information required to complete this
Schedule if not shown above, will be
shown in the Declarations.
A. Disclosure Of Premium
In accordance with the federal Terrorism Risk
Insurance Act, we are required to provide you

83673 • COPE • APPENDIX D

AL 10/8/20

103a
with a notice disclosing the portion of your
premium, if any, attributable to coverage for
terrorist acts certified under the Terrorism Risk
Insurance Act. The portion of your premium
attributable to such coverage is shown in the
Schedule of this endorsement or in the policy
Declarations.
B. Disclosure Of Federal Participation In
Payment Of Terrorism Losses
The United States Government, Department of
the Treasury, will pay a share of terrorism losses
insured under the federal program. The federal
share equals 85% of that portion of the amount
of such insured losses that exceeds the applicable
insurer retention. However, if aggregate insured
losses attributable to terrorist acts certified
under the Terrorism Risk Insurance Act exceed
$100 billion in a Program Year (January 1
through December 31), the Treasury shall not
make any payment for any portion of the
amount of such losses that exceeds $100 billion.
C. Cap On Insurer Participation In Payment
Of Terrorism Losses
If aggregate insured losses attributable to
terrorist acts certified under the Terrorism
Risk Insurance Act exceed $100 billion in a
Program Year (January 1 through December
31) and we have met our insurer deductible
under the Terrorism Risk Insurance Act, we
shall not be liable for the payment of any
portion of the amount of such losses that
exceeds $100 billion, and in such case insured
losses up to that amount are subject to pro rata
allocation in accordance with procedures established by the Secretary of the Treasury.

83673 • COPE • APPENDIX D

AL 10/8/20

104a
PI-BELL-1 (11/09)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
BELL ENDORSEMENT
[LOGO]
PHILADELPHIA INSURANCE COMPANIES
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100
Bala Cynwyd, Pennsylvania 19004
610.617.7900 Fax 610.617.7940
PHLY.com
Unless otherwise stated herein, the terms,
conditions, exclusions and other limitations set
forth in this endorsement are solely applicable to
coverage afforded by this endorsement, and the
policy is amended as follows:
I.

SCHEDULE OF ADDITIONAL COVERAGES
AND LIMITS
The following is a summary of Limits of
Liability or Limits of Insurance and/or
additional coverages provided by this endorsement. This endorsement is subject to the
provisions of the policy to which it is attached.
COVERAGE
Business Travel
Accident Benefit
Conference
Cancellation

83673 • COPE • APPENDIX D

LIMITS OF
INSURANCE
$50,000

$25,000

AL 10/8/20

105a
Donation Assurance

$50,000

Emergency Real Estate $50,000
Consulting Fee
Fundraising Event
Blackout

$25,000

Identity Theft Expense $50,000
Image Restoration
and Counseling

$50,000

Key Individual
$50,000
Replacement Expenses
Kidnap Expense

$50,000

Political Unrest

$5,000 per employee:
$25,000 policy limit

Temporary Meeting
Space Reimbursement

$25,000

Terrorism Travel
Reimbursement

$50,000

Travel Delay
Reimbursement

$1,500

Workplace Violence
Counseling

$50,000

II. CONDITIONS
A. Applicability of Coverage
Coverage provided by your policy and any
endorsements attached thereto is amended by
this endorsement where applicable.
B. Limits of
Insurance

Liability

or

Limits

of

1. When coverage is provided by this
endorsement and another coverage form

83673 • COPE • APPENDIX D

AL 10/8/20

106a
or endorsement attached to this policy,
the greater limits of liability or limits of
insurance will apply. In no instance will
multiple limits apply to coverages which
may be duplicated within this policy.
Additionally, if this policy and any other
coverage part or policy issued to you by
us, or any company affiliated with us,
apply to the same occurrence, offense,
wrongful act, accident or loss, the maximum limits of liability or limits of insurance under all such coverage parts or
policies combined shall not exceed the
highest applicable limits of liability or
limits of insurance under any one
coverage part or policy.
2. Limits of liability or limits of insurance
identified in Section I. SCHEDULE
OF ADDITIONAL COVERAGES AND
LIMITS above are not excess of, but are
in addition to the applicable Limits of
Liability or Limits of Insurance stated in
the Declarations.
C. Claim Expenses
Coverages provided herein are not
applicable to the generation of claim
adjustment costs by you; such as fees you
may incur by retaining a public adjuster or
appraiser.
III. ADDITIONAL COVERAGES
A. Business Travel Accident Benefit
We will pay a Business Travel Accident
Benefit to the insured if a director or officer

83673 • COPE • APPENDIX D

AL 10/8/20

107a
suffers injury or death while traveling on a
common carrier for your business during
the policy period.
For the purpose of Business Travel
Accident Benefit coverage, Injury means:
1. Physical damage to the body caused by
violence, fracture, or an accident that
results in loss of life not later than one
hundred eighty (180) days after the
policy
expiration,
the
date
of
cancellation or the date of non-renewal;
2. Accidental loss of limbs or multiple
fingers;
3. Total loss of sight, speech or hearing.
The limit of insurance for this coverage is
$50,000 per policy period for all insureds
combined. No deductible applies to this
coverage.
The Business Travel Accident Benefit shall
not be payable if the cause of the injury was:
1. An intentional act by the insured;
2. An act of suicide or attempted suicide;
3. An act of war; or
4. A disease process.
B. Conference Cancellation
We will reimburse the insured for any
business-related conference expenses, paid
by the insured and not otherwise
reimbursed, for a canceled conference that
an employee was scheduled to attend. The
cancellation must be due directly to a

83673 • COPE • APPENDIX D

AL 10/8/20

108a
“natural catastrophe” or a “communicable
disease” outbreak that forces the cancellation of the conference.
With respect to a conference cancellation
claim, it is further agreed as follows:
1. The insured employee must have registered for the conference at least thirty
(30) days prior to the cancellation; and
2. The cancellation must be ordered by a
local, state or federal Board of Health or
other governmental authority having
jurisdiction over the location of the
conference.
The limit of insurance for this coverage is
$25,000 per policy period for all insureds
combined. No deductible applies to this
coverage.
C. Donation Assurance
If the insured is a 501(c)(3) status nonprofit organization as defined in the United
States Internal Revenue Code, we will
reimburse the Insured for “failed donation
claim(s).”
With respect to any “failed donation claim,”
it is further agreed as follows:
1. The donor must not have been in
bankruptcy, nor have filed for bankruptcy or reorganization in the past
seven (7) years prior to the time said
pledge was made to the insured;
2. For non-cash donations, our payment of
a “failed donation claim” shall be based

83673 • COPE • APPENDIX D

AL 10/8/20

109a
on the fair market value of said noncash donation at the time of the “failed
donation claim”;
3. In the case of unemployment or
incapacitation of a natural person donor
and as a condition of payment of the
“failed donation claim”:
a. Neither the natural person donor nor
the insured shall have had reason to
believe the donor would become
unemployed or incapacitated subsequent to the donation date; and
b. The donor shall be unemployed for at
least sixty (60) days prior to a claim
being submitted by the insured;
4. No coverage shall be afforded for a
written pledge of funds or other measurable, tangible property to the insured
dated prior to the policy period; and
5. A donation amount which is to be
collected by the insured over more than
a twelve (12) month period shall be
deemed a single donation.
The limit of insurance for this coverage is
$50,000 per policy period for all insureds
combined. No deductible applies to this
coverage.
D. Emergency Real Estate Consulting Fee
We will reimburse the insured any realtor’s
fee or real estate consultant’s fee necessitated by the insured’s need to relocate due
to the “unforeseeable destruction” of the
insured’s “principal location” listed in the

83673 • COPE • APPENDIX D

AL 10/8/20

110a
Declarations during the policy period. The
limit of insurance for this coverage is
$50,000 per policy period for all insureds
combined. No deductible applies to this
coverage.
E. Fundraising Event Blackout
We will reimburse the insured for “fundraising expenses” that are incurred due to
the cancellation of a fundraising event
caused by the lack of electric supply
resulting in a power outage, provided the
fundraising event is not re-scheduled. The
fundraising event must have been planned
at least thirty (30) days prior to the power
outage. The limit of insurance for this
coverage is $25,000 per policy period for all
insureds combined. No deductible applies
to this coverage.
F. Identity Theft Expense
We will reimburse any present director or
officer of the named insured for “identity
theft expenses” incurred as the direct result
of any “identity theft” first discovered and
reported during the policy period; provided
that it began to occur subsequent to the
effective date of the insured’s first policy
with us. The limit of insurance for this
coverage is $50,000 per policy period for all
insureds combined. No deductible applies
to this coverage.
G. Image Restoration and Counseling
We will reimburse the insured for expenses
incurred for image restoration and counsel-

83673 • COPE • APPENDIX D

AL 10/8/20

111a
ing arising out of “improper acts” by any
natural person.
Covered expenses are limited to:
1. The costs of rehabilitation and counseling for the accused natural person
insured, provided the natural person
insured is not ultimately found guilty of
criminal conduct; this reimbursement to
occur after acquittal of the natural
person insured;
2. The costs charged by a recruiter or
expended on advertising, for replacing
an officer as a result of “improper acts”;
and
3. The costs of restoring the named
insured’s reputation and consumer
confidence through image consulting.
The limit of insurance for this coverage is
$50,000 per policy period for all insureds
combined. No deductible applies to this
coverage.
H. Key Individual Replacement Expenses
We will pay “key individual replacement
expenses” if the Chief Executive Officer or
Executive Director suffers an “injury” during the policy period which results in the
loss of life during the policy period. The
limit of insurance for this coverage is the
lesser of $50,000 or ten (10) times the
annual premium paid for this policy. No
deductible applies to this coverage.

83673 • COPE • APPENDIX D

AL 10/8/20

112a
I. Kidnap Expense
We will pay on behalf of any director or
officer of the insured, reasonable fees
incurred as a result of the kidnapping of
them or their spouse, “domestic partner,”
parent or child during the policy period.
Coverage will not apply to any kidnapping
by or at the direction of any present or
former family member of the victim.
Reasonable fees will include:
1. Fees and costs of independent negotiators;
2. Interest costs for any loan from a
financial institution taken by you to pay
a ransom demand or extortion threat;
3. Travel
costs
and
accommodations
incurred by the named insured;
4. Reward money paid to an informant
which leads to the arrest and conviction
of parties responsible for loss covered
under this insurance; and
5. Salary, commissions and other financial
benefits paid by you to a director or
officer. Such compensation applies at
the level in effect on the date of the
kidnap and ends upon the earliest of:
a. Up to thirty (30) days after their
release, if the director or officer has
not yet returned to work;
b. Discovery of their death;
c. One hundred twenty (120) days after
the last credible evidence following
abduction that they are still alive; or

83673 • COPE • APPENDIX D

AL 10/8/20

113a
d. Twelve (12) months after the date of
the kidnapping.
The limit of insurance for this coverage is
$50,000 each policy period for all insureds
combined. No deductible applies to this
coverage.
J. Political Unrest Coverage
We will reimburse any present director,
officer, employee or volunteer of the named
insured while traveling outside the United
States of America for “emergency evacuation expenses” that are incurred as a result
of an incident of “political unrest.” This
“political unrest” must occur during the
policy period. No coverage is granted for
travel to countries in a state of “political
unrest” at the time of departure of the
travel. The limit of insurance for this
coverage is $5,000 per covered person,
subject to a maximum of $25,000 per policy
period for all insureds combined. No
deductible applies to this coverage.
K. Temporary Meeting Space Reimburse ment
We will reimburse the insured for rental of
meeting space which is necessitated by the
temporary unavailability of the insured’s
primary office space due to the failure of a
climate control system, or leakage of a hot
water heater during the policy period.
Coverage will exist only for the renting of
temporary meeting space required for
meeting with parties who are not insured
under this policy. The limit of insurance for

83673 • COPE • APPENDIX D

AL 10/8/20

114a
this coverage is $25,000 per policy period
for all insureds combined. No deductible
applies to this coverage.
L. Terrorism Travel Reimbursement
We will reimburse any present director or
officer of the named insured in the event of
a “certified act of terrorism” during the
policy period which necessitates that he/she
incurs “emergency travel expenses.” The
limit of insurance for this coverage is
$50,000 per policy period for all insureds
combined. No deductible applies to this
coverage.
M. Travel Delay Reimbursement
We will reimburse any present director or
officer of the named insured for any
“nonreimbursable expenses” they incur as a
result of the cancellation of any regularly
scheduled business travel on a common
carrier. The limit of insurance for this
coverage is $1,500 per policy period for all
insureds combined. A seventy-two (72) hour
waiting period deductible applies to this
coverage.
N. Workplace Violence Counseling
We will reimburse the insured for
emotional counseling expenses incurred
directly as a result of a “workplace
violence” incident at any of the insured's
premises during the policy period. The
emotional counseling expenses incurred
must have been for:

83673 • COPE • APPENDIX D

AL 10/8/20

115a
1. Your employees who were victims of, or
witnesses to the “workplace violence”;
2. The spouse, “domestic partner,” parents
or children of your employees who were
victims of, or witnesses to the “workplace violence”; and
3. Any other person
directly witnessed
violence” incident.

or persons who
the “workplace

The limit of Insurance for this coverage is
$50,000 per policy period for all insureds
combined. No deductible applies to this
coverage.
IV. DEFINITIONS
For the purpose of this endorsement, the
following definitions apply:
A. “Certified act of terrorism” means any act
so defined under the Terrorism Risk
Insurance Act, and its amendments or
extensions.
B. “Communicable disease” means an illness,
sickness, condition or an interruption or
disorder of body functions, systems or
organs that is transmissible by an infection
or a contagion directly or indirectly
through human contact, or contact with
human fluids, waste, or similar agent, such
as, but not limited to Meningitis, Measles
or Legionnaire’s Disease.
C. “Domestic partner” means any person who
qualifies as a domestic partner under the
provisions of any federal, state or local
statute or regulation, or under the terms and

83673 • COPE • APPENDIX D

AL 10/8/20

116a
provisions of any employee benefit or other
program established by the named insured.
D. “Emergency evacuation expenses” mean:
1. Additional lodging expenses;
2. Additional transportation costs;
3. The cost of obtaining replacements of
lost or stolen travel documents necessary for evacuation from the area of
“political unrest”; and
4. Translation services, message transmittals and other communication expenses,
provided that these expenses
otherwise reimbursable.

are

not

E. “Emergency travel expenses” mean:
1. Hotel expenses incurred which directly
result from the cancellation of a scheduled transport by a commercial transportation carrier, resulting directly from
and within forty-eight (48) hours of a
“certified act of terrorism”; and
2. The increased amount incurred which
may result from re-scheduling comparable transport, to replace a similarly
scheduled transport canceled by a
commercial transportation carrier in
direct response to a “certified act of
terrorism”;
provided that these expenses
otherwise reimbursable.

are

not

F. “Failed donation claim” means written
notice to the insured during the policy
period of:

83673 • COPE • APPENDIX D

AL 10/8/20

117a
1. The bankruptcy or reorganization of any
donor whereby such bankruptcy or
reorganization prevents the donor from
honoring a prior written pledge of funds
or other measurable, tangible property
to the insured; or
2. The unemployment or incapacitation of
a natural person donor preventing him/
her from honoring a prior written pledge
of funds or other measurable, tangible
property to the insured.
G. “Fundraising expenses” mean deposits
forfeited and other charges paid by you for
catering services, property and equipment
rentals and related transport, venue rentals,
accommodations (including travel), and
entertainment expenses less any deposits
or other fees refunded or refundable to you.
H. “Identity theft” means the act of knowingly
transferring or using, without lawful
authority, a means of identification of any
director or officer (or spouse or “domestic
partner” thereof) of the named insured
with the intent to commit, or to aid or abet
another to commit, any unlawful activity
that constitutes a violation of federal law
or a felony under any applicable state or
local law.
I. “Identity theft expenses” mean:
1. Costs for notarizing affidavits or similar
documents attesting to fraud required
by financial institutions or similar credit
granters or credit agencies;

83673 • COPE • APPENDIX D

AL 10/8/20

118a
2. Costs for certified mail to law enforcement agencies, credit agencies, financial
institutions or similar credit granters;
and
3. Loan application fees for re-applying for
a loan or loans when the original application is rejected solely because the
lender received incorrect credit information.
J. “Improper acts”
alleged act of:

means

any

actual

or

1. Sexual abuse;
2. Sexual intimacy;
3. Sexual molestation; or
4. Sexual assault;
committed by an insured against any
natural person who is not an insured. Such
“improper acts” must have been committed
by the insured while in his or her capacity
as an insured.
K. “Injury” whenever used in this
ment, other than in Section
Business Travel, means any
damage to the body caused by
fracture or an accident.

endorseIII. A.
physical
violence,

L. “Key individual replacement expenses”
mean the following necessary expenses:
1. Costs of advertising the employment
position opening;
2. Travel, lodging, meal and entertainment
expenses incurred in interviewing job

83673 • COPE • APPENDIX D

AL 10/8/20

119a
applicants for the employment position
opening; and
3. Miscellaneous extra expenses incurred
in finding, interviewing and negotiating
with the job applicants, including, but
not limited to, overtime pay, costs to
verify the background and references of
the applicants and legal expenses
incurred to draw up an employment
contract.
M. “Natural catastrophe” means hurricane,
tornado, earthquake or flood.
N. “Non-reimbursable expenses” means the
following travel-related expenses incurred
after a seventy-two (72) hour waiting
period, beginning from the time documented on the proof of cancellation, and for
which your director or officer produces a
receipt:
1. Meals and lodging;
2. Alternative transportation;
3. Clothing and necessary toiletries; and
4. Emergency prescription and non-prescription drug expenses.
O. “Political unrest” means:
1. A short-term condition of disturbance,
turmoil or agitation within a foreign
country that poses imminent risks to the
security of citizens of the United States;
2. A long-term condition of disturbance,
turmoil or agitation that makes a

83673 • COPE • APPENDIX D

AL 10/8/20

120a
foreign country dangerous or unstable
for citizens of the United States; or
3. A condition of disturbance, turmoil or
agitation in a foreign country that
constrains the United States Government’s ability to assist citizens of the
United States, due to the closure or
inaccessibility of an embassy or
consulate or because of a reduction of its
staff for which either an alert or travel
warning has been issued by the United
States Department of State.
P. “Principal location” means the headquarters, home office or main location
where most business is substantially
conducted.
Q. “Unforeseeable destruction” means damage
resulting from a “certified act of terrorism,” fire, collision or collapse which
renders all of the insured’s “principal
locations” completely unusable.
R. “Workplace violence” means any intentional use of or threat to use deadly force
by any person with intent to cause harm
and that results in bodily “injury” or death
of any person while on the insured’s
premises.
© 2009 Philadelphia Insurance Companies

83673 • COPE • APPENDIX D

AL 10/8/20

121a
PI-CME-1 (10/09)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
CRISIS MANAGEMENT ENHANCEMENT
ENDORSEMENT
Unless otherwise stated herein, the terms,
conditions, exclusions and other limitations set
forth in this endorsement are solely applicable to
coverage afforded by this endorsement, and the
policy is amended as follows:
Solely for the purpose of this endorsement: 1) The
words “you” and “your” refer to the Named Insured
shown in the Declarations, and any other person or
organization qualifying as a Named Insured under
this policy. 2) The words “we,” “us” and “our” refer
to the company providing this insurance.
I.

SCHEDULE OF ADDITIONAL COVERAGE AND LIMITS
The following is the Limit of Liability provided
by this endorsement. This endorsement is
subject to the provisions of the policy to which
it is attached.
Crisis Management Expense

$25,000

II. CONDITIONS
A. Applicability of Coverage
Coverage provided by your policy and any
endorsements attached thereto is amended
by this endorsement where applicable. All
other terms and conditions of the policy or

83673 • COPE • APPENDIX D

AL 10/8/20

122a
coverage part to which this endorsement is
attached remain unchanged.
B. Limits of
Insurance

Liability

or

Limits

of

When coverage is provided by this
endorsement and any other coverage form
or endorsement attached to this policy, we
will pay only for the amount of covered loss
or damage in excess of the amount due from
that other insurance, whether you can
collect on it or not. But we will not pay
more than the applicable Limit of Liability
or Limit of Insurance.
C. Claim Expenses
Coverages provided herein are not
applicable to the generation of claim
adjustment costs by you; such as fees you
may incur by retaining a public adjuster or
appraiser.
III. ADDITIONAL COVERAGES
A. We will reimburse you for “crisis management emergency response expenses” incurred
because of an “incident” giving rise to a
“crisis” to which this insurance applies.
The amount of such reimbursement is
limited as described in Section II.
CONDITIONS, B. Limits of Liability or
Limits of Insurance. No other obligation
or liability to pay sums or perform acts or
services is covered.
B. We will reimburse only those “crisis management emergency response expenses” which
are incurred during the policy period as

83673 • COPE • APPENDIX D

AL 10/8/20

123a
shown in the Declarations of the policy to
which this coverage is attached and
reported to us within six (6) months of the
date the “crisis” was initiated.
IV. DEFINITIONS
A. “Crisis” means the public announcement
that an “incident” occurred on your
premises or at an event sponsored by you.
B. “Crisis management emergency response
expenses” mean those expenses incurred
for services provided by a “crisis management firm.” However, “crisis management
emergency response expenses” shall not
include compensation, fees, benefits, overhead, charges or expenses of any insured or
any of your employees, nor shall “crisis
management emergency response expenses”
include any expenses that are payable on
your behalf or reimbursable to you under
any other valid and collectible insurance.
C. “Crisis management firm” means any
service provider you hire that is acceptable
to us. Our consent will not be unreasonably
withheld.
D. “Incident” means an accident or other
event, including the accidental discharge of
pollutants, resulting in death or serious
bodily injury to three or more persons.
E. “Serious bodily injury” means any injury to
a person that creates a substantial risk of
death, serious permanent disfigurement, or
protracted loss or impairment of the
function of any bodily member or organ.

83673 • COPE • APPENDIX D

AL 10/8/20

124a
PI-PLSP-002 (08/07)
Cover-Prosm
PROFESSIONAL LIABILITY
INSURANCE POLICY
THIS IS A CLAIMS MADE POLICY –
PLEASE READ IT CAREFULLY
In consideration of the payment of the premium and in
reliance upon all statements and information furnished to
us including all statements made in the application
form, its attachments and the material Incorporated
therein, which are incorporated herein and deemed to
be a part of this policy, we agree as follows:
I.

INSURING AGREEMENTS
A. Professional Liability Coverage
We shall pay on your behalf all sums, not
exceeding the Limits of Liability and in excess
of the applicable Deductible set forth in the
Declarations, for which you shall become legally
obligated to pay as damages resulting from
any claim first made against you during the
policy period or any subsequent extended
reporting period arising out of a wrongful act
committed after the retroactive date stated in
Item 6. of the Declarations and prior to the end
of the policy period.
B. Defense And Settlement
We, in your name and on your behalf, shall have
the right and duty to investigate, defend, and
conduct settlement negotiations, including
selection of defense counsel, in any claim or suit.

83673 • COPE • APPENDIX D

AL 10/8/20

125a
We shall not settle any claim without your
consent, such consent not to be unreasonably
withheld. Should you refuse to consent to any
settlement recommended by us, and acceptable to
the claimant, and elect to further contest the
claim, our liability for such claim shall not
exceed the amount for which the claim could have
been settled, including claim expenses incurred,
up to the date of such refusal, plus 50% of covered
damages and claim expenses in excess of such
settlement amount, it being a condition of this
insurance that the remaining 50% of such
damages and claim expenses excess of the first
settlement amount shall be borne by you at your
own risk and be uninsured. Notwithstanding the
foregoing, this paragraph shall not apply until the
settlement amount exceeds the Deductible
amount stated in Item 5. of the Declarations.
You shall not admit liability for, or make any
voluntary settlement, or incur any costs or
expenses in connection with any claim except
with our written consent.
We shall not be obligated to pay any claim or
judgment or claim expenses or to defend any
suit after the applicable Limits of Liability
have been exhausted.
C. Supplemental Payments
We will pay up to two hundred and fifty dollars
($250) per individual insured per day for each
day any such individual insured is required to
appear at a trial, hearing or arbitration proceeding involving a claim against such insured,
subject to a five thousand dollar ($5,000) sublimit
of liability (“Trial Sublimit of Liability”). The

83673 • COPE • APPENDIX D

AL 10/8/20

126a
Trial Sublimit of Liability shall be in addition to
the Limits of Liability as shown in Item 4. of the
Declarations.
II. DEFINITIONS
THE FOLLOWING WORDS AND PHRASES
APPEARING IN BOLD HAVE SPECIAL
MEANING WHENEVER USED IN THIS
POLICY:
A. Bodily injury means physical injury,
sickness, disease, disability, mental anguish,
mental injury or emotional distress sustained by a person, including death
resulting therefrom at any time.
B. Claim means a demand received by you
for money or services, including the service
of suit or institution of arbitration proceedings involving you arising from any
alleged wrongful act. Claim shall also
include any request to toll the statute of
limitations relating to a potential claim
involving an alleged wrongful act.
C. Claim expenses means fees charged by
any lawyer designated by us and all other
fees, costs, and expenses resulting from
the investigation, adjustment, defense,
and appeal of a claim, if incurred by us.
Claim expenses shall also include:
1. Premiums on bonds to release attachments and appeal bonds, limited to that
portion of such bonds that does not
exceed the Limits of Liability of this
policy, but without any obligation by us
to apply for or furnish such bonds;

83673 • COPE • APPENDIX D

AL 10/8/20

127a
2. Costs taxed against you in any suit
except for any contempt citations;
3. Interest accruing after the entry of
judgment, but only for that portion of
the judgment which does not exceed the
applicable Limits of Liability, and only
until we have tendered to the court or
paid to you our portion of such judgment
as does not exceed our Limit of Liability
thereon; and
4. Reasonable expenses incurred by you at
our request in assisting in the
investigation and defense of any claim,
other than loss of earnings.
Claim expenses shall not include:
a. any amounts incurred in defense of
any claim for which any other insurer
has a duty to defend, regardless of
whether or not such other insurer
undertakes such duty; or
b. salaries, wages, overhead or benefit
expenses associated with any insured
except as specified in Section I.
INSURING AGREEMENTS, Paragraph C. above; or
c. salaries, wages, overhead or benefit
expenses
associated
with
your
employees.
D. Continuity Date means the date listed in
Item 7. of the Declarations.
E. Damages means a monetary judgment,
award or settlement, including punitive

83673 • COPE • APPENDIX D

AL 10/8/20

128a
damages or exemplary damages where
insurable by law, but does not include the
multiple part of multiplied· damages, fines,
taxes, sanctions or statutory penalties,
including those based upon legal fees
whether imposed by law, court or
otherwise.
F. Domestic partner means any person who
qualifies as a domestic partner under the
provisions of any federal, state or local
statute or regulation, or under the terms
and provisions of any employee benefit or
other program established by you.
G. Individual Insured means:
1. Any current partner, director, officer,
member or employee of yours while acting
within the scope of their duties as such.
2. Any former or retired partner, director,
officer, member or employee of yours, but
only for those professional services
rendered on behalf of the named entity
prior to the date of separation or
retirement from such entity(ies).
3. The lawful spouse or domestic partner
of an individual insured, but only for
actual or alleged wrongful acts of such
individual insured for which said
spouse or domestic partner may be
liable as the spouse or domestic partner
of such individual insured.
4. The heirs, executors, administrators,
assignees, and legal representatives of each
insured in the event of such insured’s

83673 • COPE • APPENDIX D

AL 10/8/20

129a
death, incapacity or bankruptcy as respects
the liability of each insured as is otherwise covered herein.
H. Named Entity means the proprietor, firm
or organization specified in Item 1. of the
Declarations.
I.

Personal Injury means wrongful entry or
eviction or other invasion of private
occupancy, the publication or utterance of
a libel or slander or other defamatory or
disparaging material, or a publication or
an utterance in violation of an individual’s
right of privacy.

J. Policy Period means the period from the
inception date of this policy to the expiration
date as set forth in Item 2. of the
Declarations or such earlier termination
date, if any.
K. Professional Services means services
rendered to others for a fee solely in the
conduct of your profession as stated in
Item 9. of the Declarations.
L. Property Damage means physical injury
to tangible property, including all resulting
loss of use of such property or loss of use of
tangible property that is not physically
injured.
M. Retroactive Date means the date listed
in Item 6. of the Declarations.
N. Subsidiary means:
1. A corporation or other entity of which the
named entity owns on or before the

83673 • COPE • APPENDIX D

AL 10/8/20

130a
inception of the policy period more than
50% of the issued and outstanding voting
stock either directly, or indirectly through
one or more of its subsidiaries or the right
to elect, appoint or designate more than 50%
of such entity’s board of directors, trustees,
or managers and which is set forth in the
application or, if the entity is a limited
partnership, the named entity or one of
its subsidiaries must serve as the
general partner.
A corporation or other entity which
becomes a subsidiary during the policy
period and whose revenues total less than
15% of the total consolidated revenues of
the named entity as disclosed by you on
the most recently completed application
as of the inception date of this policy
period.
2. A corporation or other entity, which
becomes a subsidiary during the policy
period other than a corporation or other
entity described in Paragraph 1. above, but
only upon the condition that within 90 days
of its becoming a subsidiary, the named
entity shall have provided us with a
completed application and all materials
requested by us and agreed to any
additional premium and/or amendment
of the provisions of this policy required by
us relating to the addition of such new
subsidiary. Further, coverage as shall be
afforded to the new subsidiary is
conditioned upon the named entity
paying when due any additional premium

83673 • COPE • APPENDIX D

AL 10/8/20

131a
required by us relating to such new
subsidiary. Failure to provide the
requested information within the 90 days
or failure to pay the additional premium
when requested will result in the denial of
coverage to said subsidiary under this
policy.
A corporation or other entity becomes a
subsidiary when the named entity owns
more than 50% of the issued and outstanding
voting stock, either directly or indirectly through
one or more of its subsidiaries or serves as a
general partner for a limited partnership. A
corporation ceases to be a subsidiary when the
named entity ceases to own more than 50% of
the issued and outstanding voting stock, either
directly or indirectly through one or more of its
subsidiaries or is removed or ceases to act as
general partner of a limited partnership.
Coverage for claims made against any
subsidiary or the insureds of any subsidiary
shall only apply to wrongful acts of such
subsidiary or the insureds of such subsidiary
occurring after the effective time that such
subsidiary became a subsidiary and prior to
the time that such subsidiary ceased to be a
subsidiary.
O. We, us, our means the insurance company
shown in the Declarations (a stock
insurance company).
P. Wrongful Act means a negligent act,
error, or omission committed or alleged to
have been committed by you or any person
for whom you are legally responsible in

83673 • COPE • APPENDIX D

AL 10/8/20

132a
the rendering of professional services.
Wrongful Act shall include personal injury
arising out of the rendering of professional
services.
Q. You, your, insured means:
1. The named entity.
2. Any subsidiary.
3. Any independent contractor while acting
on your behalf but solely as respects the
provision of professional services.
4. Any individual insured.
III. EXCLUSIONS
THIS POLICY DOES NOT APPLY TO ANY
CLAIM OR CLAIM EXPENSES:
A. arising out of, resulting from, based upon or in
consequence of, any dishonest, fraudulent,
criminal or malicious act, error or omission, or
any intentional or knowing violation of the
law, or gaining of any profit or advantage to
which you are not legally entitled; however,
we will defend suits alleging the foregoing
until there is a judgment, final adjudication,
adverse admission, plea nolo contendere or no
contest or finding of fact against you as to
such conduct.
B. for bodily injury or property damage.
C. arising out of any costs of corrections, costs of
complying with non-pecuniary relief, fines or
penalties imposed by law or other matters
which may be deemed uninsurable under the

83673 • COPE • APPENDIX D

AL 10/8/20

133a
law pursuant to which this policy may be
construed.
D. arising out of any Disciplinary Proceeding
against any insured, however, we will defend
you for said Disciplinary Proceeding up to a
sublimit of liability (“Disciplinary Proceeding
Sublimit”) often thousand dollars ($10,000).
The Disciplinary Proceeding Sublimit shall be
part of, not in addition to, the Limits of
Liability as shown in Item 4. of the
Declarations and shall no way serve to
increase the Limits of Liability. Defense for
disciplinary proceedings will still be subject to
all other terms and provisions in this policy.
E. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
failure to effect or maintain any insurance
or bond.
F. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
infringement of copyright, patent, trademark service mark, trade name, or misappropriation of ideas or trade secrets.
G. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
violation of the Securities Exchange Act of
1933 as amended, the Securities Exchange Act
of 1934 as amended, any state Blue Sky or
Securities Law or any rules, regulations or
amendments issued in relation to such acts,
or any similar state, federal or foreign
statutes or regulations.

83673 • COPE • APPENDIX D

AL 10/8/20

134a
H. arising out of, resulting from, based upon or
in consequence of, directly or indirectly, any
express warranties or guarantees or any
liability you assume under contract unless
you would have been legally liable in the
absence of such contract.
I.

arising out of, resulting from, based upon or
in consequence of, directly or indirectly, any
claim brought by any insured against
another insured.

J. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
pending or prior litigation as of the
continuity date of this policy, as well as all
future claims or litigation based on the
pending or prior litigation derived from the
same or essentially the same facts (actual or
alleged) that gave rise to the prior or
pending litigation.
K. alleging, arising out of, resulting from, based
upon or in consequence of, directly or
indirectly, any employment practices or any
discrimination against any person or entity on
any basis, including but not limited to: race,
creed, color, religion, ethnic background,
national origin, age, handicap, disability, sex,
sexual orientation or pregnancy.
L. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
discharge, dispersal, release or escape of any
solid, liquid, gaseous, biological, radiological or
thermal irritant or contaminant, including
smoke, vapor, dust, fibers, spores, fungi, germs,
soot, fumes, asbestos, acids, alkalis, chemicals

83673 • COPE • APPENDIX D

AL 10/8/20

135a
and waste (including, but not limited to,
materials to be recycled, reconditioned or
reclaimed and nuclear materials) into or upon
land, the atmosphere or any water-course or
body of water or any cost or expense arising
out of any direction, request or voluntary
action to test for, monitor, clean up, remove,
contain, treat, detoxify or neutralize any
pollutants.
M. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
services as an attorney, accountant, actuary,
tax preparer, tax consultant, real estate
broker, securities broker, securities dealer,
registered representative of a securities broker
or dealer, financial planner, nurse, doctor of
medicine, veterinary medicine or dentistry,
architect or engineer.
N. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
professional services performed for any
entity in which any insured is a principal,
partner, officer, director or owns or controls
more than three percent (3%) of the issued and
outstanding stock of such entity.
O. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
disputes involving your fees or charges.
P. arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any
wrongful act committed prior to the policy
period and subsequent to the retroactive
date for which you gave notice under any prior
insurance policy or which you had any basis to

83673 • COPE • APPENDIX D

AL 10/8/20

136a
believe might reasonably be expected to give
rise to a claim under this Policy
No wrongful act of any individual insured
nor any fact pertaining to any individual
insured shall be imputed to any other partner,
director, officer or employee for the purposes of
determining the applicability of Exclusion A
above.
IV. LIMITS OF LIABILITY
Regardless of the number of (a) insureds under
this policy, (b) persons or entities who allege
damages or (c) claims made or suits brought,
our liability is limited as follows:
A. We shall be liable to pay that portion of
any damages and claim expenses in
excess of the applicable Deductible as
stated in the Declarations for any one
claim up to the Limits of Liability as
stated in Item 4. of the Declarations. A
Deductible shall apply to each and every
claim, including claim expenses, and
such Deductible shall be borne by you. The
Deductible shall be uninsured and be at
your own risk.
B. Our maximum aggregate liability for all
damages and claim expenses arising out
of all claims made during the policy
period shall be the Limit of Liability
stated in the Declarations. The Limit of
Liability during any Extended Reporting
Period added to this policy shall be the
remaining portion, if any, of the aggregate
Limit of Liability provided by this policy as
stated in Item 4. of the Declarations.

83673 • COPE • APPENDIX D

AL 10/8/20

137a
C. Claims based on or arising out of the
same act or circumstance, or a series of
similar or related acts or circumstances
shall be considered a single claim and
shall be considered first made during the
policy period or the Extended Reporting Period (if applicable), of the policy In
which the earliest claim arising out of
such act(s) or circumstance(s(s) was first
made and all damages and claim
expenses shall be subject to the same
Each Claim Limit of Liability.
V. GENERAL CONDITIONS
A. Policy Territory:
This policy shall extend to any wrongful act
committed anywhere in the world.
All premiums, limits, retentions, damages,
claim expenses and other amounts under
this policy are expressed and payable in the
currency of the United States of America. If
judgment is rendered, settlement is
denominated or another element of damages
or claims expenses under this policy is
stated in a currency other than United States
dollars, payment under this policy shall be
made in United States dollars at the rate of
exchange published in The Wall Street
Journal on the date the final judgment is
reached, the amount of the settlement is
agreed upon or the other element of damages
or claims expenses is due, respectively.

83673 • COPE • APPENDIX D

AL 10/8/20

138a
B. Notice and Claim Reporting Provisions:
Notice hereunder shall be given by you or on
your behalf in writing to us at One Bala
Plaza, Suite 100, Bala Cynwyd, PA 19004
Attn: Claims Department.
1. You shall, as a condition precedent to
our obligations under this policy, give
written notice to us as soon as
practicable during the policy period, or
during the Extended Reporting Period (if
any) of any claim made against you.
2. If during the policy period, or during
the Extended Reporting Period (if
any), but not during the Automatic
Extension, you shall become aware of
any circumstance which could reasonably be expected to give rise to a
claim, you shall give written notice to
us regarding all particulars of said
incident as soon as practicable after
you become aware of said circumstance. Such written notice of any
circumstance must include:
a. the specific wrongful act; and
b. the damages which have or may
result from such wrongful act; and
c. the circumstances by which you first
became aware of such wrongful act.
Any claim then arising out of such
wrongful act will be considered to have
been first made at the time of the
original notice.

83673 • COPE • APPENDIX D

AL 10/8/20

139a
C. Extended Reporting Period:
1. If we or you cancel or refuse to renew
this policy for reasons other than nonpayment of premium, we will provide to
you a 60 day Automatic Extension of the
coverage granted by this policy, at no
additional charge, for any claim first made
against you and reported to us during the
60 day extension period but only as respects
wrongful acts committed after the
Retroactive Date (if any) stated in the
Declarations and prior to the date of
cancellation or non-renewal. In the event
you purchase replacement coverage for this
policy or a Supplemental Extended Reporting Period under 2. below, said 60 day
Automatic Extension period will terminate
upon the effective date of said replacement
coverage or Extended Reporting Period.
2. If we or you cancel or refuse to renew this
policy for reasons other than non-payment
of premium, you shall have the right to
purchase, for the appropriate additional
payment as listed in Item 8. of the
Declarations, a Supplemental Extended
Reporting Period of a duration and for a
premium as described on the Declarations.
This extension will provide coverage
granted by this policy for any claim first
made against you and reported to us
during the Supplemental Extended
Reporting Period. This Supplemental
Extended Reporting Period only applies to
wrongful acts committed after the
Retroactive Date (if any) stated in the

83673 • COPE • APPENDIX D

AL 10/8/20

140a
Declarations and prior to the date of
cancellation or non-renewal. You must
apply for this extension in writing
accompanied by payment of the appropriate premium prior to the expiration of
the 60 day Automatic Extension period
under 1. above.
3. All premium paid with respect to an
extension period shall be deemed to be fully
earned as of the first day of the extension
period. For the purpose of this clause, any
change in premium, retention, Limits of
Liability or other terms on renewal shall
not constitute a refusal to renew.
4. Limits of Liability available during any
Extended Reporting Period shall not exceed
the balance of the Limits of Liability in
effect at the time the policy terminated.
5. In the event similar insurance is in force
covering any claims first made during
the 60 day extension period or during any
Extended Reporting Period, coverage
provided by this policy shall be excess over
any such other insurance.
D. Deductible:
It is your responsibility to pay the
Deductible amount as stated in Item 5. of
the Declarations as the result of each claim.
We may pay part of or all of the Deductible
amount to effect a settlement of any claim,
however, upon notification of any such
action taken, you shall promptly reimburse
us for all of the Deductible amount as has
been paid by us.

83673 • COPE • APPENDIX D

AL 10/8/20

141a
E. Your Duties In the Event of a Claim:
1. Pursuant to B. Notice and Claim
Reporting Provisions, Paragraph 1.
above, you shall give written notice
containing particulars sufficient to identify
the insured, time, place and underlying
circumstances of the claim to us.
2. You shall admit no liability, make no
payments, assume no obligation and
incur no expense related to such claim
without our written consent.
3. When a claim is made against you,
you shall immediately forward to us
every demand, notice, summons, or
other process received by you or your
representatives.
4. You shall cooperate with us and, upon
our request, assist in making settlements and in the conduct of suits. You
shall attend hearings, trials and
depositions and shall assist in securing
and giving evidence and in obtaining the
attendance of witnesses.
5. You shall not demand or agree to
arbitration of any claim without our
written consent. Such consent shall not
be unreasonably withheld.
F. Subrogation:
If we pay any amount hereunder as
damages, claim expenses or any combination thereof, we shall be subrogated to
your rights of recovery against any person,

83673 • COPE • APPENDIX D

AL 10/8/20

142a
firm or organization. You shall execute and
deliver instruments and papers and do
whatever is necessary to secure such rights.
You shall not waive or prejudice such
rights prior to or subsequent to any claim.
G. Changes:
Notwithstanding anything to the contrary,
no provision of this policy may be
amended, waived or otherwise changed
except by endorsement issued by us to
form part of this policy.
H. Action Against Us:
1. No action shall lie against us unless,
as a condition precedent thereto, there
shall have been compliance with all
terms of this policy, and until the
amount of your obligation to pay shall
have been finally determined either by
judgment entered in a court of law
against you or by your written agreement with the claimant or claimant’s
legal representative and us.
2. Any person or the legal representatives thereof who has secured such a
judgment or written agreement shall
thereafter be entitled to recover under
this policy to the extent of the
insurance afforded by this policy. No
person or entity shall have any right
under this policy to join us as a party
to any action against you to determine
your liability, nor shall we be impeded
by you or their legal representatives.

83673 • COPE • APPENDIX D

AL 10/8/20

143a
Your bankruptcy or insolvency or that
of your successors in interest shall not
relieve us of our obligations hereunder.
I. Change in Control:
If during the policy period:
1. the named entity merges into or
consolidates with another entity such
that the named entity is not the
surviving entity; or
2. another entity, person, or group of
entities and/or persons acting in concert
acquires securities or voting rights
which result in ownership or voting
control by other entity(ies) or person(s)
of more than fifty percent (50%) of the
outstanding securities representing the
rights to vote for the election of the
named entity’s directors:
(either of the above events hereinafter
referred to as the “Transaction”) then
coverage shall continue until the later of
the termination of the policy period or
such other date to which we may agree,
but only with respect to wrongful acts
which occurred prior to the Transaction
and are otherwise covered by this policy
and premium shall be considered fully
earned.
J. Cancellation or Non-Renewal:
1. This policy may be canceled by the
named entity by surrender thereof and

83673 • COPE • APPENDIX D

AL 10/8/20

144a
selection of a future date to us at the
address stated In the Declarations or by
mailing to us written notice stating
when thereafter such cancellation shall
be effective. If this policy is canceled by
you, we shall retain the customary
short-rate portion of the premium.
2. The policy may be canceled by us by
mailing to the named entity at the
address stated in the Declarations
written notice stating when, not less
than forty-five (45) days thereafter or
ten (10) days in the case of cancellation
for non-payment of premium or
Deductible, such cancellation shall
become effective. If the policy is canceled
by us, earned premium shall be computed pro-rata.
3. In the event we refuse to renew this
policy, we shall mail to the named
entity, at the address stated in the
Declarations, not less than forty-five
(45) days prior to the expiration of this
policy, written notice of non-renewal.
Such notice shall be conclusive on all
insureds.
4. The mailing of Notice of Cancellation or
Non-Renewal as aforementioned shall be
sufficient notice of the intent to cancel or
non-renew. The effective date of
cancellation or non-renewal specified in
the notice shall terminate this policy
period.

83673 • COPE • APPENDIX D

AL 10/8/20

145a
K. Conformity to Statutes:
Terms of this policy which are in conflict
with the statutes of the state wherein this
policy is issued are hereby amended to
conform to such statutes.
L. Assignment:
Assignment of interest under this policy
shall not bind us unless our consent is
endorsed hereon.
M. Authorization Clause:
By acceptance of this policy, you agree that
the statements in the application are your
agreements and representations and that
this policy is issued in reliance upon the
truth of such representations. This policy
embodies all existing agreements between
you and us relating to this insurance.
N. Other Insurance :
This insurance is excess over any other
valid and collectable insurance available to
you except as respects such insurance
written to apply specifically in excess of this
Insurance.
O. Liability Coverage Disputed
Reservation of Rights:

and

If a controversy or dispute arises with
regard to whether coverage exists with
respect to a claim submitted by you under
the coverage sections of this policy, we may
elect to provide a defense under a
Reservation of Rights whereby we reserve
our rights to deny and reject any claim for

83673 • COPE • APPENDIX D

AL 10/8/20

146a
damages. In the event it is finally
established by judgment or agreement that
we have no liability with respect to such a
claim, you shall reimburse us upon
demand all sums and monies paid by us to
defend and/or settle such claim.
P. False or Fraudulent Claims:
If any insured shall commit fraud in
presenting any claim as regards amounts
or otherwise, this insurance shall become
void as to such insured from the date such
fraudulent claim is presented.
Q. Headings
The descriptions in the headings of this
policy and any endorsements attached
hereto are solely for convenience, and form
no part of the terms and conditions of
coverage.
IN WITNESS WHEREOF, WE HAVE CAUSED
THIS POLICY TO BE SIGNED BY OUR
PRESIDENT AND SECRETARY. THIS POLICY
SHALL NOT BE VALID UNLESS COUNTER SIGNED ON THE DECLARATIONS PAGE BY
OUR DULY AUTHORIZED REPRESENTATIVE.

83673 • COPE • APPENDIX D

AL 10/8/20

147a
PI-PLSP-010 (08/07)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
NUCLEAR ENERGY LIABILITY EXCLUSION
This endorsement modifies insurance provided
under the following:
COVER-PROSM
In consideration of the premium paid, it is agreed
that this policy does not apply to any claim
arising out of, resulting from, based upon or in
consequence of, directly or indirectly, any bodily
injury or property damage resulting from radioactive, toxic or explosive properties of nuclear
material which includes, but is not limited to,
“source material”, “special nuclear material” and
“by product material” as those terms are defined in
the Atomic Energy Act of 1954 and any amendments thereto and any similar provisions of any
federal, state or local statutory or common law.
All other terms and conditions of this policy
remain unchanged.

83673 • COPE • APPENDIX D

AL 10/8/20

148a
PI-PLSP-102 (08/07)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
BANKRUPTCY/INSOLVENCY EXCLUSION
This endorsement modifies insurance provided
under the following:
COVER-PROSM
In consideration of the premium paid, it is agreed
that this policy does not apply to any claim
arising out of, based upon, or attributable to:
1. the bankruptcy, insolvency or financial
failure of the insured; or
2. the insured’s seeking protection under
federal bankruptcy laws (or any similar
laws); or
3. the bankruptcy, insolvency or financial
failure of any entity with whom the Insured
transacts business.
All other terms and conditions of this policy
remain unchanged.

83673 • COPE • APPENDIX D

AL 10/8/20

149a
PI-PLSP-117 (08/07)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
MOLD EXCLUSION
This endorsement modifies insurance provided
under the following:
COVER-PROSM
It is hereby agreed that we shall not be liable to
make any payment for damages or claim expenses
in connection with any claim that involves:
1. Bodily injury or property damage which
would not have occurred, in whole or in
part, but for the actual, alleged or
threatened inhalation of, ingestion of,
contact with, exposure to, existence of, or
presence of, any mold, mildew, fungi or
bacteria (or any materials containing any
similar organic contaminant or pollutant)
on or within a building or structure,
including its contents, regardless of
whether any other cause, event, material,
rendering of professional service or
product contributed concurrently or in any
sequence to such injury or damage; or
2. any loss, cost or expenses arising out of the
abating, testing for, monitoring, cleaning
up, removing, containing, treating, detoxifying, neutralizing, failure to detect, remediating or disposing of, or in any way
responding to, or assessing the effects of
mold, mildew, fungi or bacteria (or any

83673 • COPE • APPENDIX D

AL 10/8/20

150a
materials containing any similar organic
contaminant or pollutant), by any Insured
or by any other person or entity.
For the purposes of this exclusion, fungi means
any type or form of fungus, including mold or
mildew and any mycotoxins, spores, scents or
byproducts thereof.
All other terms and conditions of this policy
remain unchanged.

83673 • COPE • APPENDIX D

AL 10/8/20

151a
PI-PLSP-176 (08/07)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
ADDITIONAL PREMIUM FOR
SUPPLEMENTAL EXTENDED
REPORTING PERIOD
This endorsement modifies and is subject to the
insurance provided under the following:
COVER-PROSM
The Declarations are amended as follows:
Item 8. is deleted in its entirety and replaced with
the following:
Item 8. The Additional Premium for
Supplemental Extended Reporting Period
shall be as follows:
12 months:
24 months:
36 months:
48 months:
60 months:
Unlimited:

75% of Annual Premium
125% of Annual Premium
150% of Annual Premium
175% of Annual Premium
200% of Annual Premium
285% of Annual Premium

All other terms and conditions of this policy
remain unchanged.

83673 • COPE • APPENDIX D

AL 10/8/20

152a
PI-ARB-1 (4/03)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
BINDING ARBITRATION
Wherever, used in this endorsement: 1) “we”, “us”,
“our”, and “insurer” mean the insurance company
which issued this policy; and 2) “you”, “your”,
“named insured”, “first named insured”, and
“insured” mean the Named Corporation, the
Named Organization, Named Sponsor, Named
Insured, or Insured stated in the declarations
page; and 3) “other insured(s)” means all other
persons or entities afforded coverage under this
policy.
This endorsement modifies coverage provided
under the Coverage Part to which it is attached.
If we and the insured do not agree whether
coverage is provided under this Coverage Part for
a claim made against the insured, then either
party may make a written demand for arbitration.
When this demand is made, each party will select
an arbitrator. The two arbitrators will select a
third. If they cannot agree within 30 days, either
may request that selection be made by a judge of a
court having jurisdiction. Each party will:
1. Pay the expenses it incurs; and
2. Bear the expenses of the third arbitrator
equally.
Unless both parties agree otherwise, arbitration
will take place in the county in which the address

83673 • COPE • APPENDIX D

AL 10/8/20

153a
shown in the Declarations is located. Local rules of
law as to procedure and evidence will apply. A
decision agreed to by two of the arbitrators will be
binding.
All other terms of the policy remain unchanged.

83673 • COPE • APPENDIX D

AL 10/8/20

154a
PI-MANU-1 (01/00)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY
HOTEL MANAGER PRO PAK ADVANTAGE
THIS ENDORSEMENT CHANGES THE POLICY.
PLEASE READ IT CAREFULLY.
HOTEL MANAGER PRO PAK ADVANTAGE
This endorsement modifies and is subject to the
insurance provided under the following:
COVER-PROSM
This policy is amended as follows:
A. The following is added
DEFINITIONS of the policy:

to

Section

II,

The term Hotel/Motel Manager as stated in
Item 9. of the Declarations is defined as follows:
Hotel/Motel Manager means the provision of management services over hotel operations such as
staffing, housekeeping, reservations, coordination
of building maintenance, food services, and
coordination of recreational activities for others,
for a fee.
B. ADDITIONAL EXCLUSIONS
Section III. EXCLUSIONS, is amended to
include the following:
THIS POLICY ALSO DOES NOT APPLY TO
ANY CLAIM OR CLAIM EXPENSES ARISING
OUT OF:

83673 • COPE • APPENDIX D

AL 10/8/20

155a
R. Any wrongful act committed with
knowledge that it was a wrongful act.

the

S. Any claim arising out of or connected with
the performance or failure to perform
services for any person or entity:
1. which is owned by or controlled by any
insured; or
All other terms and conditions of this Policy
remain unchanged.
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY
2. which owns or controls any insured; or
3. which is affiliated with any insured
through any common ownership or
control: or
4. in which any insured is a director,
officer, partner or principal stockholder.
However, subparagraphs 1., 2. and 4. of
this exclusion shall not apply to any claim
arising out of your hotel/motel manager
services which is brought or maintained by
an entity:
a. in which any insured has an ownership interest of twenty-five percent
(25%) or less: or
b. which is owned by an insured if such
ownership interest is twenty-six percent (26%) or more but is equal to or
less than ninety-nine percent (99%),
provided that our liability for any
damages and claim expenses for such

83673 • COPE • APPENDIX D

AL 10/8/20

156a
claim, in excess of the Deductible,
shall not exceed a percentage equal in
proportion to the amount of ownership interest in such entity not owned
by an insured and you shall be
responsible for the remaining percentage of such damages and claim
expenses;
T. The operation of any data processing
equipment on behalf of any client except for
use of data processing equipment which is
incidental to the performance of hotel/motel
manager services.
U. Any claim arising out of any actual or
alleged commingling of or inability or
failure to pay, collect or safeguard funds;
V. Any claim alleging failure
maintenance or repairs;

to

provide

W, Any claim arising out of the failure of any
real, personal or intangible property to
have at any point or points in time any
guaranteed economic value.
X. Any claim arising out of the guaranteeing of
the availability of funds.
Y. Any claim based upon or arising out of
incorrect description of any
All other terms and conditions of this Policy
remain unchanged.

83673 • COPE • APPENDIX D

AL 10/8/20

157a
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY
article or commodity or any mistake in
advertised price or any false, misleading,
deceptive or fraudulent advertising,
Z. Any claim arising out of the promoting of,
syndication of, offering or selling of any
interest in any limited partnership;
AA. Any claim arising out of activities as a
Property Developer, Builder or Construction Manager, or
BB. Any claim arising either directly or
indirectly out of any penalties initiated by
the Internal Revenue Service.
All other terms and conditions of this Policy
remain unchanged.

83673 • COPE • APPENDIX D

AL 10/8/20

158a
PI-PLSP-OH-1 (12/07)
THIS ENDORSEMENT CHANGES THE
POLICY. PLEASE READ IT CAREFULLY.
OHIO AMENDATORY ENDORSEMENT
This endorsement modifies insurance provided
under the following:
COVER-PROsm
1. It is hereby agreed and understood that Section
V. GENERAL CONDITIONS, J. Cancellation
or NonRenewal is deleted and replaced with
the following:
J. Cancellation or Non-Renewal:
CANCELLATION:
1. The Insurer shown in the Declarations
may cancel this policy by mailing or
delivering to the Named Insurer advance
written notice of cancellation.
2. If this policy has been in effect for:
a. Fewer than ninety (90) days and is not
a renewal policy, the Insurer may
cancel for any reason.
b. Ninety (90) days or more or is a
renewal policy, the Insurer may
cancel only for one or more of the
following reasons:
(1) Nonpayment of premium;
(2) Discovery of fraud or material
misrepresentation made by the
Insured or with the Insureds

83673 • COPE • APPENDIX D

AL 10/8/20

159a
knowledge in obtaining the policy,
continuing the policy or in presenting a Claim under the policy;
(3) Discovery of a moral hazard or
willful or reckless acts or
omissions on the Insured’s part
which
increase
any
hazard
insured against;
(4) Substantial increase in the risk of
loss after insurance coverage has
been issued or renewed, including
but not limited to an increase in
exposure due to rules, legislation
or court decision;
(5) Loss of applicable reinsurance or a
substantial decrease in applicable
reinsurance, if the Superintendent
has determined that reasonable
efforts have been made to prevent
the loss of, or substantial decrease
in, the applicable reinsurance, or
to obtain replacement coverage;
(6) Failure of an insured to correct
material violations of safety codes
or to comply with reasonable
written loss control recommendations; or
(7) Determination by the Superintendent of insurance that the
continuation of the policy would
create a condition of that would be
hazardous to the policyholders or
the public.

83673 • COPE • APPENDIX D

AL 10/8/20

160a
3. The Insurer will mail or deliver to the
Named Insured and agent, if any,
written notice of cancellation . At the last
mailing addresses known to the Insurer.
Proof of mailing will be sufficient proof of
notice.
4. Notice of cancellation will:
(1) State the effective date of cancellation. The Policy Period will
end on that date.
(2) Contain the date of the notice and
the policy number, and will state
the reason for cancellation.
5. Policies written for a term of more than
one year or on a continuous basis may be
cancelled by the insurer for any reason at
an anniversary date, upon 30 days’
written notice of cancellation.
6. If this policy is cancelled, the Insurer
will send the Named Insured any
premium refund due. If the Insurer
cancels, the refund will be pro rata. If the
Named Insured cancels, the refund may
be less than pro rata. The cancellation
will be effective even if the Insurer have
not made or offered a refund.
7. If notice is mailed, proof of mailing will
be sufficient proof of notice.
8. Number of Days Notice of Cancellation
a. With respect to insurance provided by
this policy, cancellation will not be
effective until at least:

83673 • COPE • APPENDIX D

AL 10/8/20

161a
(1) Ten (10) working days after the
first Named Insured receives the
notice, if the Insurer cancels for
nonpayment of premium; or
(2) Thirty (30) days after the first
Named Insured receives the
notice, if the Insurer cancels for
any other reason.
NON-RENEWAL:
1. The Insurer may elect not to renew this
policy by mailing or delivering to the
Named Insured and any agent, if any,
at the last mailing address known to the
Insurer, written notice of non-renewal.
2. We will mail the notice of nonrenewal at
least 30 days before the expiration date of
the policy.
3. Proof of malling will be sufficient proof of
notice.
PROOF OF NOTICE OF CANCELLATION OR
NON-RENEWAL:
If notice of cancellation or non-renewal is
mailed, a post office certificate of mailing
will be conclusive proof that the Named
Insured received the notice on the third
calendar day after the date of the
certificate of mailing.

83673 • COPE • APPENDIX D

AL 10/8/20

162a
[LOGO]
Philadelphia Insurance Companies
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100,
Bala Cynwyd, PA 19004
COVER-PROsm RENEWAL APPLICATION
NOTICE: This professional liability coverage is
provided on a claims-made basis; therefore, only
claims which are first made against you, and
reported to the Company, during the policy term,
any subsequent renewal of this policy or any
extended reporting period are covered, subject to
policy provisions.
1. Name of the Applicant Firm:
GATEWAY HOSPITALITY GROUP INC
2. Applicant principal location:
Address: 8921 CANYON FALLS BLVD, STE 140
City: TWINSBURG

State: OH

Zip: 44087

Website: ghghotels.net
E-mail address: RHUTCHESON@ghghotels.net
3. Date established: 12/23/2000
Telephone: 330-405-9122
4. Describe the Applicant’s nature of business:
HOTEL & RESTAURANT MANAGEMENT +
DEVELOPMENT CO.

83673 • COPE • APPENDIX D

AL 10/8/20

163a
5. Is the Applicant Firm controlled, owned,
affiliated or associated with any other firm,
corporation or company?
ý Yes o No If yes, provide an explanation:
______________________________________________
6. Please list the address(es) of all branch offices
and / or subsidiaries. Include a brief description
of their operations and indicate if
coverage is desired for these offices.
Branch Office(s):
SEE ATTACHED SHEETS
Subsidiary(ies):
SEE ATTACHED SHEETS
7. During the past year has the Applicant Firm’s
name been changed or has any other
business(es) been acquired, merged into or consolidated with the applicant firm? o Yes o No
If yes, provide a complete explanation
detailing any liabilities assumed.
______________________________________________
8. Staffing – Provide a breakdown of the Applicant’s
staff into the following categories:
A. Principals, Partners or Officers:

3

B. Professionals (not included in A):
C. Support staff (including part-time):

11

D. Part-time professionals (less than 20 hr/wk):
TOTAL:

83673 • COPE • APPENDIX D

14

AL 10/8/20

164a
9. Dates of Applicant Firm’s current fiscal
period: From: 1/1/2014 To: 12/31/2014
CURRENT
ESTIMATE–
PAST
FISCAL YEAR FISCAL YEAR NEXT YEAR
Total Gross Annual Revenue:
$3,793,064

$4,346,457

$4,200,000

10. For the gross annual revenue listed in question 9, please give the approximate percentage
derived from each service you provide.
MANAGEMENT FEES
Service:
Percent of Revenue: 82%
REVENUE MANAGEMENT
Service:
Percent of Revenue: 6%
Service: ACCOUNTING FEE/SERVICE FEE
Percent of Revenue: 6%
DEVELOPMENT [ILLEGIBLE],
Service:
TECHNICAL SERVICE FEE
Percent of Revenue: 6%
To enter more information, please use the
separate page attached to the application
11. Were more than fifty (50)% of the Applicant’s
total gross annual revenue for any one year
derived from a single client or contract?
o Yes ý No If yes, provide the following:
11a. Client name: ________________________________
11b. Services rendered:
_______________________________________________
11c. How long do you expect this relationship to
continue?
_______________________________________________

83673 • COPE • APPENDIX D

AL 10/8/20

165a
12. Describe the Applicant Firm’s three (3) largest
jobs or projects since your last renewal.
Client name:

NONE

Services rendered:
Total gross billings: $
Client name:
Services rendered:
Total gross billings: $
Client name:
Services rendered:
Total gross billings: $
13. Does the Applicant utilize the services of
independent contractors or sub-consultants?
o Yes ý No
13a. Approximate percentage of gross annual
revenue attributable to independent contractors
or sub-consultants: 0 %
14. Does the Applicant ever enter into contracts
where your fees for services provided are
contingent upon the client achieving cost
reductions or improved operating results?
o Yes ý No If yes, provide a description
of such arrangements.
_______________________________________________

83673 • COPE • APPENDIX D

AL 10/8/20

166a
15. Does the Applicant secure a·written contract or
agreement for every project? ý Yes o No
(Please attach a sample copy) If no, provide
the percentage of your gross annual revenue
where a written contract is secured _______%
16. Does the Applicant’s contracts contain any of
the following? (check all that apply)

o Hold harmless or indemnification clauses in
the Applicant’s favor

o Hold harmless or indemnification clauses in
your Client’s favor

ý A specific description of the services the
Applicant will provide

o Guarantees or warranties
o Payment terms
17. Are any staff members considered “Licensed
Professionals” or do any staff members hold any
professional designations or belong to any
professional societies/associations?
ý Yes o No If yes, provide the individual’s
name and designation/affiliation:
Ron Hutcheson, CPA
18. Do you currently carry commercial general
liability insurance ý Yes o No
Professional liability coverage requested:
LIMIT OF LIABILITY:

o
$250,000 ý $2,000,000 o $6,000,000
o
$300,000 o $3,000,000 o $7,000,000
o
$500,000 o $4,000,000 o $8,000,000
o $1,000,000 o $5,000,000 o $9,000,000
o $10,000,000
DEDUCTIBLE: $________________________

83673 • COPE • APPENDIX D

AL 10/8/20

167a
FRAUD NOTICE STATEMENTS
NOTICE TO APPLICANTS: “ANY PERSON
WHO KNOWINGLY AND WITH INTENT TO DEFRAUD ANY INSURANCE COMPANY OR
OTHER PERSON FILES AN APPLICATION FOR
INSURANCE OR STATEMENT OF CLAIM CONTAINING ANY MATERIALLY FALSE INFORMATION, OR CONCEALS FOR THE PURPOSE
OF MISLEADING, INFORMATION CONCERNING ANY FACT MATERIAL THERETO, COMMITS A FRAUDULENT INSURANCE ACT WHICH
IS A CRIME AND MAY SUBJECT SUCH PERSON
TO CRIMINAL AND CIVIL PENALTIES.”
NOTICE TO ALASKA RESIDENTS APPLICANTS: “A PERSON WHO KNOWINGLY AND
WITH INTENT TO INJURE, DEFRAUD OR
DECEIVE AN INSURANCE COMPANY FILES A
CLAIM CONTAINING FALSE, INCOMPLETE OR
MISLEADING INFORMATION MAY BE PROSECUTED UNDER STATE LAW.”
NOTICE TO ARKANSAS RESIDENT APPLICANTS: “ANY PERSON WHO KNOWINGLY
PRESENTS A FALSE OR FRAUDULENT CLAIM
FOR PAYMENT OF A LOSS OR BENEFIT OR
KNOWINGLY PRESENTS FALSE INFORMATION IN AN APPLICATION FOR INSURANCE IS
GUILTY OF A CRIME AND MAY BE SUBJECT
TO FINES AND CONFINEMENT IN PRISON.”
NOTICE TO ARIZONA RESIDENTS APPLICANTS: “FOR YOUR PROTECTION ARIZONA
LAW REQUIRES THE FOLLOWING STATEMENT TO APPEAR ON THIS FORM. ANY
PERSON WHO KNOWINGLY PRESENTS A
FALSE OR FRAUDULENT CLAIM FOR PAY-

83673 • COPE • APPENDIX D

AL 10/8/20

168a
MENT OF A LOSS IS SUBJECT TO CRIMINAL
AND CIVIL PENALTIES.”
NOTICE TO COLORADO RESIDENTS APPLICANTS: “IT IS UNLAWFUL TO KNOWINGLY
PROVIDE FALSE, INCOMPLETE, OR MISLEADING FACTS OR INFORMATION TO AN INSURANCE COMPANY FOR THE PURPOSE OF
DEFRAUDING OR ATTEMPTING TO DEFRAUD
THE COMPANY. PENALTIES MAY INCLUDE
IMPRISONMENT, FINES, DENIAL OF INSURANCE, AND CIVIL DAMAGES. ANY INSURANCE
COMPANY OR AGENT OF AN INSURANCE
COMPANY WHO KNOWINGLY PROVIDES
FALSE,
INCOMPLETE,
OR
MISLEADING
FACTS OR INFORMATION TO A POLICYHOLDER OR CLAIMANT FOR THE PURPOSE
OF DEFRAUDING OR ATTEMPTING TO DEFRAUD THE POLICYHOLDER OR CLAIMANT
WITH REGARD TO A SETTLEMENT OR AWARD
PAYABLE FROM INSURANCE PROCEEDS
SHALL BE REPORTED TO THE COLORADO
DIVISION OF INSURANCE WITHIN THE
DEPARTMENT OF REGULATORY AGENCIES.”
NOTICE TO DISTRICT OF COLUMBIA APPLICANTS: “WARNING: IT IS A CRIME TO PROVIDE FALSE OR MISLEADING INFORMATION
TO AN INSURER FOR THE PURPOSE OF
DEFRAUDING THE INSURER OR ANY OTHER
PERSON, PENALTIES INCLUDE IMPRISONMENT AND/OR FINES, IN ADDITION, AN
INSURER MAY DENY INSURANCE BENEFITS
IF
FALSE
INFORMATION
MATERIALLY
RELATED TO A CLAIM WAS PROVIDED BY
THE APPLICANT.”

83673 • COPE • APPENDIX D

AL 10/8/20

169a
NOTICE TO FLORIDA RESIDENTS APPLICANTS: “ANY PERSON WHO, KNOWINGLY
AND WITH INTENT TO INJURE, DEFRAUD, OR
DECEIVE ANY INSURER FILES A STATEMENT
OF CLAIM OR AN APPLICATION CONTAINING
ANY FALSE, INCOMPLETE OR MISLEADING
INFORMATION IS GUILTY OF A FELONY OF
THE THIRD DEGREE.”
NOTICE TO KENTUCKY APPLICANTS: “ANY
PERSON WHO KNOWINGLY AND WITH
INTENT TO DEFRAUD ANY INSURANCE COMPANY OR OTHER PERSON FILES AN APPLICATION FOR INSURANCE CONTAINING ANY
“MATERIALLY” FALSE INFORMATION, OR CONCEALS FOR THE PURPOSE OF MISLEADING,
INFORMATION CONCERNING ANY FACT
MATERIAL THERETO, COMMITS A FRAUDULENT INSURANCE ACT WHICH IS A CRIME.”
NOTICE TO LOUISIANA RESIDENTS APPLICANTS: “ANY PERSON WHO KNOWINGLY
PRESENTS A FALSE OR FRAUDULENT CLAIM
FOR PAYMENT OF A LOSS OR BENEFIT OR
KNOWINGLY PRESENTS FALSE INFORMATION IN AN APPLICATION FOR INSURANCE IS
GUILTY OF A CRIME AND MAY BE SUBJECT
TO FINES AND CONFINEMENT IN PRISON.”
NOTICE TO MAINE RESIDENTS APPLICANTS: “IT IS A CRIME TO KNOWINGLY
PROVIDE FALSE, INCOMPLETE OR MISLEADING INFORMATION TO AN INSURANCE COMPANY FOR THE PURPOSE OF DEFRAUDING
THE COMPANY, PENALTIES MAY INCLUDE
IMPRISONMENT, FINES OR A DENIAL OF
INSURANCE BENEFITS.”

83673 • COPE • APPENDIX D

AL 10/8/20

170a
RESIDENTS OF MARYLAND APPLICANTS:
“ANY PERSON WHO KNOWINGLY AND WILLFULLY PRESENTS A FALSE OR FRAUDULENT
CLAIM FOR PAYMENT OF A LOSS OR BENEFIT
OR WHO KNOWINGLY AND WILLFULLY PRESENTS FALSE INFORMATION IN AN APPLICATION FOR INSURANCE IS GUILTY OF A CRIME
AND MAY BE SUBJECT TO FINES AND CONFINEMENT IN PRISON.”
RESIDENTS OF MINNESOTA APPLICANTS:
“ANY PERSON WHO, WITH INTENT TO DEFRAUD OR KNOWING THAT HE/SHE IS FACILITATING A FRAUD AGAINST ANY INSURER,
SUBMITS AN APPLICATION OR FILES A
CLAIM CONTAINING A FALSE OR DECEPTIVE
STATEMENT IS GUILTY OF INSURANCE
FRAUD.”
RESIDENTS OF NEW JERSEY APPLICANTS:
“ANY PERSON WHO INCLUDES ANY FALSE OR
MISLEADING INFORMATION ON AN APPLICATION FOR AN INSURANCE POLICY IS SUBJECT TO CRIMINAL AND CIVIL PENALTIES.”
RESIDENTS OF NEW MEXICO APPLICANTS:
“ANY PERSON WHO KNOWINGLY PRESENTS A
FALSE OR FRAUDULENT CLAIM FOR PAYMENT OF A LOSS OR BENEFIT OR KNOWINGLY PRESENTS FALSE INFORMATION IN
AN APPLICATION FOR INSURANCE IS GUILTY
OF A CRIME AND MAY BE SUBJECT TO CIVIL
FINES AND CRIMINAL PENALTIES.”
RESIDENTS OF NEW YORK APPLICANTS:
“ANY PERSON WHO KNOWINGLY AND WITH
INTENT TO DEFRAUD ANY INSURANCE COMPANY OR OTHER PERSON FILES AN APPLICA-

83673 • COPE • APPENDIX D

AL 10/8/20

171a
TION FOR INSURANCE OR STATEMENT OF
CLAIM
CONTAINING
ANY
MATERIALLY
FALSE INFORMATION, OR CONCEALS FOR
THE PURPOSE OF MISLEADING, INFORMATION CONCERNING ANY FACT MATERIAL
THERETO, COMMITS A FRAUDULENT INSURANCE ACT, WHICH IS A CRIME AND SHALL
ALSO BE SUBJECT TO A CIVIL PENALTY NOT
TO EXCEED FIVE THOUSAND DOLLARS AND
THE STATED VALUE OF THE CLAIM FOR
EACH SUCH VIOLATION.”
RESIDENTS OF OHIO APPLICANTS: “ANY
PERSON WHO, WITH INTENT TO DEFRAUD
OR KNOWING THAT HE/SHE IS FACILITATING
A FRAUD AGAINST ANY INSURER, SUBMITS
AN APPLICATION OR FILES A CLAIM CONTAINING A FALSE OR DECEPTIVE STATEMENT IS GUILTY OF INSURANCE FRAUD.”
RESIDENTS OF OKLAHOMA APPLICANTS:
“ANY PERSON WHO KNOWINGLY AND WITH
INTENT TO INJURE, DEFRAUD OR DECEIVE
ANY INSURER, MAKES ANY CLAIM FOR THE
PROCEEDS OF AN INSURANCE POLICY CONTAINING ANY FALSE, INCOMPLETE OR MISLEADING INFORMATION IS GUILTY OF A
FELONY.”
RESIDENTS OF OREGON APPLICANTS:
“ANY PERSON WHO KNOWINGLY AND WITH
INTENT TO DEFRAUD OR SOLICIT ANOTHER
TO DEFRAUD AN INSURER: (1) BY SUBMITTING AN APPLICATION, OR (2) BY FILING A
CLAIM CONTAINING A FALSE STATEMENT AS
TO ANY MATERIAL FACT, MAY BE VIOLATING
STATE LAW.”

83673 • COPE • APPENDIX D

AL 10/8/20

172a
RESIDENTS OF PENNSYLVANIA APPLICANTS: “ANY PERSON WHO KNOWINGLY
AND WITH INTENT TO DEFRAUD ANY
INSURANCE COMPANY OR OTHER PERSON
FILES AN APPLICATION FOR INSURANCE OR
STATEMENT OF CLAIM CONTAINING ANY
MATERIALLY FALSE INFORMATION OR CONCEALS FOR THE PURPOSE OF MISLEADING
INFORMATION CONCERNING ANY FACT
MATERIAL THERETO COMMITS A FRAUDULENT INSURANCE ACT WHICH IS A CRIME
AND SUBJECTS SUCH PERSON TO CRIMINAL
AND CIVIL PENALTIES.”
RESIDENTS OF TENNESSEE APPLICANTS:
“IT IS A CRIME TO KNOWINGLY PROVIDE
FALSE, INCOMPLETE OR MISLEADING INFORMATION TO AN INSURANCE COMPANY FOR
THE
PURPOSE
OF
DEFRAUDING
THE
COMPANY, PENALTIES INCLUDE IMPRISONMENT, FINES AND DENIAL OF INSURANCE
BENEFITS.”
RESIDENTS OF TEXAS APPLICANTS: IF A
LIFE, HEALTH AND ACCIDENT INSURER
PROVIDES A CLAIM FORM FOR A PERSON TO
USE TO MAKE A CLAIM, THAT FORM MUST
CONTAIN THE FOLLOWING STATEMENT OR A
SUBSTANTIALLY SIMILAR STATEMENT: “ANY
PERSON WHO KNOWINGLY PRESENTS A
FALSE OR FRAUDULENT CLAIM FOR THE
PAYMENT OF A LOSS IS GUILTY OF A CRIME
AND MAY BE SUBJECT TO FINES AND
CONFINEMENT IN STATE PRISON.”
RESIDENTS OF VIRGINIA APPLICANTS: “IT
IS A CRIME TO KNOWINGLY PROVIDE FALSE,
INCOMPLETE OR MISLEADING INFORMA-

83673 • COPE • APPENDIX D

AL 10/8/20

173a
TION TO AN INSURANCE COMPANY FOR THE
PURPOSE OF DEFRAUDING THE COMPANY.
PENALTIES MAY INCLUDE IMPRISONMENT,
FINES AND DENIAL OF INSURANCE BENEFITS.”
RESIDENTS OF WASHINGTON APPLICANTS:
“IT IS A CRIME TO KNOWINGLY PROVIDE
FALSE, INCOMPLETE, OR MISLEADING INFORMATION TO AN INSURANCE COMPANY FOR
THE PURPOSES OF DEFRAUDING THE COMPANY. PENALTIES INCLUDE IMPRISONMENT,
FINES, AND DENIAL OF INSURANCE BENEFITS.”
RESIDENTS OF WEST VIRGINIA APPLICANTS: “ANY PERSON WHO KNOWINGLY
PRESENTS A FALSE OR FRAUDULENT CLAIM
FOR PAYMENT OF A LOSS OR BENEFIT OR
KNOWINGLY PRESENTS FALSE INFORMATION IN AN APPLICATION FOR INSURANCE IS
GUILTY Of A CRIME AND MAY BE SUBJECT
TO FINES AND CONFINEMENT IN PRISON.”
RON HUTCHESON
Name (Please Print/Type)
CFO
Title (MUST BE SIGNED BY A PRINCIPAL,
PARTNER OR OWNER)
/s/ Ron Hutcheson
Signature

June 18, 2014
Date

The above signed warrants that he/she is authorized and has the power to complete and execute
this Application, including the Warranty Statement
on behalf of the Applicant and their respective
Directors, Officers or other insured persons.

83673 • COPE • APPENDIX D

AL 10/8/20

174a
Produced By: (Section to be completed by
Producer/Broker)
______________________________________
Producer
______________________________________
Agency
______________________________________
Producer License Number
______________________________________
Agency Taxpayer ID or SS Number
______________________________________
Address (Street, City, State, Zip)
ADDITIONAL INFORMATION
This page may be used to provide additional
information to any question on this application.
Please identify the question number to which you
are referring.
NONE

/s/ Ron Hutcheson
Signature

June 18, 2014
Date

© 2010 Philadelphia Insurance Companies

83673 • COPE • APPENDIX D

AL 10/8/20

175a
[LOGO]
Philadelphia Insurance Companies
A Member of the Tokio Marine Group
One Bala Plaza, Suite 100
Bala Cynwyd, PA 19004
COVER-PROsm APPLICATION
HOTEL/ MOTEL MANAGER SUPPLEMENT
1. Full Name of the Applicant Firm:
GATEWAY HOSPITALITY GROUP INC
2. Number of locations managed by the Applicant:
22
3. Does the Applicant have ownership interest in
any of the locations managed? ý Yes o No
If yes, what percentage of the total does the
Applicant own? ___% – SEE ATTACHED SHEETS
4. Total years of experience of the Applicant involv40+
ing direct management of hotels:
5. Does the Applicant have written policies or
procedures regarding:
a. Internal accounting/bookkeeping: ý Yes o No
b. Customer complaints/
ý Yes o No
dissatisfaction:
c. Emergency/Catastrophe
ý Yes o No
procedures:
6. Does the owner of the hotels managed carry GL
ý Yes o No
Insurance?
a. If yes, provide details.
i. Insurance company: __________________
ii. Policy number: _______________________

83673 • COPE • APPENDIX D

AL 10/8/20

176a
iii. Limits of liability: ____________________
iv. Policy expiration date: ________________
7. Describe the backup system or procedures in
place for your customer reservation system.
The Hotel Flag (Franchisor) uploads every night
& Backups Data. Also the property Backups Tape
Daily
ADDITIONAL INFORMATION
This section may be used to provide
additional information to any question on
this application. Please identify the question
number to which you are referring.

I understand that the information submitted
herein becomes a part of my Philadelphia
Insurance Company Cover-Prosm application
and is subject to the same conditions as
stated on the application.
RON HUTCHESON
Name (Please Print)
CFO
Title (Must be Principal, Partner or Officer)
/s/ Ron Hutcheson
Signature

June 18, 2014
Date

© 2010 Philadelphia Insurance Companies

83673 • COPE • APPENDIX D

AL 10/8/20

83673 • COPE • APPENDIX D

Total Equity

1 Western Hospitality
Group LP
Total Equity
2 Applegate Hotel
Operating
Company LLC
Total Equity
3 Firewheel Hotel Ltd

Legal
Entity
Gateway Hospitality
Group Inc.
Total Equity

Entity holds the Employees
for the 5 Apple Hotels
(See Below)**
Hyatt Place –
Garland, TX

Limited
Liability
Company
Limited
Partnership

(continued on next page)

Hilton Garden Inn –
Missoula, MT

Limited
Partnership

80

128

Gateway Hospitality Group
Equity in Companies
Type of
Type of
Number of
Legal Entity
Operations
Employees
8 Corporation
Hotel Development &
14
Management Company

32.21%

100.00%

36.13%

100.00%

Ownership
Percentage

177a

AL 10/8/20

83673 • COPE • APPENDIX D

Total Equity

Total Equity
8 Blue Canyon Ltd

Total Equity
7 RSV Wheeling LLC

Total Equity
6 JWT Hospitality
Group Billings, LLC

Total Equity
5 Levt Commons
Hotel LLC

4 Kallspell Hotel LLC

Blue Canyon Restaurant–
Twinsburg

Hampton Inn & Suites–
Wheeling

Hilton Garden Inn –
Billings, MT

Hilton Garden Inn –
Perrysburg

Hilton Garden Inn –
Kallspell

(continued on next page)

Limited
Partnership

Limited
Liability
Company

Limited
Liability
Company

Limited
Liability
Company

Limited
Liability
Company

125

35

45

90

85

88.00%

50.00%

8.43%

100.00%

33.33%

178a

AL 10/8/20

83673 • COPE • APPENDIX D

Owns Land
in Duncanville, TX

Hampton Inn & Suites

Bozeman Lodging
Investors LLC
Oak Street
Partnership

11

Limited
Hilton Garden Inn –
Liability
Blue Ash
Company
Limited
Hilton Garden Inn –
Liability
Bozeman
Company
General
Comfort Inn –
Partnership –
of Bozeman
Montana
(continued on next page)

Blue Kennwood LLC

10

9

Limited
Partnership

Limited
Liability
Company
—

35

30

49

35

List of Other Entities with No Equity – Third Party Management Contracts

Total Equity
10 Duncanville
Hospitality Ltd
Total Equity

9 Heritage Square
Hotel LLC

50.00%

15.00%

179a

AL 10/8/20

83673 • COPE • APPENDIX D

17

16

15

14

13

12

Limited
Comfort Suites –
Liability
Bozeman
Company
MFM 2000
S
Hilton Garden Inn –
Motel, Inc.
Corporation
Newburgh
Bella Harbor Hotel
Limited
Hilton Dallas/
Adventure LLC
Liability
Rockwall Lakefront
Company
The Inn at St. Mary’s Limited
Hilton Garden Inn –
Partners L.P.
Partnership
South Bend
Denson Walker
Limited
Hilton Garden Inn –
Properties, LLC
Liability
Denison
Company
Movie Lounge
Limited
The Movie Lounge
of Fort Smith
Liability
of Fort Smith
Company
(continued on next page)

Catron
Partners LLC

36

90

108

135

60

25

180a

AL 10/8/20

17** Apple Nine
Corporation
Hospitality
Ownership Inc.
18** Apple Nine
Corporation
Hospitality
Ownership Inc.
19** Apple Nine
Corporation
Hospitality
Ownership Inc.
20** Apple Nine
Corporation
Hospitality
Ownership Inc.
21** Apple Nine
Corporation
Hospitality
Ownership Inc.
Total Number of Employees

83673 • COPE • APPENDIX D

65

71

96

89

Hilton Garden
Inn – Allen
Hilton Garden
Inn – Duncanville
Hilton Garden
Inn – Lewisville
Hilton Garden
Inn – Twinsburg

–––––––
1,646

22

Hampton Inn
& Suites – Allen

181a

AL 10/8/20

182a
Gateway Hospitality Group Inc.
Hotels & Subsidiaries
6/18/2014
Operating Hotels & Restaurants
Hilton Garden Inn – Twinsburg, OH
Hilton Garden Inn – South Bend, IN
Hilton Hotel – Rockwall, TX
Hilton Garden Inn – Lewisville, TX
Hilton Garden Inn – Allen, TX
Hilton Garden Inn – Duncanville, TX
Hilton Garden Inn – Missoula, MT
Hilton Garden Inn – Kalispell, MT
Hilton Garden Inn – Billings, MT
Hampton Inn & Suites, Allen, TX
Hyatt Place – Garland, TX
Hilton Garden Inn – Perrysburg, OH
Hampton Inn & Suites – Wheeling, WV
Hilton Garden Inn – Blue Ash, OH
Hilton Garden Inn – Bozeman, MT
Hilton Garden Inn – Newburgh, NY
Comfort Inn – Bozeman, MT
Comfort Suites – Bozeman, MT
Hilton Garden Inn – Las Colinas, TX
Hilton Garden Inn – Denison, TX
Hampton Inn & Suites – Mishawka, IN
Blue Canyon Kitchen & Tavern – Twinsburg, OH
MovieLounge – Fort Smith, AR
Subsidiaries
Duncanville Hospitality Ltd.
Levis Commons Hotel LLC
JWT Hospitality Group Billings LLC
Firewheel Welcome LLC
Firewheel Hotel Ltd.

83673 • COPE • APPENDIX D

AL 10/8/20

183a
Kalispell-Hotel LLC
Glacier Hotel LLC
Western Hospitality Group LP
Missoula Hospitality LLC
WHGL LLC
North Texas Regional Hotel Ltd
SCI North Texas Regional Welcome LLC
GHG Pittsburgh LLC
GHG Duncanville LLC
GHG Billings LLC
GHG Garland LLC
GHG Kalispell LLC
GHG Liquor LLC
GHG Missoula LLC
GHG Perrysburg LLC
GHG Denison LLC
HGI Allen Private Club, Inc.
GHG Liquor LLC
Applegate Operating Company Inc.
Blue Canyon Ltd.
Blue Canyon Rockwall LLC
RSV Wheeling LLC
RSV Twinsburg Hotel Ltd
RSV Twinsburg LLC
RSV Hospitality Enterprises Inc.
Gateway Mishawaka LLC
Heritage Square Hotel LLC

83673 • COPE • APPENDIX D

AL 10/8/20

184a
Brenda L. McGee
From:

“Carol Parsons”
[cparsons@uainc.com]
Sent:
Monday, June 23, 2014 10:19 AM
To:
Shope, Michele
Subject:
FW: GHG Errors & Omissions
Renewal
Attachments: GHG Professional Liability
application-6-2014.pdf
Policy# PHSD863530 August 16th expiration date.
Michele: Attached is the renewal application for
the Gateway Hospitality Group’s Professional
Liability.
Please provide renewal quote at your earliest
convenience. Thank you.
Carol Parsons
United Agencies, Inc.
1422 Euclid Ave., Suite 900
Cleveland, Ohio 44115
(216) 241-1199
(216) 241-1339 Fax
cparsons@uainc.com
From: Ron Hutcheson
[mailto:rhutcheson@ghghotels.net]
Sent: Friday, June 20, 2014 3:29 PM
To: “Carol Parsons”
Subject: RE: GHG Errors & Omissions Renewal
Carol – attached is the application completed –
enjoy – thanks

83673 • COPE • APPENDIX D

AL 10/8/20

185a
Ron Hutcheson
Gateway Hospitality Group
8921 Canyon Falls Blvd., Ste. 140
Twinsburg, OH 44087
(T) 330-405-9122
(F) 330-405-9898
(C) 440-336-3698
From: “Carol Parsons” [mailto:cparsons@uainc.com]
Sent: Tuesday, June 17, 2014 2:37 PM
To: Ron Hutcheson
Subject: GHG Errors & Omissions Renewal
Hi Ron: The E & O/Professional Liability for GHG
is due to expire on August 16th. Attached is the
application and supplement that need to be
completed and returned in order for us to approach
markets on your behalf and obtain quotes for your
consideration. Please complete and return at your
earliest convenience.
Also, by now you should have received your copy of
the July 1st Office Package renewal from State
Auto Insurance – Policy # BOP 2125758. This
policy covers your actual office exposure in
Twinsburg. The policy currently provides a limit of
$341,129 for your building improvements and
betterments, $43,181 for general office contents
and $102,000 for electronic data processing
equipment (phones, faxes, copiers, scanners,
computers); as well as your premises General
Liability coverage.
Please let me know if you wish to make any
changes in these limits; or if you want me to come
out and go over the coverages with you in greater
detail.

83673 • COPE • APPENDIX D

AL 10/8/20

186a
Hope you are enjoying your summer so far. Don’t
hesitate to call if you have any questions. Thank
you.
Carol Parsons
United Agencies, Inc.
1422 Euclid Ave., Suite 900
Cleveland, Ohio 44115
(216) 241-1199
(216) 241-1339 Fax
cparsons@uainc.com
[Cover-Prosm Renewal Application and Cover-Prosm
Application Hotel/Motel Manager Supplement
attached to this email are reproduced
herein at pages 162 through 182]

83673 • COPE • APPENDIX D

AL 10/8/20

